Appendix A-1
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
CEDAR POINT NURSERY;
FOWLER PACKING COMPANY,
INC.,
Plaintiffs-Appellants,
v.
GENEVIEVE SHIROMA; CATHRYN
RIVERA-HERNANDEZ; SANTIAGO
AVILA-GOMEZ, Esquire;
ISADORE HALL III,
Defendants-Appellees.

No. 16-16321
D.C. No.
1:16-cv-00185LJO-BAM

OPINION

Appeal from the United States District Court
for the Eastern District of California
Lawrence J. O’Neill, Chief District Judge, Presiding
Argued and Submitted November 17, 2017
San Francisco, California
May 8, 2019
Before: Edward Leavy, William A. Fletcher,
and Richard A. Paez, Circuit Judges.
Opinion by Judge Paez;
Dissent by Judge Leavy

Appendix A-2
SUMMARY*
_________________________________________________
Constitutional Law / Takings / Seizure
The panel affirmed the district court’s dismissal
of an appeal by Growers seeking declaratory and
injunctive relief against members of the California
Agricultural Labor Relations Board who promulgated
a regulation allowing union organizers access to
agricultural employees at employer worksites under
specific circumstances.
The Growers alleged that the access regulation, as
applied to them, was unconstitutional because it was
a per se taking in violation of the Fifth Amendment
and was an unlawful seizure of their property in
violation of the Fourth Amendment.
The panel rejected the Growers’ allegation that
the access regulation, as applied to them, effected a
Fifth Amendment taking by creating an easement
that allowed union organizers to enter their property
“without consent or compensation.” The panel held
that the Growers did not suffer a permanent physical
invasion that would constitute a per se taking.
Although the access regulation did not have a
contemplated end-date, it did not meet Nollan v.
California Coastal Commission, 483 U.S. 825 (1987)’s
definition of a permanent physical occupation where
the regulation significantly limited organizers’ access

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the
reader.
*

Appendix A-3
to the Growers’ property. The panel further held that
the Growers did not suffer a permanent physical
invasion that would constitute a per se taking because
the sole property right affected by the regulation was
the right to exclude.
The panel held that the Growers did not plausibly
allege that the access regulation effected a “seizure”
within the meaning of the Fourth Amendment.
Specifically, the panel held that the Growers failed to
cite any directly applicable authority supporting their
contention that the access regulation was a
meaningful interference with their possessory
interests in their property. The panel further held
that the Growers did not allege facts showing that the
character of their property was somehow “profoundly
different” because of the access regulation.
Judge Leavy dissented because he would hold
that the alleged access regulation was an
unconstitutional taking, and the district court erred
in granting the motion to dismiss. Judge Leavy wrote
that the Growers sufficiently alleged that no
employees lived on the Growers’ properties and the
employees were not beyond the reach of the union’s
message; and he had found no Supreme Court case
holding that non-employee labor organizers may enter
an employer’s nonpublic, private property for
substantial periods of time, when none of the
employees lived on the employer’s premises.
COUNSEL
Wencong Fa (argued), Jeremy Talcott, Joshua P.
Thompson, and Damien M. Schiff, Pacific Legal
Foundation, Sacramento, California; Ian B. Wieland

Appendix A-4
and Howard A. Sagaser, Sagaser, Watkins & Wieland
PC; Fresno, California, for Plaintiffs-Appellants.
R. Matthew Wise (argued), Deputy Attorney General;
Mark R. Beckington, Supervising Deputy Attorney
General; Douglass J. Woods, Senior Assistant
Attorney General; Xavier Becerra, Attorney General;
Office of the Attorney General, Sacramento,
California; for Defendants-Appellees.
Frank Garrison and Ilya Shapiro, Cato Institute,
Washington, D.C., for Amicus Curiae Cato Institute.
Gina Cannon and Steven J. Lechner, Mountain States
Legal Foundation, Lakewood, Colorado, for Amicus
Curiae Mountain States Legal Foundation.
Nancy N. McDonough and Carl G. Borden, California
Farm Bureau Federation, for Amicus Curiae
California Farm Bureau Federation.
Mario Martínez, Martínez Aguilasocho & Lynch
APLC, Bakersfield, California; Jacob C. Goldberg and
Henry M. Willis, Schwartz Steinsapir Dohrmann &
Sommers LLP, Los Angeles, California; for Amici
Curiae United Farm Workers of America and United
Food and Commercial Workers Union, Local 770.
OPINION
PAEZ, Circuit Judge:
In 1975, the California legislature enacted the
Agricultural Labor Relations Act (“ALRA”) to “ensure
peace in the agricultural fields by guaranteeing
justice for all agricultural workers and stability in

Appendix A-5
labor relations.”1 Among the ALRA’s enactments was
the creation of the Agricultural Labor Relations Board
(“the Board”). Shortly after the ALRA’s effective date,
the Board promulgated a regulation allowing union
organizers access to agricultural employees at
employer worksites under specific circumstances. In
this case, we are asked to decide whether the access
regulation is unconstitutional as applied to Plaintiffs,
Cedar Point Nursery and Fowler Packing Company
(collectively, “the Growers”).
The Growers appeal the district court’s dismissal
of their complaint seeking declaratory and injunctive
relief against members of the Board. The Growers
contend that the access regulation, as applied to them,
is unconstitutional in two ways. First, the Growers
allege that the regulation amounts to a per se taking
in violation of the Fifth Amendment because it is a
permanent physical invasion of their property without
just compensation. Second, the Growers allege that
the regulation effects an unlawful seizure of their
property in violation of the Fourth Amendment. We
conclude the access regulation does not violate either
provision, and affirm.
BACKGROUND
The Access Regulation
The ALRA authorized the Board to make “such
rules and regulations as may be necessary to carry
out” the ALRA. Cal. Lab. Code §§ 1141, 1144.
Pursuant to this authority, the Board promulgated an
Cal. Lab. Code § 1140 note (West 2011) (Historical and
Statutory Notes).

1

Appendix A-6
emergency regulation shortly after the ALRA’s
effective date that allowed union organizers access to
employees on their employer’s property under limited
circumstances. The Board later certified that it had
subjected the regulation to notice and comment,
allowing the regulation to remain in effect until
repealed or amended.2 Agric. Labor Relations Bd. v.
Superior Court (Pandol & Sons), 546 P.2d 687, 692 n.3
(Cal. 1976).
The access regulation was promulgated in
recognition that
[t]he United States Supreme Court has found
that organizational rights are not viable in a
vacuum. Their effectiveness depends in some
measure on the ability of employees to learn
the advantages and disadvantages of
organization from others. When alternative
channels of effective communication are not
available to a union, organizational rights
must include a limited right to approach
employees on the property of the employer.
Under such circumstances, both statutory
and constitutional principles require that a
reasonable and just accommodation be made
between the right of unions to access and the
legitimate property and business interests of
As the California Supreme Court explained, “The regulation
took effect on August 29, 1975. An emergency regulation
automatically expire[d] 120 days after its effective date unless
the agency certifie[d] during that period that it has complied with
certain requirements of notice and hearing.” Pandol & Sons, 546
P.2d at 692 n.3 (internal citation omitted). The Board certified
that it had completed these requirements on December 2, 1975.
Id.

2

Appendix A-7
the employer . . . . Generally, unions seeking
to organize agricultural employees do not
have available alternative channels of
effective
communication.
Alternative
channels of effective communication which
have been found adequate in industrial
settings do not exist or are insufficient in the
context of agricultural labor.
Cal. Code Regs. tit. 8, § 20900(b)–(c).
Thus, the Board determined that adopting a
universally applicable rule for access—as opposed to
case-by-case adjudications or the “adoption of an
overly general rule”—would best serve the
“legislatively declared purpose of bringing certainty
and a sense of fair play to a presently unstable and
potentially volatile condition in the agricultural fields
of California.” Cal. Code Regs. tit. 8, § 20900(d). The
access regulation was intended to “provide clarity and
predictability to all parties.” Id.
In furtherance of these goals, the access
regulation declared that the enumerated rights of
agricultural employees under the ALRA include “the
right of access by union organizers to the premises of
an agricultural employer for the purpose of meeting
and talking with employees and soliciting their
support.” Cal. Code Regs. tit. 8, § 20900(e). This right
of access is not unlimited. Rather, the access
regulation imposes a number of restrictions on access
relating to time, place, number of organizers, purpose,
and conduct. Id. These restrictions include, among
others:

Appendix A-8
[A]n agricultural employer’s property shall be
available to any one labor organization for no
more than four (4) thirty-day periods in any
calendar year. § 20900(e)(1)(A).
Each thirty-day period shall commence when
the labor organization files in the appropriate
regional office two (2) copies of a written
notice of intention to take access onto the
described property of an agricultural
employer, together with proof of service of a
copy of the written notice upon the employer
. . . . § 20900(e)(1)(B).
Organizers may enter the property of an
employer for a total period of one hour before
the start of work and one hour after the
completion of work to meet and talk with
employees in areas in which employees
congregate before and after working.
§ 20900(e)(3)(A).
In addition, organizers may enter the
employer’s property for a single period not to
exceed one hour during the working day for
the purpose of meeting and talking with
employees during their lunch period, at such
location or locations as the employees eat
their lunch. § 20900(e)(3)(B).
Any organizer who violates the provisions of
this part may be barred from exercising the
right of access . . . for an appropriate period of
time to be determined by the Board after due
notice and hearing. Any labor organization or
division thereof whose organizers repeatedly

Appendix A-9
violate the provisions of this part may be
barred from exercising the right of access . . .
for an appropriate period of time to be
determined by the Board after due notice and
hearing. § 20900(e)(5)(A).
Shortly after the Board promulgated the access
regulation, several agricultural employers challenged
the regulation in California state courts on both
constitutional and statutory grounds. Pandol & Sons,
546 P.2d at 692. Ultimately, the California Supreme
Court, in a 4–3 decision, vacated several different trial
courts’ orders enjoining enforcement of the regulation.
Id. at 690. The Pandol & Sons court rejected the
statutory claims by holding that the regulation was a
permissible exercise of the Board’s statutory authority
under the ALRA and that to the extent the access
regulation conflicted with the general criminal
trespass statute, the access regulation prevailed. Id.
at 699–06. The court likewise rejected the plaintiffs’
constitutional claims: first, that the regulation
violated their due process rights, and second, that it
constituted a taking without just compensation. Id. at
693–699. The regulation has remained in force to the
present.
The Growers
Plaintiff Cedar Point is an Oregon corporation
with a nursery located in Dorris, California. It raises
strawberry plants for producers. Cedar Point employs
approximately 100 full-time workers and more than
400 seasonal workers at its Dorris nursery. None of its
employees lives on the nursery property. Its seasonal

Appendix A-10
employees are housed in hotels in Klamath Falls,
Oregon.3
Cedar Point alleges that on October 29, 2015,
organizers from the United Farm Workers union (“the
UFW”) entered its property at approximately 5 a.m.,
without providing prior written notice of intent to take
access as required by the regulation. At around 6 a.m.,
the UFW organizers moved to the nursery’s trim
sheds, where they allegedly “disrupted work by
moving through the trim sheds with bullhorns,
distracting and intimidating workers.” The majority
of workers in the trim sheds did not leave their work
stations during this time, although some workers
joined the UFW organizers in protest. Most of the
workers who had left their stations during the protest
returned to work by October 31, two days after the
UFW organizers entered the property. Sometime after
the UFW organizers had accessed the property, they
served Cedar Point with written notice of intent to
take access. Following this event, Cedar Point filed a
charge against the UFW with the Board, alleging that
the UFW had violated the access regulation by failing
to provide the required written notice prior to taking
access. The UFW likewise filed a charge against Cedar
Point, alleging that Cedar Point had committed an
unfair labor practice. Cedar Point alleges that “it is
likely that [UFW] will attempt to take access again in
the near future,” and that it would “exercise its right
to exclude the [UFW] trespassers from its property” if
not for the regulation.

There are no allegations in the complaint regarding where
Cedar Point’s full-time workers live.

3

Appendix A-11
Plaintiff Fowler is a large-scale shipper of table
grapes and citrus, and is a California corporation
headquartered in Fresno. Fowler employs 1,800 to
2,500 people in its field operations and approximately
500 people at its Fresno packing facility. Fowler’s
employees do not live on the premises; Fowler alleges
in the complaint that its employees are “fully
accessible to the Union when they are not at work.”
The UFW filed an unfair labor practice charge with
the Board against Fowler, alleging that Fowler
blocked its organizers from taking access permitted by
the access regulation on three days in July 2015. The
UFW subsequently withdrew the charge in January
2016. Fowler alleges that if it were not for the access
regulation, it would oppose union access and “exercise
its right to exclude union trespassers from its
property.”
Procedural History
In February 2016, the Growers filed a complaint
for declaratory and injunctive relief under 42 U.S.C.
§ 1983 against several members of the Board and the
Board’s Executive Secretary, all of whom were sued in
their official capacities.4 The Growers alleged that the
access regulation, as applied to them, amounts to a
taking in violation of the Fifth Amendment and that
it effects an unlawful seizure of their property in
violation of the Fourth Amendment. They sought
As all Defendants were sued in their official capacities, we refer
to them collectively as “the Board” throughout this opinion. The
Growers’ suit, which seeks only prospective, declaratory, and
injunctive relief, is not barred by the Eleventh Amendment. See
Ex parte Young, 209 U.S. 123 (1908); see also Seven Up Pete
Venture v. Schweitzer, 523 F.3d 948, 956 (9th Cir. 2008).

4

Appendix A-12
declaratory and injunctive relief, barring the Board
from enforcing the regulation against them. Upon
filing the complaint, the Growers filed a motion for a
preliminary injunction to bar enforcement of the
regulation against them. The Board opposed the
motion and promptly moved to dismiss the Growers’
complaint under Federal Rule of Civil Procedure
12(b)(6) for failure to state a claim.
After denying the Growers’ motion for injunctive
relief as to both the Fifth and Fourth Amendment
claims, the district court granted the Board’s motion
to dismiss. The district court rejected the Growers’
argument that the regulation constitutes a per se
categorical taking, either on its face or as applied to
them.5 As to the Fourth Amendment claim, the
district court held that the Growers had not plausibly
alleged that the regulation “has been or will be
enforced against them in a manner that will cause a
meaningful interference with their possessory
interests” such that it would effect a seizure within
the meaning of the Fourth Amendment.6 The district
court granted the Growers leave to amend. The
Growers declined to amend the complaint, and the
Takings claims are not ripe in federal court “until the
government entity charged with implementing the regulations
has reached a final decision regarding the application of the
regulations to the property at issue” and the state has denied the
plaintiff any opportunity for just compensation. Williamson Cty.
Reg’l Planning Comm’n v. Hamilton Bank of Johnson City, 473
U.S. 172, 186, 195 (1985). Although the Board does not challenge
ripeness on appeal, we agree with the district court that the
Growers’ takings claim is ripe for consideration.

5

Because the Growers did not meet their burden as to the
“threshold issue” of plausibly alleging a seizure, the district court
did not discuss reasonableness in its order dismissing the case.

6

Appendix A-13
district court entered judgment in favor of the Board
in July, 2016. The Growers timely appealed.
STANDARD OF REVIEW
We review de novo a district court’s order granting
a motion to dismiss under Federal Rule of Civil
Procedure 12(b)(6). Metzler Inv. GMBH v. Corinthian
Colls., Inc., 540 F.3d 1049, 1061 (9th Cir. 2008). In
evaluating a motion to dismiss under Rule 12(b)(6),
“[r]eview is limited to the complaint, materials
incorporated into the complaint by reference, and
matters of which the court may take judicial notice.”
Id. (citing Tellabs, Inc. v. Makor Issues & Rights, Ltd.,
551 U.S. 308, 322 (2007)).
We may affirm a 12(b)(6) dismissal “on any
ground supported by the record, even if the district
court did not rely on the ground.” Livid Holdings, Ltd.
v. Salomon Smith Barney, Inc., 416 F.3d 940, 950 (9th
Cir. 2005). In evaluating a 12(b)(6) motion, we accept
“as true all well-pleaded allegations of fact in the
complaint” and construe them in the light most
favorable to the non-moving party. United States v.
Corinthian Colls., 655 F.3d 984, 991 (9th Cir. 2011).
To survive a motion to dismiss, the complaint “must
contain sufficient factual matter” that, taken as true,
states “a claim to relief that is plausible on its face.”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009).
DISCUSSION
The Growers argue that the access regulation as
applied to them amounts to a per se taking in violation
of the Fifth Amendment and effects an unlawful

Appendix A-14
seizure of their property in violation of the Fourth
Amendment.
I.

Fifth Amendment Per Se Takings Claim

We turn first to the Growers taking claim. We
agree with the district court that the allegations in the
complaint, taken as true, are insufficient to state a
plausible claim for relief as a per se taking under the
Fifth Amendment’s Takings Clause.
The Fifth Amendment’s Takings Clause “provides
that private property shall not ‘be taken for public use,
without just compensation.’” Lingle v. Chevron U.S.A.
Inc., 544 U.S. 528, 536 (2005). The Supreme Court has
recognized three categories of regulatory action in its
takings jurisprudence, each of which “aims to identify
regulatory actions that are functionally equivalent to
the classic taking in which government directly
appropriates private property or ousts the owner from
his domain” and which focus a court’s inquiry “directly
upon the severity of the burden that government
imposes upon private property rights.” Id. at 539.
The first category is “where government requires
an owner to suffer a permanent physical invasion of
her property—however minor.” Id. at 538 (citing
Loretto v. Teleprompter Manhattan CATV Corp., 458
U.S. 419 (1982)). The second category involves
regulations that “completely deprive an owner of ‘all
economically beneficial us[e]’ of her property.” Id.
(emphasis in original) (quoting Lucas v. S.C. Coastal
Council, 505 U.S. 1003, 1019 (1992)). These first two
categories involve actions that “generally will be
deemed [per se] takings for Fifth Amendment
purposes,” but both categories are “relatively narrow.”

Appendix A-15
Id. The third category covers the remainder of
regulatory actions, which are governed by the
standards set forth in Penn Central Transportation
Co. v. New York City, 438 U.S. 104, 124 (1978). Id.
Here, the Growers allege that the access
regulation, as applied to them, effects a Fifth
Amendment taking by creating an easement that
allows union organizers to enter their property
“without consent or compensation.” The Growers base
their Fifth Amendment argument entirely on the
theory that the access regulation constitutes a
permanent physical invasion of their property and
therefore is a per se taking.
In Loretto, the Supreme Court held that a state
law requiring landlords to allow installation of cable
facilities by cable television companies on their
property constituted a per se taking because the
installation was a permanent, albeit minor, physical
occupation of the property. 458 U.S. at 421–423, 441.
The Court noted the “constitutional distinction
between a permanent occupation and a temporary
physical invasion.” Id. at 434. The Growers argue
that, under Loretto, the access regulation is a
permanent physical occupation, as opposed to a
temporary invasion. The Growers contend that the
concept of permanence, as contemplated in Loretto,
“does not require the physical invasion to be
continuous, but instead that it have no contemplated
end-date.”
This argument is contradicted by the Court’s
opinions in PruneYard Shopping Center v. Robins, 447
U.S. 74 (1980) and Nollan v. California Coastal
Commission, 483 U.S. 825 (1987). In PruneYard, the

Appendix A-16
Supreme Court considered whether the California
Supreme Court’s decision in Robins v. Pruneyard
Shopping Center, 592 P.2d 341 (Cal. 1979), violated
the Takings Clause. 447 U.S. at 76–77. In that case,
the California Supreme Court held that the California
Constitution protects reasonably exercised speech and
petitioning in privately owned shopping centers.
Robins, 592 P.2d at 347. The PruneYard, a privately
owned shopping center that was open to the public for
purposes of patronizing its commercial establishments, had a policy of forbidding visitors and tenants
from engaging in public expressive activity unrelated
to commercial purposes. PruneYard, 447 U.S. at 77.
Although the dissent correctly points out that
PruneYard involved free speech, it also addressed a
taking claim under the Fifth Amendment. Dissent at
25. As relevant here, the Court recognized that the
California Supreme Court’s decision “literally”
constituted a “taking” of PruneYard’s right to exclude
others, but noted, “not every destruction or injury to
property by governmental action has been held to be
a ‘taking’ in the constitutional sense.” PruneYard, 447
U.S. at 82 (citing Armstrong v. United States, 364 U.S.
40, 48 (1960)). The Court concluded that requiring the
PruneYard to “permit appellees to exercise stateprotected rights of free expression and petition on
shopping center property clearly does not amount to
an unconstitutional infringement of [the PruneYard’s]
property rights under the Taking Clause.” Id. at 83.
Thus, in PruneYard there was no “contemplated
end-date” to the California Supreme Court’s decision
holding that the California Constitution protects
reasonably exercised speech and petitioning in

Appendix A-17
privately owned shopping centers. Yet, contrary to the
Growers’ argument, the Court did not conclude that
the California Supreme Court’s decision resulted in a
permanent physical invasion. Id. at 83–84.
Similarly, Nollan does not support the Growers’
theory. There, the Court considered whether the
California Coastal Commission could condition the
grant of a permit to rebuild a house on a transfer to
the public of an easement across beachfront property.
Nollan, 483 U.S. at 827. The Court held that
California could use its power of eminent domain for
this “public purpose,” but if it wanted an easement, it
must pay for it. Id. at 841–42. In its analysis, the
Court concluded that a permanent physical
occupation occurs “where individuals are given a
permanent and continuous right to pass to and fro, so
that the real property may continuously be traversed,
even though no particular individual is permitted to
station himself permanently upon the premises.” Id.
at 832. It noted that that the PruneYard holding was
not inconsistent with this analysis, “since there the
owner had already opened his property to the general
public, and in addition permanent access was not
required.” Id. at 832 n.1.
Although the access regulation does not have a
“contemplated end-date,” it does not meet Nollan’s
definition of a permanent physical occupation. As
structured, the regulation does not grant union
organizers a “permanent and continuous right to pass
to and fro” such that the Growers’ property “may
continuously be traversed.” Id. at 832. The regulation
significantly limits organizers’ access to the Growers’
property. Unlike in Nollan, it does not allow random

Appendix A-18
members of the public to unpredictably traverse their
property 24 hours a day, 365 days a year.
Furthermore, the Growers have not suffered a
permanent physical invasion that would constitute a
per se taking because the sole property right affected
by the regulation is the right to exclude. “[I]t is true
that one of the essential sticks in the bundle of
property rights is the right to exclude others.”
PruneYard, 447 U.S. at 82 (internal citation omitted).
In a permanent physical invasion, however, “the
government does not simply take a single ‘strand’
from the ‘bundle’ of property rights: it chops through
the bundle, taking a slice of every strand.” Loretto, 458
U.S. at 435; accord Murr v. Wisconsin, 137 S. Ct. 1933,
1952 (2017) (“[W]here an owner possesses a full
‘bundle’ of property rights, the destruction of one
strand of the bundle is not a taking, because the
aggregate must be viewed in its entirety.”) (Roberts,
C.J., dissenting) (quoting Andrus v. Allard, 444 U.S.
51, 65–66 (1979)). The Growers do not allege that
other property rights are affected by the access
regulation. This undermines their contention that the
access regulation effects a taking because they only
allege that the regulation affects “one strand of the
bundle” of property rights. Cf. Dolan v. City of Tigard,
512 U.S. 374, 394 (1994) (noting that unlike in
PruneYard, a permanent recreational easement
would not merely “regulate” plaintiff’s right to
exclude, but rather would “eviscerate” it, as she
“would lose all rights to regulate the time in which the
public entered onto the [property], regardless of any
interference it might pose with her retail store”).

Appendix A-19
The above discussion leads us to conclude that the
access regulation is not a permanent physical taking.
We do note, however, that in PruneYard, the Court
analyzed the restriction under the standards set forth
in Penn Central Transportation Co. v. New York City,
rather than analyzing it as a permanent physical
invasion.7 PruneYard, 447 U.S. at 83–84. In its
analysis, the Court noted there was “nothing to
suggest” that the restriction would “unreasonably
impair the value or use of [the] property as a shopping
center” and that the PruneYard was “a large
commercial complex . . . [that was] open to the public
at large.” Id.
The Growers attempt to distinguish their case
from PruneYard by overstating the extent to which
the Supreme Court relied on the fact that the
PruneYard was a shopping center generally open to
the public. While that was a consideration for the
Court, it was not a dispositive one—and critically, it
only factored into the Court’s analysis under the
standards set forth in Penn Central. Id. at 82–83.
PruneYard’s use of the Penn Central analysis
further weighs against the Growers’ contention that
the access regulation is a permanent physical taking.
In many ways, the access restriction is analogous to
the restriction at issue in PruneYard, which required
In Penn Central, the Supreme Court observed that an “ad hoc”
factual inquiry was required to determine whether a regulatory
action required compensation under the Fifth Amendment. 438
U.S. at 124. The Court identified “several factors that have
particular significance,” including the economic impact of the
regulation, its interference with reasonable investment-backed
expectations, and the character of the government action. Id.; see
also Horne v. Dep’t of Agric., 135 S. Ct. 2419, 2427 (2015).

7

Appendix A-20
the shopping center to permit individuals to exercise
free speech rights on its property. PruneYard, 447
U.S. at 76–77. The Court’s analysis of this restriction
under Penn Central counsels against analyzing the
access regulation as a permanent per se taking.8
Furthermore, the question of whether the access
regulation falls under the category of takings
governed by Penn Central is not before this court. At
no point in this litigation have the Growers challenged
the regulation under Penn Central. Their complaint
alleges that the access regulation causes an
unconstitutional taking because it “creates an
easement for union organizers to enter [the Growers’]
private property without consent or compensation.”
Before the district court, the Growers argued that the
access regulation should be treated as a per se taking
because the Growers must surrender their right to
exclude trespassers permanently. And before this
court, they argued in their opening brief that the
access regulation involved a physical invasion, as
opposed to a regulatory taking. Therefore, we take no
position regarding whether the access regulation falls
under the category of takings governed by the
standards set forth in Penn Central.

The Court also contrasted the PruneYard shopping center’s
situation with that of the plaintiffs in Kaiser Aetna v. United
States, 444 U.S. 164 (1979). See PruneYard, 447 U.S. at 84.
Kaiser Aetna also weighs against the Growers’ theory that the
access regulation is a permanent physical taking. There, the
Court held that requiring owners of a public pond to allow free
public use of its marina constituted a taking—but only after
applying the Penn Central analysis, rather than the permanent
physical invasion analysis. Kaiser Aetna, 444 U.S. at 178–180.

8

Appendix A-21
The dissent contends that our analysis should be
guided by NLRB v. Babcock & Wilcox, 351 U.S. 105
(1956), and its progeny.9 Dissent at 26–27. Babcock,
however, pertained to an alleged violation of section 7
of the National Labor Relations Act (“NLRA”). Nat’l
Labor Relations Bd. v. Babcock & Wilcox Co., 351 U.S.
105, 106 (1956); see also Lechmere, Inc. v. N.L.R.B.,
502 U.S. 527, 529 (1992) (“This case requires us to
clarify the relationship between the rights of
employees under § 7 of the National Labor Relations
Act (NLRA or Act) . . . and the property rights of their
employers.”); Hudgens v. N. L. R. B., 424 U.S. 507, 508
(1976) (“The question presented is whether this threat
violated the National Labor Relations Act.”). The
NLRA does not apply to “any individual employed as
an agricultural laborer.” 29 U.S.C. § 152(3). And while
Babcock may be helpful in analyzing challenges to the
access regulation under the ALRA, it is not relevant
to the Growers’ contention that the access regulation

The dissent points out that the California Supreme Court
looked to Babcock for guidance when first analyzing the access
regulation in Pandol & Sons. Dissent at 26. There, the court also
pointed out that the Board determined that “significant
differences existed between the working conditions of industry in
general and those of California agriculture.” Pandol & Sons, 546
P.2d at 702. The court highlighted some of those differences
including that “many farmworkers are migrants,” “the same
employees did not arrive and depart every day on fixed
schedules, there were no adjacent public areas where the
employees congregated or through which they regularly passed,
and the employees could not effectively be reached at permanent
addresses or telephone numbers in the nearby community, or by
media advertising.” Id. The record is silent on whether the Board
has revisited these differences. In any event, we do not need to
address them because the only issue before us is whether the
access regulation is a per se physical taking.

9

Appendix A-22
is a physical per se taking in violation of the Fifth
Amendment.
In conclusion, we hold that the access regulation
as applied to the Growers does not amount to a per se
physical taking of their property in violation of the
Fifth Amendment. Having been granted the
opportunity to amend their complaint and having
declined to do so, the district court did not err in
dismissing the Growers’ takings claim.
II. Fourth Amendment Seizure Claim
The first clause of the Fourth Amendment
provides that the “right of the people to be secure in
their persons, houses, papers and effects, against
unreasonable searches and seizures, shall not be
violated.” U.S. Const. amend. IV. To establish a
seizure claim under the Fourth Amendment, the
Growers must plausibly allege that a seizure occurred
and that it was unreasonable. See Soldal v. Cook
County, Ill., 506 U.S. 56, 61–62 (1992). We agree with
the district court’s conclusion that the Growers failed
to allege a plausible claim that the access regulation,
as applied to them, effects a seizure protected by the
Fourth Amendment.
A “‘seizure’ of property occurs when there is some
meaningful interference with an individual’s
possessory interests in that property.” United States
v. Jacobsen, 466 U.S. 109, 113 n.5 (1984). First, the
Growers argue the access regulation effects a seizure
because it substantially interferes with their right to
exclude. They contend that the access regulation
authorizes a “technical trespass.”

Appendix A-23
The majority’s holding in United States v. Karo
undercuts the Growers’ Fourth Amendment seizure
argument. 468 U.S. 705, 712–13 (1984). There, the
Court considered, inter alia, whether the transfer of a
container by federal agents containing an unknown
and unwanted beeper constituted a seizure. Id. at 712.
First, the Court held that “[t]he existence of a physical
trespass is only marginally relevant to the question of
whether the Fourth Amendment has been violated . . .
for an actual trespass is neither necessary nor
sufficient to establish a constitutional violation.” Id.
at 712–13. The Court then concluded that the mere
transfer of the container with an unmonitored beeper
did not constitute a seizure because it did not interfere
with anyone’s possessory interest in a meaningful
way. Id. at 712. The Court noted that “[a]t most, there
was a technical trespass on the space occupied by the
beeper,” but “if the presence of a beeper in the can
constituted a seizure merely because of its occupation
of space, it would follow that the presence of any
object, regardless of its nature, would violate the
Fourth Amendment.” Id. at 712–13.10
More importantly, the Growers fail to cite any
directly applicable authority supporting their
contention that the access regulation is a meaningful
The Growers attempt to distinguish their case from Karo by
pointing out that federal agents placed the beeper with the
consent of the original owner before possession was transferred.
They argue that that they did not consent to the entry of the
union organizers onto their property. Yet, the original owner’s
consent was relevant to the Karo Court’s analysis of whether “the
actual placement of the beeper into the can” violated the
defendant’s Fourth Amendment rights, but did not factor into the
Court’s analysis of whether the transfer of the can to Karo was a
seizure. Karo, 468 U.S. at 711–13.

10

Appendix A-24
interference with their possessory interests in their
property. The Growers rely on Presley v. City of
Charlottesville, 464 F.3d 480 (4th Cir. 2006), to
support their argument. There, the Fourth Circuit
concluded that the alleged “constant physical
occupation” constituted a “‘meaningful interference’
with [the plaintiff’s] ‘possessory interests’ in her
property.” Id. at 487 (citing Jacobsen, 466 U.S. at 113).
The case concerned a trail map published by the city
of Charlottesville that mistakenly showed a trail
crossing
through
Presley’s
property
(which
encompassed less than an acre of land). Id. at 482.
City officials refused to correct the error when Presley
repeatedly complained, and declined to offer her
compensation in exchange for an easement. Id. at
482–83. Presley had posted over 100 “No Trespassing”
signs on her property, “all of which were defaced or
destroyed.” Id. at 483. Although Presley contacted the
police to help stop trespassers, the police “could not
stem the tide.” Id. When Presley installed razor wire
on her property in an attempt to block the trespassers,
the city enacted an ordinance to prohibit her from
pursuing such protective measures, and initiated a
criminal prosecution (later dismissed) against her for
violation of the ordinance. Id.
The factual circumstances in Presley make it
inapposite to the access regulation as applied to the
Growers. As the Fourth Circuit noted, Presley alleged
that she had been “deprived of the use of her property
due to the regular presence of a veritable army of
trespassers who freely and regularly traverse her
yard, littering, making noise, damaging her land, and
occasionally even camping overnight.” Id. at 487.
Here, the Growers do not make such allegations. They

Appendix A-25
do not allege that the access regulation authorizes an
intrusion that is constant, uncontrollable (even with
police assistance), unpredictable, damaging, and
stressful. The access regulation only allows controlled,
nondisruptive visits that are limited in time, place,
and number of union organizers.
Second, the Growers argue that the access
regulation effects a seizure because it profoundly
changes the character of the property. They urge us to
adopt the test set forth in Justice Stevens’ partial
concurrence in United States v. Karo. There, Justice
Stevens argued that a meaningful interference occurs
when “the character of the property is profoundly
different” with the interference than without it. Karo,
468 U.S. at 729 (Stevens, J., concurring in part
dissenting in part). Yet even assuming this were the
proper test, the Growers have not alleged facts
showing that the character of their property is
somehow “profoundly different” because of the access
regulation. At most, the regulation would allow
organizers access to the Growers’ property 360 hours
a year out of a total 8,760 hours (and only 120 of those
hours would be during the workday). The Growers
argue that the access regulation “transform[s] [their]
property from a forum for production into a
proselytizing opportunity for union organizers,” but
there are no such allegations in the complaint.
We therefore hold that the Growers have not
plausibly alleged that the access regulation effects a
“seizure” within the meaning of the Fourth
Amendment.
AFFIRMED.

Appendix A-26
LEAVY, Circuit Judge, dissenting:
I respectfully dissent. In my view, the complaint
sufficiently alleges that the Agricultural Labor
Relations Board’s Access Regulation is an
unconstitutional taking, so the district court erred in
granting the motion to dismiss. The Growers allege
that no employees reside on the employers property,
and that alternative methods of effective
communication are available to the nonemployee
union organizers who, under the Access Regulation,
are allowed to physically enter the Growers’
properties for substantial time periods. Specifically, I
have found no Supreme Court case holding that nonemployee labor organizers may enter an employer’s
nonpublic, private property for substantial periods of
time, when none of the employees live on the
employer’s premises.
In spite of the majority’s reliance on PruneYard
Shipping Center. v. Robins, 447 U.S. 74 (1980), this is
not a free speech case.1 Instead, this case involves
labor relations and the government’s policy of
The issue in PruneYard was whether the California
constitution, which allows individuals to exercise First
Amendment rights on private shopping center property, violated
the federal constitution. The issue involved “only a state-created
right of limited access to a specialized type of property.” Id. at 98
(Powell, concurring). The PruneYard “specialized property” was
a multi-block shopping center, open to the public to “come and go
as they please,” id. at 87, where “25,000 persons are induced to
congregate daily.” Id. at 78 (quoting Robins v. PruneYard
Shopping Ctr., 23 Cal. 3d 899, 910–911 (1979)). By contrast, in
this case, the Growers are private employers with employees
entering their properties daily for the sole purpose of agricultural
work, with no public access.
1

Appendix A-27
encouraging collective bargaining. Thus, PruneYard
provides little guidance.2
The
California
Legislature
directs
the
Agricultural Labor Relations Board to “follow
applicable precedents of the National Labor Relations
Act.” Cal. Labor Code § 1148. The outcome of this case
is guided by cases concerning the rights of
nonemployees to physically access the employer’s
property in order to communicate with employees
about union organization. Although the NLRA’s
enforcement authority does not apply to “any
individual employed as an agricultural laborer.” 29
U.S.C. § 152(3), there is no dispute in this case about
the agricultural status of the employee laborers.
Rather, the dispute raised in the Grower’s complaint
is the constitutionality of the Board’s regulation
requiring employers to grant substantial physical
access to nonemployee organizers where the
agricultural employees do not reside on the employers’
private property and are not beyond the reach of the
organizers’ message.
The California Supreme Court, when first
analyzing the Access Regulation in Pandol & Sons,
546 P.2d 692 (Cal. 1976), correctly framed the issue:
The property owner in PruneYard wields the power to impose
time, place, and manner restrictions on the general public’s free
expression rights on its premises. In the case at bar, a California
agency imposes its power to regulate time, place, and manner
restrictions on the Growers’ right to exclude nonemployees. In
other words, PruneYard involves a private party regulating the
expressive conduct of other private parties entering its property
where the public is invited. Our case involves a state agency
universally regulating the access of nonemployee organizers on
non-public, private property.

2

Appendix A-28
“The matter at bar, by contrast, is not primarily a
First Amendment case . . . ; rather, the interest
asserted is the right of workers employed on the
premises in question to have effective access to
information assisting them to organize into
representative units pursuant to a specific
governmental policy of encouraging collective
bargaining.” Id. at 694 (emphasis added). The Pandol
court looked for guidance to NLRB v. Babcock &
Wilcox, 351 U.S. 105 (1956), “[W]hen the
inaccessibility of employees makes ineffective the
reasonable
attempts
by
nonemployees
to
communicate with them through the usual channels,
the right to exclude from property has been required
to yield to the extent needed to permit communication
of information on the right to organize.” Pandol, 546
P.2d at 406 (quoting Babcock, 351 U.S. at 112).
The Pandol court upheld the regulation under the
California constitution, comparing the inaccessibility
of workers in California’s agricultural industry to
federal labor cases involving inaccessibility of workers
in mining camps, lumber camps, and rural resort
hotels. Id. at 406–408. The Pandol court summarized
the rule of Babcock: “[I]f the circumstances of
employment place the employees beyond the reach of
reasonable union efforts to communicate with them,
the employer must allow the union to approach his
employees on his property.” Id. at 409 (quoting
Babcock, 351 U.S. at 113) (emphasis added). The
Babcock rule has not been abrogated. See Lechmere v.
NLRB, 502 U.S. 527, 540–41 (1992) (reaffirming
Babcock); Hudgens v. NLRB, 424 U.S. 507, 521–22
(1976) (approving Babcock’s admonition that
accommodation between employees’ labor rights and

Appendix A-29
employers’ property rights “must be obtained with as
little destruction of one as is consistent with the
maintenance of the other”); Central Hardware Co. v.
NLRB, 407 U.S. 539, 545 (1972) (explaining that
under Babcock, nonemployee organizers cannot claim
a limited right of access to a nonconsenting employer’s
property until after the requisite need for access to the
property has been shown); ITT Industries, Inc. v.
N.L.R.B., 251 F.3d 995, 999 (D.C. Cir. 2001) (“For
nearly fifty years, it has been black-letter labor law
that the Board cannot order employers to grant
nonemployee union organizers access to company
property absent a showing that on-site employees are
otherwise inaccessible through reasonable efforts.”).
In my view, the Access Regulation allowing
ongoing access to Growers’ private properties,
multiple times a day for 120 days a year (four 30-day
periods per year) is a physical, not regulatory,
occupation because the “right to exclude” is “one of the
most fundamental sticks” in the bundle of property
rights. Dolan v. City of Tigard, 512 U.S. 374, 394
(1994); Kaiser Aetna v. United States, 444 U.S. 164,
179–80 (1979) (stating that the right to exclude others
is one of the “essential sticks” in the bundle of
property rights). The Growers need not allege that the
Access Regulation affects more property right “sticks”
beyond this single, fundamental property right.3
The complaint alleges that the Access Regulation
is unconstitutional because the Growers’ employees,
none of whom live on the Growers’ premises, are not
beyond the reach of union efforts. The complaint
The majority fails to cite any cases dealing with the property
rights of employers as opposed to access rights by nonemployees.

3

Appendix A-30
alleges employees can be reached by union organizers
at nearby, off-premises locations through alternative
means of communication. Complaint, Par. 27
(“Seasonal workers at Cedar Point are housed in
hotels in nearby Klamath Falls, Oregon. None of
Cedar Point’s full-time or seasonal employees live on
the Nursery’s property.”); Complaint, Par. 37
(“Fowler’s employees do not live on the premises and
are fully accessible to the Union when they are not at
work.”); Complaint Par. 64 (“And because such access
is unnecessary given the alternative means of
communication available, see Lechmere v. NLRB, 502
U.S. 527, 540–41 (1992), it is unreasonable to allow
union organizers to seize this possessory interest in
Plaintiff’s property.”).
The Supreme Court in Lechmere expressly
reaffirmed Babcock’s critical distinction between
employees and nonemployees regarding union
activities on private property. Id. at 537. The Court
also reaffirmed Babcock’s general rule that “an
employer may validly post his property against
nonemployee distribution of union literature,” and
rejected an initial balancing test. The Court stated
that the threshold inquiry is whether the facts in a
case justify application of Babcock’s inaccessibility
exception. Id. at 538–39. The Court explained, “[T]he
exception to Babcock’s rule is a narrow one. It does not
apply wherever nontrespassory access to employee
may be cumbersome or less-than-ideally effective, but
only where ‘the location of a plant and the living
quarters of the employees place the employees beyond
the reach of reasonable union efforts to communicate
with them.” Id. at 539 (quoting Babcock, 351 U.S. at
113 (original emphasis)). The Court concluded,

Appendix A-31
“[B]ecause the employees do not reside on Lechmere’s
property, they are presumptively not ‘beyond the
reach’ of the union’s message.” Id. at 540 (internal
citation omitted). Here, in light of the Growers’
allegations, the burden should shift to the defendants
to show “unique obstacles” that frustrate their
reasonable access to the Growers’ employees. See id.
at 540–41.
In summary, because the Growers sufficiently
allege that no employees live on the Growers’
properties and the employees are not beyond the reach
of the union’s message, the district court erred in
dismissing the complaint.

Appendix B-1
Filed 6/29/2016
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
CALIFORNIA

CEDAR POINT
NURSERY and
FOWLER PACKING
CO.,

1:16-cv-00185-LJO-BAM

MEMORANDUM
DECISION AND
ORDER RE:
Plaintiffs, DEFENDANTS’
MOTION TO DISMISS
v.
[Doc. 11]

WILLIAM B. GOULD
IV, et al.,
Defendants.

I. INTRODUCTION
Plaintiffs Cedar Point Nursery and Fowler
Packing Company (“Plaintiffs”) allege that Cal. Code
Regs. tit. 8, § 20900(e) (the “Access Regulation”), a
regulation promulgated by California’s Agricultural
Labor Relations Board (“ALRB” or “the State”)
allowing union organizers access to worksites for
limited periods of time, is unconstitutional as applied
to them. Plaintiffs argue that the Access Regulation
allows third parties to take their property without
providing just compensation, in violation of the Fifth

Appendix B-2
Amendment, and permits an unlawful seizure of their
property rights, in violation of the Fourth
Amendment.
II. THE ACCESS REGULATION
In 1975, California enacted the Agricultural
Labor Relations Act (“ALRA”). Cal. Lab. Code § 1140.
The ALRA created the ALRB and vested its members
with authority to make rules to carry out this policy.
Cal. Lab. Code §§ 1141, 1144. The ALRB promulgated
the Access Regulation in recognition that workers’
abilities to exercise their organizational rights
“depend[ ] in some measure on the ability of
employees to learn the advantages and disadvantages
of organization from others.” Cal. Code Regs. tit. 8,
§ 20900(b). The Access Regulation provides that “the
rights of employees under [California] Labor Code
Section 1152” include “the right of access by union
organizers to the premises of an agricultural employer
for the purpose of meeting and talking with employees
and soliciting their support.” Cal. Code Regs. tit. 8,
§ 20900(e). This right is subject to several constraints.
For example, a labor organization must provide notice
to the ALRB and the employer of its intent to appear
onsite. § 20900(e)(1)(B). No organization may appear
for more than four thirty-day periods in any calendar
year. § 20900(e)(1)(A)-(B). Organizers may enter an
employer’s property “for a total period of one hour
before the start of work and one hour after the
completion of work” and for “a single period not to
exceed one hour during the working day for the
purpose of meeting and talking with employees during

Appendix B-3
their lunch period.” § 20900(e)(3). Access is limited to
a certain number of organizers (depending on the
number of employees) and organizers are not allowed
to engage in “conduct disruptive of the employer’s
property or agricultural operations, including injury
to crops or machinery or interference with the process
of boarding buses.” § 20900(e)(4). Organizers who
violate these provisions may be barred from accessing
employers’ properties for organizing purposes.
§ 20900(e)(5).
III. FACTUAL BACKGROUND
Plaintiff Cedar Point Nursery (“Cedar Point”) is
located in Dorris, California. Compl. for Declaratory
and Injunctive Relief (“Compl.”), Doc. 1, ¶ 8. Cedar
Point employs more than 400 seasonal employees,
who are housed off-site. Id. ¶¶ 26-27. Cedar Point
alleges that United Farm Workers (“UFW”) members
entered their property at 5:00 A.M. on October 29,
2015, “without any prior notice of intent to access the
property” and “disrupted work by moving through the
trim sheds with bullhorns, distracting and
intimidating workers.” Id. ¶ 30. Sometime after this
event, UFW served notice of their intent to take
access. Id. ¶ 32. Cedar Point lodged a complaint
against the UFW with the ALRB regarding UFW’s
failure to provide notice prior to the October 29
incident. Id. ¶ 34. The UFW has also filed a charge
with the ALRB against Cedar Point, alleging that
Cedar Point has committed unfair labor practices. Id.
Plaintiff Fowler Packing Company (“Fowler”) is a
California corporation, headquartered in Fresno,

Appendix B-4
California. Id. ¶ 9. Fowler describes itself as “one of
the largest shippers in the fresh produce business.” Id.
Fowler’s employees do not live on their property. Id.
¶ 37. The UFW brought charges before the ALRB
against Fowler, based on alleged violations of the
Access Regulation, in July 2015. Id. ¶ 38. It withdrew
these charges in January 2016. Id. ¶ 39. Fowler
alleges that, “[a]bsent the challenged regulation,
Fowler would oppose union access and exercise its
right to exclude trespassers from its property.” Id.
¶ 40.
Both companies allege they “have reason to
believe that the access regulation will be applied
against them in the future” and “the only proper and
possible remedy . . . is declaratory and injunctive
relief.” Id. ¶ 57. They state that the Access Regulation
should not apply to them because “such access is
unnecessary given the alternative means of
communication available [to union organizers].” Id.
¶ 64.
IV. PROCEDURAL HISTORY
Plaintiffs filed their complaint against individual
members of the ALRB on February 10, 2016. Compl.
at 11. Plaintiffs argue that the Access Regulation
amounts to both a “taking” in violation of the Fifth
Amendment of the Constitution, and an unlawful
seizure of their private property in violation of the
Fourth Amendment. Id. ¶¶ 58, 64. Plaintiffs seek a
declaratory judgment stating that the Access
Regulation is unconstitutional as applied to them and

Appendix B-5
an order enjoining the ALRB from enforcing the
regulation against them. Id. at 10:16-19.
On February 16, 2016, Plaintiffs filed a motion for
preliminary injunction seeking to enjoin the ALRB
from enforcing the Access Regulation on their
properties. On April 18, 2016, the Court denied their
motion as to their Fifth Amendment claims and
requested supplemental briefing on their Fourth
Amendment claims. Mem. Decision and Order
(“April 18 Order”), Doc. 13. On May 26, 2016 the Court
denied Plaintiffs’ motion in its entirety. Mem.
Decision and Order (“May 26 Order”), Doc. 19.
Now pending before the Court is Defendants’
motion to dismiss Plaintiffs’ claims pursuant to Rule
12(b)(6). Defs.’ Not. Of Mot. and Mot. to Dismiss
(“MTD”), Doc. 11. Plaintiffs and Defendants filed their
opposition and reply in a timely manner. Pls.’ Opp’n
to Defs.’ Mot. to Dismiss (“Opposition”); Defs.’ Reply
in Supp. of Mot. to Dismiss (“Reply”), Doc. 17. The
Court vacated the hearing set for the matter pursuant
to Local Rule 230(g). Doc. 18.
V. STANDARD OF DECISION
A motion to dismiss pursuant to Fed R. Civ. P.
12(b)(6) is a challenge to the sufficiency of the
allegations set forth in the complaint. A 12(b)(6)
dismissal is proper where there is either a “lack of a
cognizable legal theory” or “the absence of sufficient
facts alleged under a cognizable legal theory.”
Balisteri v. Pacifica Police Dept., 901 F.2d 696, 699
(9th Cir. 1990). In considering a motion to dismiss for

Appendix B-6
failure to state a claim, the court generally accepts as
true the allegations in the complaint, construes the
pleading in the light most favorable to the party
opposing the motion, and resolves all doubts in the
pleader’s favor. Lazy Y. Ranch LTD v. Behrens, 546
F.3d 580, 588 (9th Cir. 2008).
To survive a 12(b)(6) motion to dismiss, the
plaintiff must allege “enough facts to state a claim to
relief that is plausible on its face.” Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570 (2007). “A claim has facial
plausibility when the plaintiff pleads factual content
that allows the court to draw the reasonable inference
that the defendant is liable for the misconduct
alleged.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009).
“The plausibility standard is not akin to a ‘probability
requirement,’ but it asks for more than a sheer
possibility that a defendant has acted unlawfully.” Id.
(quoting Twombly, 550 U.S. at 556). “Where a
complaint pleads facts that are ‘merely consistent
with’ a defendant’s liability, it ‘stops short of the line
between possibility and plausibility for entitlement to
relief.’” Id. (quoting Twombly, 550 U.S. at 557).
“While a complaint attacked by a Rule 12(b)(6)
motion to dismiss does not need detailed factual
allegations, a plaintiff’s obligation to provide the
‘grounds’ of his ‘entitlement to relief’ requires more
than labels and conclusions, and a formulaic
recitation of the elements of a cause of action will not
do.” Twombly, 550 U.S. 544, 555 (2007) (internal
citations omitted). Thus, “bare assertions . . .
amount[ing] to nothing more than a ‘formulaic

Appendix B-7
recitation of the elements’ . . . are not entitled to be
assumed true.” Iqbal, 556 U.S. at 681. In practice, “a
complaint . . . must contain either direct or inferential
allegations respecting all the material elements
necessary to sustain recovery under some viable legal
theory.” Twombly, 550 U.S. at 562. In other words, the
Complaint must describe the alleged misconduct in
enough detail to lay the foundation for an identified
legal claim. To the extent that the pleadings can be
cured by the allegation of additional facts, the plaintiff
should be afforded leave to amend. Cook, Perkiss and
Liehe, Inc. v. Northern California Collection Serv. Inc.,
911 F.2d 242, 247 (9th Cir. 1990) (citations omitted).
VI. ANALYSIS
A. Fifth Amendment Claims
1.

Ripeness

In a footnote Defendants claim that Plaintiffs’
takings claims should be dismissed because they are
unripe on the ground that Plaintiffs have not sought
and been denied compensation by the State of
California. MTD at 9, n. 3. Based on the record that
existed at the time, the Court rejected this theory in
its April 15, 2015 Order, on the ground that California
Supreme Court jurisprudence forecloses the relief
sought and therefore recourse to the state courts
would be futile. Because Defendants do not make any
new substantive arguments as to this claim, the Court
will not revisit its decision.

Appendix B-8
2.

Whether Defendants Allege a Plausible
Takings Claim

Plaintiffs allege that the Access Regulation
creates an easement on their property and therefore
effects a Fifth Amendment taking. Compl. ¶ 58.
Defendants argue that this claim should be dismissed
because the Access Regulation does not impinge on
Plaintiffs’ property rights. MTD at 5-9. As the parties
both recognize, the Court found that Plaintiffs did not
demonstrate in their request for preliminary
injunction that they were likely to succeed on their
Fifth Amendment claims. April 15 Order at 14-15. But
a Court’s conclusions as to injunctive relief do not
determine the outcome of an analysis under Fed. R.
Civ. P. 12(b)(6).
Plaintiffs’ arguments in opposition to Defendants’
motion to dismiss are nearly identical to those
advanced in support of their motion for a preliminary
injunction. They claim that the Access Regulation is
categorically unconstitutional as matter of law.
Opposition at 5. For the reasons discussed in its
previous order, this Court disagrees that the Access
Regulation effects a categorical taking on its face.
April 18 Order at 10. Nor do Plaintiffs allege facts that
suggest the Access Regulation will amount to a
permanent, physical intrusion based on facts specific
to their case. The Court, therefore, cannot find that
Plaintiffs have stated a viable as-applied categorical
takings claim.
Alternatively, Plaintiffs can state a takings claim
if they can show that the Access Regulation is “so

Appendix B-9
onerous that its effect is tantamount to a direct
appropriation or ouster” according to the “standards
set forth in Penn Central Transp. Co. v. New York
City, 438 U.S. 104 (1978).” Lingle v. Chevron U.S.A.
Inc., 544 U.S. 528, 537-38 (2005). These factors
include “[t]he economic impact of the regulation on the
claimant and, particularly, the extent to which the
regulation has interfered with distinct investmentbacked expectations,” and “the character of the
governmental action.” Penn Central, 438 U.S. at 124.
Under Penn Central, courts examine a regulation’s
“character” and “economic impact,” asking whether
the action goes beyond “adjusting the benefits and
burdens of economic life to promote the common good”
and whether it “interfere[s] with distinct investmentbacked expectations.” Id. “That multi-factor test
balances the government’s manifest need to pass laws
and regulations ‘adversely affect[ing] ... economic
values, with [the] longstanding recognition that some
regulation ‘goes too far.’” Koontz v. St. Johns River
Water Mgmt. Dist., 133 S. Ct. 2586, 2604 (2013)
(quoting Pennsylvania Coal Co. v. Mahon, 260 U.S.
393, 415 (1922)).
Plaintiffs did not put forth arguments along these
lines in support of its motion for preliminary
injunction, thus the Court found no likelihood of
success under Penn Central. On a motion to dismiss,
however, the standard is different, and a court must
evaluate whether “the plaintiff pleads factual content
that allows the court to draw the reasonable inference
that the defendant is liable for the misconduct
alleged.” Iqbal, 556 U.S. at 678. Plaintiffs, however,

Appendix B-10
fail to allege facts in their pleadings that suggest that
the Access Regulation has had any negative economic
impact on them at all.1 Thus, they have not provided
a basis from which this Court might plausibly
conclude that the economic burden they shoulder is
unjust. For these reasons, the Court GRANTS
Defendants’ motion to dismiss Plaintiffs’ Fifth
Amendment claims. Plaintiffs are granted leave to
amend.
B. Fourth Amendment Claims
Plaintiffs allege that the Access Regulation effects
a seizure of their property because it grants “an access
easement to union organizers” that is unnecessary
“given the alternative means of communication
available.” Compl. ¶ 64. As discussed in the Court’s
previous two orders, whether access by organizers
effects a Fourth Amendment seizure is a threshold
issue. Jensen v. Cty. of Sonoma, 444 F. App’x 156, 159
(9th Cir. 2011) (no Fourth Amendment violation
because order requiring property owners to schedule
a home inspection did not effect a seizure). “A ‘seizure’
of property occurs when there is some meaningful
interference with an individual’s possessory interests
in that property.” United States v. Jacobsen, 466 U.S.
109, 113 (1984).
Plaintiffs do assert negative impacts with regards to a protest
that occurred on Cedar Point’s property in 2015. Compl. ¶¶ 3031. Plaintiffs, however, have also asserted that this conduct
violated the Access Regulation. Compl. ¶ 34; Opposition at 8,
n. 5. If the 2015 event occurred in violation of the Access
Regulation, conduct associated with it cannot be viewed as
evidence that implementation of the law is unconstitutional.

1

Appendix B-11
When an owner is not completely dispossessed of
his property, but only suffers a trespass, it is not
necessarily the case that interference causes a
seizure. The Fourth Circuit found that a “constant
physical occupation” of a plaintiff’s property (which
resulted from a city’s advertisement of a hiking trail
through her backyard) “certainly constitute[d] a
‘meaningful interference’ with [her] possessory
interests.” Presley v. City Of Charlottesville, 464 F.3d
480, 487 (4th Cir. 2006). Generally, however, “[t]he
existence of a physical trespass is only marginally
relevant to the question of whether the Fourth
Amendment has been violated . . . for an actual
trespass is neither necessary nor sufficient to
establish a constitutional violation.” United States v.
Karo, 468 U.S. 705, 712-13 (1984). For example, in
Karo, the Supreme Court considered whether “the
installation of a beeper in a container of chemicals
with the consent of the original owner constitutes a
search or seizure within the meaning of the Fourth
Amendment when the container is delivered to a
buyer having no knowledge of the presence of the
beeper.” Id. at 707. While acknowledging that placing
the beeper in the car may have been a “technical
trespass on the space occupied by the beeper,” the
Court found that no seizure occurred because “it
cannot be said that anyone’s possessory interest was
interfered with in a meaningful way.” Id.
Plaintiffs argue that the Access Regulation’s
interference with their interests is substantial
because it deprives them of “their right to exclude nonemployees from their property.” Opposition at 9.

Appendix B-12
However, they point to no law that suggests that such
time and manner-limited access would be
characterized as a meaningful interference. While
Plaintiffs claim that their case is analogous to Presley,
the facts alleged do not bear this out because they do
not suggest that the Access Regulations may or has
permitted them to suffer a “constant physical
occupation.” Presley, 464 F.3d at 487. Nor have
Plaintiffs alleged that the ALRB has applied the
Access Regulation in a manner that has restricted
Plaintiffs’ freedom to use their property. Jacobsen,
466 U.S. at 114, n. 5. In fact, Plaintiffs do not allege
that the ALRB has used the Access Regulation to force
them to allow any organizers on their properties to
date. As discussed in the May 26 Order, the one
example Plaintiffs provide of union organizers
accessing their property is alleged to have occurred in
violation of the Access Regulation. Compl. ¶ 34
(describing that the Union’s actions “violated the
access regulation by taking access to Cedar Point’s
property without providing proper notice.”). In
addition, Plaintiffs allege Cedar Point has filed a
charge against the Union with the ALRB related to
that event. Id. As previously explained: “Plaintiffs
cannot have it both ways. If the 2015 event occurred
in violation of the Access Regulation, conduct
associated with it cannot be viewed as compelling
evidence that implementation of the law is
unconstitutional.” May 26 Order at 7.
Further, under the Access Regulation, organizers
are not allowed to engage in “conduct disruptive of the
employer’s property or agricultural operations,

Appendix B-13
including injury to crops or machinery or interference
with the process of boarding buses.” § 20900(e)(4).
Thus, it seems that the Access Regulation, on its face,
would not allow organizers to disrupt an employer’s
use of his land in a significant manner.2
For these reasons, the Court finds that Plaintiffs
have failed to allege facts that plausibly support a
conclusion the Access Regulation has been or will be
enforced against them in a manner that will cause a
meaningful interference with their possessory
interests.
Accordingly,
the
Court
GRANTS
Defendants’ motion to dismiss this claim. Plaintiffs
will be allowed to amend their claims.
VII. CONCLUSION AND ORDER
For the reasons discussed above, the Court
GRANTS the State’s motion to dismiss, Doc. 11.
Plaintiffs are granted leave to amend their claims.

Additionally, it is not clear that California property law treats
conduct authorized by the Access Regulation as a trespass, given
the California Supreme Court’s finding that the rule “is not a
deprivation of ‘fundamental personal liberties’ but a limited
economic regulation of the use of real property imposed for the
public welfare.” Agric. Labor Relations Bd. v. Superior Court, 16
Cal. 3d 392, 409 (1976); see also Thunder Basin Coal Co. v. Reich,
510 U.S. 200, 217 n. 21 (1994) (“The right of employers to exclude
union organizers from their private property emanates from
state common law . . .”); N.L.R.B. v. Calkins, 187 F.3d 1080, 1088
(9th Cir. 1999) (“[S]tate property law is what creates the interest
entitling employers to exclude organizers in the first instance.
Where state law does not create such an interest, access may not
be restricted consistent with Section 8(a)(1) [of the National
Labor Relations Act].”).
2

Appendix B-14
Plaintiffs shall file any amended complaint within
14 days of this order.
No later than 21 days after service of any
amended complaint, Defendants shall file a response
thereto.
Plaintiffs are cautioned that this will be the last
opportunity to amend. Plaintiffs should only amend if
amendment will not be futile based on the law and
holding in this Order. This court does not have the
resources to review and write extensive orders on how
to write, rewrite and submit pleadings. This order
gives the proper direction for the last time.
IT IS SO ORDERED.
Dated: June 29, 2016 /s/ Lawrence J. O’Neill
UNITED STATES
CHIEF DISTRICT
JUDGE

Appendix C-1
Filed 5/26/2016
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
CALIFORNIA
CEDAR POINT
NURSERY and
FOWLER PACKING
CO.,

1:16-cv-00185-LJO-BAM

MEMORANDUM
DECISION AND
ORDER RE:
Plaintiffs, PLAINTIFFS’ MOTION
FOR PRELIMINARY
v.
INJUNCTION
[Doc. 4]
WILLIAM B. GOULD
IV, et al.,
Defendants.

I. INTRODUCTION
Plaintiffs Cedar Point Nursery and Fowler
Packing Company (“Plaintiffs”) allege that Cal. Code
Regs. tit. 8, § 20900(e) (the “Access Regulation”), a
regulation promulgated by California’s Agricultural
Labor Relations Board (“ALRB” or “the State”)
allowing union organizers access to worksites for
limited periods of time, is unconstitutional as applied
to them. Plaintiffs argue that the Access Regulation
allows third parties to take their property without
providing just compensation, in violation of the Fifth
Amendment, and permits an unlawful seizure of their

Appendix C-2
property rights,
Amendment.

in

violation

of

the

Fourth

II. THE ACCESS REGULATION
In 1975, California enacted the Agricultural
Labor Relations Act (“ALRA”). Cal. Lab. Code § 1140.
The ALRA created the ALRB and vested its members
with authority to make rules to carry out its policies.
Cal. Lab. Code §§ 1141, 1144. The ALRB promulgated
the Access Regulation in recognition that workers’
abilities to exercise their organizational rights
“depend[ ] in some measure on the ability of
employees to learn the advantages and disadvantages
of organization from others.” Cal. Code Regs. tit. 8,
§ 20900(b). The Access Regulation provides that “the
rights of employees under [California] Labor Code
Section 1152” include “the right of access by union
organizers to the premises of an agricultural employer
for the purpose of meeting and talking with employees
and soliciting their support.” Id. § 20900(e).
This right is subject to several constraints. For
example, a labor organization must provide notice to
the ALRB and the employer of its intent to appear
onsite. Id. § 20900(e)(1)(B). No organization may
appear for more than four thirty-day periods in any
calendar year. Id. § 20900(e)(1)(A)-(B). Organizers
may enter an employer’s property “for a total period of
one hour before the start of work and one hour after
the completion of work” and for “a single period not to
exceed one hour during the working day for the
purpose of meeting and talking with employees during
their lunch period.” Id. § 20900(e)(3). Access is limited
to a certain number of organizers (depending on the
number of employees) and organizers are not allowed

Appendix C-3
to engage in “conduct disruptive of the employer’s
property or agricultural operations, including injury
to crops or machinery or interference with the process
of boarding buses.” Id. § 20900(e)(4). Organizers are
only allowed to meet with employees in areas
“employees congregate before and after working” or
“at such location or locations as the employees eat
their lunch.” Id. § 20900(e)(3). Organizers that violate
these provisions may be barred from accessing
employers’ properties for organizing purposes. Id.
§ 20900(e)(5).
III. FACTUAL BACKGROUND
Plaintiff Cedar Point Nursery (“Cedar Point”) is
located in Dorris, California. Compl. for Declaratory
and Injunctive Relief (“Compl.”), Doc. 1, ¶ 8. Cedar
Point employs more than 400 seasonal employees,
who are housed off-site. Id. ¶¶ 26-27. Cedar Point
alleges that United Farm Workers (“UFW”) members
entered their property at 5:00 A.M. on October 29,
2015, “under the guise of the access regulation . . .
without any prior notice of intent to access the
property” and “disrupted work by moving through the
trim sheds with bullhorns, distracting and
intimidating workers.” Id. ¶¶ 6, 30. Sometime after
this event, UFW served notice of their intent to access
pursuant to the Access Regulation. Id. ¶ 32. Cedar
Point lodged a complaint against the UFW with the
ALRB regarding UFW’s failure to provide notice prior
to the October 29 incident. Id. ¶ 34. The UFW has also
filed a charge with the ALRB against Cedar Point,
alleging that Cedar Point has committed unfair labor
practices. Id.

Appendix C-4
Plaintiff Fowler Packing Company (“Fowler”) is a
California corporation, headquartered in Fresno,
California. Id. ¶ 9. Fowler describes itself as “one of
the largest shippers in the fresh produce business.” Id.
Fowler’s employees do not live on their property. Id.
¶ 37. The UFW brought charges before the ALRB
against Fowler, based on alleged violations of the
Access Regulation, in July 2015. Id. ¶ 38. It withdrew
these charges in January of 2016. Id. ¶ 39. Fowler
alleges that, “[a]bsent the challenged regulation,
Fowler would oppose union access and exercise its
right to exclude trespassers from its property.” Id.
¶ 40.
Both companies allege they “have reason to
believe that the access regulation will be applied
against them in the future” and “the only proper and
possible remedy . . . is declaratory and injunctive
relief.” Id. ¶ 57. They state that the Access Regulation
should not apply to them because “such access is
unnecessary given the alternative means of
communication available [to union organizers].” Id.
¶ 64.
IV. PROCEDURAL HISTORY
Plaintiffs filed their complaint against individual
members of the ALRB on February 10, 2016. Compl.
at 11. Plaintiffs argue that the Access Regulation
amounts to both a “taking” in violation of the Fifth
Amendment of the Constitution, and an unlawful
seizure of their private property in violation of the
Fourth Amendment. Id. ¶¶ 58, 64. Plaintiffs seek a
declaratory judgment stating that the Access
Regulation is unconstitutional as applied to them and

Appendix C-5
an order enjoining the ALRB from enforcing the
regulation against them. Id. at 10:16-19.
On February 16, 2016, Plaintiffs filed a motion for
preliminary injunction seeking to enjoin the ALRB
from enforcing the Access Regulation on their
properties. Mot. for Preliminary Injunction (“MPI”),
Doc. 4-1. The State filed an opposition on March 9,
2016. Mem. of P. & A. in Opp’n to Pls.’ Mot. for Prelim.
Inj. (“Opposition”), Doc. 7. Plaintiffs filed their reply
on March 16, 2016. Reply in Supp. of Pls.’ Mot. for
Prelim. Inj. (“Reply”), Doc 9. On April 18, 2016, this
Court issued an order denying the motion to the
extent that it was based on Plaintiffs’ Fifth
Amendment claims and requesting supplemental
briefing on their Fourth Amendment claims. Mem.
Decision and Order (“April 2016 Order”), Doc. 18. The
Parties timely responded. Br. In Supp. of Mot. for
Prelim. Inj. (“Pls.’ Brief”), Doc. 14; Suppl. Br. in Opp’n
to Pls.’ Mot. for Prelim. Inj. (“Defs.’ Brief”), Doc. 15.1
V. STANDARD OF DECISION
A “preliminary injunction is an extraordinary and
drastic remedy.” Munaf v. Geren, 552 U.S. 674, 128
(2008). As such, the Court may only grant such relief
“upon a clear showing that the plaintiff is entitled to
such relief.” Winter v. Nat’l Res. Def. Council, Inc., 129
S. Ct. 365, 375 (2008). To prevail, the moving party
must show: (1) a likelihood of success on the merits;
(2) a likelihood that the moving party will suffer
irreparable harm absent a preliminary injunction;
(3) that the balance of equities tips in the moving
Also before the Court is Defendants’ motion to dismiss, Doc. 11.
This matter shall be addressed in a separate order.

1

Appendix C-6
party’s favor; and (4) that an injunction is in the public
interest. Id. at 374. In considering the four factors, the
Court “must balance the competing claims of injury
and must consider the effect on each party of the
granting or withholding of the requested relief.” Id. at
376 (quoting Amoco Co. v. Vill. of Gambell, Alaska,
480 U.S. 531, 542 (1987)); Indep. Living Ctr. of S. Cal.,
Inc. v. Maxwell–Jolly, 572 F.3d 644, 651 (9th Cir.
2009). When the government is a party, the last two
factors in the Winter analysis merge. Drakes Bay
Oyster Co. v. Jewell, 747 F.3d 1073, 1092 (9th Cir.
2013).
VI. ANALYSIS
A. Scope of the Claims
As indicated in its previous Order, the Court
perceives Plaintiffs’ claims to be challenges to the
Access Regulation as it may be applied to them. April
2016 Order at 3, n. 1. However, it is also important to
note that Plaintiffs do not seek a review of past
conduct. Compl. 10:18-19. Nor do they seek to limit
the scope of the Access Regulations to certain
situations in the future. Rather, they want to enjoin
Defendants from enforcing the rule against them in
any way in the future, based on the characteristics of
their operations. Id. 10:16-17. The wide breadth of the
relief requested suggests that the underlying
challenge is facial. But, it stays within the framework
of an as-applied challenge because Plaintiffs state
that they only seek relief that would apply to their
“particular circumstances.” John Doe No. 1 v. Reed,

Appendix C-7
561 U.S. 186, 194 (2010).2 Therefore, to succeed on the
merits of their claim, Plaintiffs must show that it
would be unconstitutional to apply the Access
Regulation to them. McCullen v. Coakley, 134 S. Ct.
2518, 2534, n. 4 (2014).3

The Court notes that Plaintiffs do not claim that their
circumstances make them unique among agricultural employers.
However, an order enjoining the ALRB from applying the Access
Regulation would not automatically apply to other entities.

2

Defendants’ discussion of Freeman v. City of Dallas, 242 F.3d
642 (5th Cir. 2001), seems to suggest that Plaintiffs must show
that the Access Regulation has been or will be applied to them in
a manner that violates some other constitutional right before the
Fourth Amendment is triggered. Defs.’ Br. at 4. In Freeman, the
Fifth Circuit held that a municipality did not need a judicial
warrant to demolish a building that had been condemned as a
dangerous nuisance. 242 F.3d at 647, 654. In the context of
nuisance cases, the Fifth Circuit held that “the Fourth
Amendment reasonableness of a seizure and demolition of
nuisance property will ordinarily be established when the
substantive and procedural safeguards inherent in state and
municipal property standards ordinances have been fulfilled.” Id.
at 654 n.17. As the Freeman Court recognized, id. at 652, the
Ninth Circuit has taken a different approach, and has held that
a warrant is required to seize property in a nuisance abatement
action. Conner v. City of Santa Ana, 897 F.2d 1487, 1492 (9th Cir.
1990) (“The warrant requirement applied to the City . . .
regardless of how ‘reasonable’ the warrantless search and seizure
appeared in light of the pre-seizure process afforded the
[property owners].”). Thus, to the extent that Defendants argue
that a seizure that comports with due process requirements is
entitled to a presumption of reasonableness based on nuisance
jurisprudence, this theory does not have a viable basis in Ninth
Circuit case law.

3

Appendix C-8
B. Likelihood of Success on the Merits
1.

Threshold Issue: Seizure/Meaningful
Interference

Whether access by organizers effects a Fourth
Amendment seizure is a threshold issue. Jensen v.
Cty. of Sonoma, 444 F. App’x 156, 159 (9th Cir. 2011)
(no Fourth Amendment violation because order
requiring property owners to schedule a home
inspection did not effect a seizure). As discussed in the
Court’s April 2016 Order, “a ‘seizure’ of property
occurs when there is some meaningful interference
with an individual’s possessory interests in that
property.” United States v. Jacobsen, 466 U.S. 109,
113 (1984). In its supplemental brief, the State argues
that the Access Regulation does not effect a
“meaningful interference” with Plaintiffs’ property
rights because it only allows a limited number of
organizers access for short periods of time. Defs.’ Brief
at 4.4 The Supreme Court has explained that “[w]hile
the concept of a ‘seizure’ of property is not much
discussed in our cases, this definition follows from our
oft-repeated definition of the ‘seizure’ of a person
within the meaning of the Fourth Amendmentmeaningful interference, however brief, with an
individual’s freedom of movement.” Jacobsen, 466
U.S. at 114 n. 5. Generally, Fourth Amendment
property seizures involve the removal or destruction
In its request for supplemental briefing, the Court asked the
parties to expand on the reasonableness of the Access Regulation
as applied to Plaintiffs. In their brief, Defendants also clarified
an earlier position that the Court misread as a concession on the
threshold issue of whether a seizure occurred. Because
Defendants timely raised this issue in their previous brief, the
Court will consider the argument.

4

Appendix C-9
or personal property. Lavan v. City of Los Angeles, 693
F.3d 1022, 1030 (9th Cir. 2012) (unreasonable to
destroy “unabandoned” personal effects of plaintiffs
temporarily left on sidewalk); Cochran v. Gilliam, 656
F.3d 300, 308 (6th Cir. 2011) (removing personal
effects from apartment constituted a seizure); Brown
v. Muhlenberg Twp., 269 F.3d 205, 210 (3d Cir. 2001)
(“[K]illing of a person’s dog by a law enforcement
officer constitutes a seizure under the Fourth
Amendment.”); Archer v. Gipson, 108 F. Supp. 3d 895,
909 (E.D. Cal. 2015) (warrantless seizure of
construction materials to abate nuisance was “per se
unreasonable” unless exception to the warrant
requirement applies). In these cases, the complete
displacement of possessory interests is undisputed.
See, e.g., Lavan, 693 F.3d at 1030. (“The district court
was correct in concluding that even if the seizure of
the property would have been deemed reasonable had
the City held it for return to its owner instead of
immediately destroying it, the City’s destruction of
the property rendered the seizure unreasonable.”).
When an owner is not completely dispossessed of
his property, but only suffers a trespass, it is not
necessarily the case that interference causes a
seizure. As discussed in the Court’s April 2016 Order,
the Fourth Circuit found that a “constant physical
occupation” of a plaintiff’s property (which resulted
from a city’s advertisement of a hiking trail through
her backyard) “certainly constitute[d] a ‘meaningful
interference’ with [her] possessory interests.” Presley
v. City Of Charlottesville, 464 F.3d 480, 487 (4th Cir.
2006). Generally, however, “[t]he existence of a
physical trespass is only marginally relevant to the
question of whether the Fourth Amendment has been

Appendix C-10
violated . . . for an actual trespass is neither necessary
nor sufficient to establish a constitutional violation.”
United States v. Karo, 468 U.S. 705, 712-13 (1984). For
example, in Karo, the Supreme Court considered
whether “the installation of a beeper in a container of
chemicals with the consent of the original owner
constitutes a search or seizure within the meaning of
the Fourth Amendment when the container is
delivered to a buyer having no knowledge of the
presence of the beeper.” Id. at 707. While
acknowledging that placing the beeper in the can may
have been a “technical trespass on the space occupied
by the beeper,” the Court found that no seizure
occurred because “it cannot be said that anyone’s
possessory interest was interfered with in a
meaningful way.” Id.
Plaintiffs argue that the Access Regulation’s
interference with their interests is substantial
because “it effectively terminates” their right to
exclude others from their properties. MPI at 11.
However, Plaintiffs have not shown that the ALRB
has applied or will apply the Access Regulation in a
manner that has restricted Plaintiffs’ freedom to use
their property. Jacobsen, 466 U.S. at 114, n. 5. Nor do
Plaintiffs show that the rule will subject them to a
“constant physical occupation.” Presley, 464 F.3d at
487. In fact, Plaintiffs do not allege that the ALRB has
used the Access Regulation to force them to allow any
organizers on their properties to date. This is because
the one example Plaintiffs provide of union organizers
accessing their property is alleged to have occurred in
violation of the Access Regulation. Compl. ¶ 34
(describing that the Union’s actions “violated the
access regulation by taking access to Cedar Point’s

Appendix C-11
property without providing proper notice.”). In fact,
Cedar Point admits that it has filed a charge against
the Union with the ALRB related to this event. Id.
Plaintiffs cannot have it both ways. If the 2015 event
occurred in violation of the Access Regulation, conduct
associated with it cannot be viewed as compelling
evidence that implementation of the law is
unconstitutional.5 Thus, Plaintiffs have not at this
time met their burden to show it is likely that the
Access Regulation has caused or will cause a
“meaningful interference” with their possessory
interests.6

The constitutionality of the 2015 access event is not at issue in
this case, as Plaintiffs have requested no relief related to this
event. Additionally, because the ALRB has not yet issued its own
decision regarding the event, the issue is likely not ripe for
review. See Babbitt v. United Farm Workers Nat. Union, 442 U.S.
289, 304 (1979) (Constitutionality of Arizona access regulation
not justiciable until organizers could “assert an interest in
seeking access to particular facilities as well as a palpable basis
for believing that access will be refused.”).

5

Further, it is not clear that California property law treats
conduct authorized by the Access Regulation as a trespass, given
the California Supreme Court’s finding that the rule “is not a
deprivation of ‘fundamental personal liberties’ but a limited
economic regulation of the use of real property imposed for the
public welfare.” Agric. Labor Relations Bd. v. Superior Court, 16
Cal. 3d 392, 409 (1976); see also Thunder Basin Coal Co. v. Reich,
510 U.S. 200, 217 n. 21 (1994) (“The right of employers to exclude
union organizers from their private property emanates from
state common law . . .”); N.L.R.B. v. Calkins, 187 F.3d 1080, 1088
(9th Cir. 1999) (“[S]tate property law is what creates the interest
entitling employers to exclude organizers in the first instance.
Where state law does not create such an interest, access may not
be restricted consistent with Section 8(a)(1) [of the National
Labor Relations Act].”).

6

Appendix C-12
2.

Reasonableness of the Access
Regulation

Even if Plaintiffs were able to show that the
Access Regulation effects a Fourth Amendment
seizure, they still must demonstrate that such a
search would be unreasonable. When determining
whether an interference violates the Fourth
Amendment, “reasonableness is still the ultimate
standard.” Soldal v. Cook Cty., Ill., 506 U.S. 56, 71
(1992). Any analysis of reasonableness must involve a
“careful balancing of governmental and private
interests.” Id. at 71 (quoting New Jersey v. T.L.O., 469
U.S. 325, 341 (1985)). It is Plaintiff’s burden to
demonstrate likelihood of success. In their
supplemental brief, Plaintiffs put forth two new
arguments that the interference with their property
rights is unreasonable. First, Plaintiffs argue that the
Access Regulation threatens their ability to comply
with health and safety regulations. Pls.’ Brief at 1-2.
Second, they argue that the Access Regulation
impairs productivity. Id. at 3. Plaintiffs also cite to
additional evidence in support of their previously
asserted position that the Access Regulation harms
them because it hurts their goodwill and reputation.
In support of their first argument, Plaintiffs point
to the declaration of Fowler’s human resources
director, Chris Rodriguez. Id. at 2. Rodriguez testified
that Fowler has a “food defense policy” that requires
specialized training to protect their food products from
contamination. Decl. of Chris Rodriguez (“Rodriguez
Decl.”), Doc. 14-12, ¶ 7. He states that the Access
Regulation

Appendix C-13
allows persons to come on to the property near
sensitive products who have no reason to be
trained in or to be aware of the protocols
required by Fowler’s food defense policy.
Fowler’s field workers typically congregate
near open-faced tubs of grapes during their
breaks and meal periods. Consequently,
union representatives naturally position
themselves in this sensitive zone to be able to
speak with employees. A union representative
could easily contaminate this zone if the
representative had an unprotected open cut or
wound, was not properly dressed with
protective clothing, or had a viral condition,
such as the common cold, influenza,
mononucleosis,
or
hepatitis.
Such
contamination would pose a substantial risk
to Fowler as a legal and business matter, and
to its vendors and customers, as a safety
matter. In contrast, these risks are minimized
by Fowler’s employees, who must use aprons
to cover their street clothes when packing,
and who are not allowed to work if they
exhibit symptoms of infection.
Id. Rodriguez also states that the presence of union
organizers who are non-compliant with their food
safety policies during an audit may jeopardize
Fowler’s ability meet audit standards. Id. at ¶ 8.
Cedar Point’s human resources manager testified
that:
[d]uring harvest time, operations on Cedar
Point’s property, including within the trim
sheds, are very fast-paced and involve a

Appendix C-14
variety of heavy equipment, including
tractors, excavators, forklifts, and heavy bins.
For employee safety, Cedar Point is very strict
about when and where employees may stand
or walk on the property and in the trim sheds.
Knowing these protocols can be a life-or-death
matter. For example, during harvest time,
heavy bins are placed on metal tracks within
the trim sheds to facilitate the transport of
plants from the coolers to the packing areas.
If one does not pay attention to whether one
is standing on these tracks, one could very
easily be struck by a moving heavy plastic bin,
which typically weighs 2,500 pounds.
Similarly, if one does not know the areas
where forklifts or other heavy equipment
operate within the trim sheds, one could very
easily be struck by the equipment.
Decl. of Rachel Halpenny (“Halpenny Decl.”), Doc. 142, ¶ 6.
The Court credits Plaintiffs’ concern for the safety
of their operations. However, Plaintiffs do not provide
a basis for finding that the ALRB has employed or will
employ the Access Regulation in a manner that would
permit or encourage violations of food safety policies
or require Plaintiffs to jeopardize the health or safety
of their employees, their property, or, for that matter,
the union organizers. Crucially, Plaintiffs do not claim
that they have been prevented from requiring
organizers to comply with their protocols. Nor do they
suggest that it would be impractical to require
organizers to do so. Plaintiffs posit that instructing
organizers about their safety protocols may run afoul

Appendix C-15
of the Access Regulation’s prohibition on employer
interference with the activities of union organizers.
Pls.’ Brief at 2, n. 1. However, there is no evidence that
the Access Regulation has been or would be applied in
such a manner. In fact, the Access Regulation
prohibits organizers from engaging in “conduct
disruptive of the employer’s property or agricultural
operations.” Cal. Code Regs. tit. 8, § 20900(e)(4).
Because refusal to comply with health and safety
procedures would disrupt an employer’s operations,
the conduct of which Plaintiff is concerned is
prohibited, not required, by the Access Regulation.
Halpenny also described that when union
protestors visited Cedar Point’s facility in 2015, they
did so “in the early morning hours when the trim
sheds and outside areas were dark,” and “had no
reason to know about Cedar Point’s safety protocols or
the dangers of not knowing whether one is standing in
a safe area on the property.” Halpenny Decl. ¶ 7.
While the concerns about this event are reasonable, it
is not clear that they can be tied to implementation of
the Access Regulation. Plaintiffs acknowledge that
the organizers did not comply with the Regulation,
first because they failed to give notice, and second
because they engaged in disruptive activities. Compl.
¶ 30. In fact, two of Cedar Point’s employees testified
that this event was a “protest” that was “particularly
disruptive.” Decl. of Matthew McEwen (“McEwen
Decl.”), Doc. 14-3; ¶ 7; Decl. of Victor Garcia (“Garcia
Decl.”), Doc. 14-4, ¶ 7. Plaintiffs do not claim that the
ALRB sanctioned such behavior as protected by the
Access Regulation. In fact, Plaintiffs filed a complaint
with the ALRB about the union’s activities that is still
pending. Compl. ¶ 34; Decl. of Mike Fahner (“Fahner

Appendix C-16
Decl.”), Doc. 4-3, ¶ 13. Therefore, although this event
is of obvious practical concern to Plaintiffs, it is not
persuasive evidence of conduct permitted by the
Access Regulation. Violations of the Access Regulation
can result in the banning of any group for noncompliance. Cal. Code Regs. tit. 8, § 20900(e)(5). This
in no way makes the regulation unconstitutional.
Plaintiffs next argue that the Access Regulation
threatens productivity because workers do not
generally eat when union organizers meet with them.
Pls.’ Br. at 3; see also Rodriguez Decl. ¶ 9. Plaintiffs
explain that this requires them to give the workers
longer lunch breaks. Id. It is logical to assume that
longer lunch breaks may negatively affect
productivity. However, given that Plaintiffs do not
provide any estimate of how much time is actually lost
(or may be lost in the future) in relation to these
activities, the Court cannot determine how
meaningful any such negative impact is relative to
Defendants’ stated interests. Defendants provide
testimony that the 2015 event resulted in a
“significant work slowdown.” McEwen Decl. ¶ 7. For
one crew, this meant that “an additional three hours
were required to complete trimming work.” Id. For
another crew, this meant that employees were “only
able to produce approximately 50% of what they could
normally do.” Garcia Decl. ¶ 7. As discussed above,
given that the 2015 event was “particularly
disruptive,” occurred without the required notice, and
the ALRB has not endorsed the event, the Court
cannot consider productivity losses alleged to be
associated with the event to be persuasive evidence as
to how the rule is actually implemented. Violating the
rule is not the same as implementing it.

Appendix C-17
Plaintiffs next assert that the Access Regulation
is unreasonable because it will cause them to lose
goodwill insofar as its application sends a message
that they do not treat their workers well. In its April
2016 Order, the Court noted that Plaintiffs had not
provided any authority for the proposition that such a
loss of goodwill is a cognizable form of injury that
would support an unlawful seizure claim. April 16
Order at 13. In supplemental briefing, Plaintiffs point
to a Fifth Circuit case that recognized a business could
have a property interest in its reputation under
Florida law. Marrero v. City of Hialeah, 625 F.2d 499,
514 (5th Cir. 1980) (“Florida has long extended its
protection to the intangible interests of a business.”).
California law also protects business goodwill as
property. WMX Techs., Inc. v. Miller, 80 F.3d 1315,
1323 (9th Cir. 1996) (citing California Civil Code
§ 655), on reh’g en banc, 104 F.3d 1133 (9th Cir. 1997).
Rodriguez states that Fowler’s good will is impaired
when organizers access the property because “the
perception among Fowler’s employees is that the
company must be a wrongdoer.” Rodriguez Decl. ¶ 10.
He also states that a similar impression is left with
Fowler’s vendors and customers, “making it less likely
that they will continue to do business with Fowler.”
Id. Halpenny states that, “since last year’s protest,
every labor contractor who has contacted me has
asked whether Cedar Point has resolved the issues
with the union. These contractors are now concerned
about whether to contract with Cedar Point, a concern
that was not present prior to the union protests.”
Halpenny Decl. ¶ 9. As discussed above, Plaintiffs
have not made clear that the mere presence of union
organizers on their property will cause them to lose
goodwill, or whether the goodwill they alleged to have

Appendix C-18
lost in the past was due to the “particularly
disruptive” nature of the event that occurred in 2015.
In other words, it is impossible at this point to
determine whether the repercussions alleged by
Plaintiff would have occurred had the organizers
complied with the Access Regulation.
In contrast, Defendants persuasively argue that
the State’s general interests in enforcing the Access
Regulation are significant. California has declared
that is the
policy of the state to encourage and protect
the right of agricultural employees to full
freedom of association, self-organization, and
designation of representatives of their own
choosing, to negotiate the terms and
conditions of their employment, and to be free
from the interference, restraint, or coercion of
employers of labor, or their agents, in the
designation of such representatives or in selforganization or in other concerted activities
for the purpose of collective bargaining or
other mutual aid or protection.
Cal. Lab. Code § 1140.2. The ALRB has found that
workers’ abilities to exercise these rights “depend[ ] in
some measure on the ability of employees to learn the
advantages and disadvantages of organization from
others.” Cal. Code Regs. tit. 8, § 20900(b). The
Supreme Court has also recognized that “[t]he right of
self-organization depends in some measure on the
ability of employees to learn the advantages of selforganization from others.” Nat’l Labor Relations Bd.
v. Babcock & Wilcox Co., 351 U.S. 105, 113 (1956). The
ALRB has found “that unions seeking to organize

Appendix C-19
agricultural employees do not have available
alternative channels of effective communication.” Cal.
Code Regs. tit. 8, § 20900(c). Therefore, to bring
“certainty and a sense of fair play” to the “potentially
volatile condition in the agricultural fields of
California,” the ALRB has also found that the state’s
interests are “best served by the adoption of rules on
access which provide clarity and predictability to all
parties.” Id. § 20900(d). “Relegation of the issues to
case-by-case adjudication or the adoption of an overly
general rule would cause further uncertainty and
instability and create delay in the final determination
of elections.” Id. The California Supreme Court
subsequently confirmed that this rule was within the
ALRB’s rulemaking powers. Agric. Labor Relations
Bd. v. Superior Court (“ALRB v. SC”), 16 Cal. 3d 392,
416 (1976).
The State also presents evidence that conditions
supporting the necessity of worksite access at the time
of the rule’s inception still exist today. Opposition at
13-14. For example, the State presents a
memorandum summarizing the testimony and
minutes of three hearings the ALRB held in
September of 2015. Req. for Judicial Notice, Ex. A
(“ALRB Memo”), Doc. 8 at Ct. R. 4.7 In these hearings,
the ALRB heard testimony that agricultural workers
remain largely unaware of their labor rights because
of a number of communication barriers. Id. at Ct. R.

A court may take judicial notice of “records and reports of
administrative bodies.” Mack v. South Bay Beer Distributors,
Inc., 798 F.2d 1279, 1282 (9th Cir. 1986), abrogated on other
grounds by Astoria Fed. Sav. & Loan Ass’n v. Solimino, 501 U.S.
104, 107 (1991).
7

Appendix C-20
10-11.8 First, reaching employees directly offsite is
difficult because of the long hours that agricultural
employees work. Id. Second, many workers are not
literate in Spanish or English, and lack access to the
internet because of the high cost of data plans and
computers. Id. at 13-14. Workers’ lack of language and
computer literacy means that online outreach efforts
have not been very successful. Id. at 14. Further, the
ALRB heard testimony that agricultural workers
were fearful about exercising their rights and that
face-to-face communication is important to help them
overcome these fears. Id. at 20.
Plaintiffs counter that their employees are
accessible because they mostly speak Spanish or
English. McEwen Decl., ¶ 5; Garcia Decl., ¶ 5. Cedar
Point also presents evidence that between 90% and
100% of their employees possess cellular or
smartphones. McEwen Decl. ¶ 5; Garcia Decl. ¶ 5.
Fowler represents that 50% of their employees use “a
cellular or smart phone.” Decl. of Scott Sanders
(“Sanders Decl.”), Doc. 14-5, ¶ 5. Plaintiffs also show
that organizers utilize internet resources and have a
radio station. Decl. of Kevin Desormeaux, Doc. 14-6,
Ex. A-E.

Plaintiffs argue that the Court may not take judicial notice of
the facts set forth in the ALRB Memo because they are
“legislative facts.” Pls.’ Br. at 5, n. 3. Plaintiffs’ argument is
misplaced. The Court takes judicial notice that the
administrative hearings took place and that the Memo reflects
these proceedings as summarizing part of the administrative
record. Further, this Court has discretion to consider a broad
range of evidence because “the rules of evidence do not strictly
apply to preliminary injunction proceedings.” Houdini Inc. v.
Goody Baskets LLC, 166 F. App’x 946, 947 (9th Cir. 2006).

8

Appendix C-21
That Plaintiffs’ employees may have some access
to social media does not negate the ALRB’s concerns
that workers have sufficient access to the internet or
the skills to find and understand the relevant
information. Nor does the fact that organizers use
broadcast and social media mean that these tools are
sufficient. As discussed above, the Access Regulation
is primarily concerned with information delivery and
education. Cal. Code Regs. tit. 8, § 20900(e). (“[T]he
rights of employees under Labor Code Section 1152 [ ]
include the right of access by union organizers to the
premises of an agricultural employer for the purpose
of meeting and talking with employees and soliciting
their support.”) (emphasis added). Defendants have
put forth evidence supporting their conclusion that
worksite access is necessary for organizers to be able
to provide this information. In contrast, Plaintiffs
have not presented compelling evidence that their
seasonal workers have reliable access to such
information via alternative sources that would negate
the need for worksite access. Thus, they have not
shown that it would be unreasonable for the ALRB to
allow organizers to access their property to provide
such information.
C. Irreparable Harm
1.

Constitutional Injuries

Plaintiffs argue that they are suffering from a
“deprivation of constitutional rights” which
“unquestionably constitutes irreparable injury.” MPI
at 12. This theory arises out of a First Amendment
case where public employees alleged that “they were
discharged or threatened with discharge solely
because of their partisan political affiliation or

Appendix C-22
nonaffiliation.” Elrod v. Burns, 427 U.S. 347, 349
(1976). Finding that “First Amendment interests were
either threatened or in fact being impaired at the time
relief was sought,” the Court concluded that such a
loss, “for even minimal periods of time,
unquestionably constitutes irreparable injury.” Id. at
373. The government argues that this line of case law
only extends to violations of “fundamental”
constitutional rights. Opposition at 12. The cases the
government cites in support of this argument,
however, are from out of circuit. Id. (citing Vaqueria
Tres Monjitas, Inc. v. Irizarry, 587 F.3d 464, 484 (1st
Cir. 2009), and Ne. Florida Chapter of Ass’n of Gen.
Contractors of Am. v. City of Jacksonville, Fla., 896
F.2d 1283, 1285-86 (11th Cir. 1990)). There is no
indication that the Ninth Circuit requires a
constitutional right to be “fundamental” in order to
support a conclusion that its violation would
constitute an irreparable injury. Rather, it has held
more generally that “an alleged constitutional
infringement will often alone constitute irreparable
harm.” Associated Gen. Contractors of Cal., Inc. v.
Coalition for Economic Equity, 950 F.2d 1401, 1412
(9th Cir. 1991). For example, it has recognized a
violation of the equal protection clause as a type of
constitutional infringement that “will often alone
constitute irreparable harm.” Goldie’s Bookstore, Inc.
v. Superior Court of State of Cal., 739 F.2d 466, 472
(9th Cir. 1984). Further, the Ninth Circuit has upheld
a decision in which a district court found irreparable
injury on the basis of a Fourth Amendment violation.
Lavan, 693 F.3d at 1033. Thus, Plaintiffs may be able
to show an irreparable injury if they can show that
activities authorized by the Access Regulation are
unconstitutional.

Appendix C-23
While a Fourth Amendment violation may be a
sufficient basis for finding irreparable harm, the
strength of this position is tied to the likelihood of
success of their underlying claim. Dex Media W., Inc.
v. City of Seattle, 790 F. Supp. 2d 1276, 1289 (W.D.
Wash. 2011) (“Because the court finds that Plaintiffs
have failed to establish that they are likely to succeed
on the merits of their First Amendment claim . . . the
court cannot find that Plaintiffs have established that
they are likely to suffer irreparable First Amendment
injury in the absence of a preliminary injunction.”);
accord Nationwide Biweekly Admin., Inc. v. Owen, No.
14-CV-05166-LHK, 2015 WL 1254847, at *9 (N.D. Cal.
Mar. 18, 2015). As discussed above, Plaintiffs have not
demonstrated that the Access Regulation is likely to
cause a constitutional injury. Therefore, they cannot
show that irreparable harm based on such an injury
is likely.
2.

Operational Injuries

Plaintiffs also allege that the potential for them to
lose goodwill and competitive advantage is also likely
to cause them irreparable harm. MPI at 12. They
claim that “just the ‘threatened loss’ of goodwill is
undeniably an irreparable harm under Ninth Circuit
precedent,” citing Stuhlbarg Int’l Sales Co. v. John D.
Brush & Co., 240 F.3d 832, 841 (9th Cir. 2001). MPI
at 12. However, the Stuhlbarg Court’s reliance on the
“possibility” that goodwill would be lost as sufficient
showing of irreparable harm was overruled by the
Supreme Court in Winter: “[T]he Ninth Circuit’s
‘possibility’ standard is too lenient. Our frequently
reiterated standard requires plaintiffs seeking
preliminary relief to demonstrate that irreparable

Appendix C-24
injury is likely in the absence of an injunction.” 555
U.S. at 22. The Ninth Circuit has since made clear
that a plaintiff “must establish a likelihood of
irreparable harm that is grounded in evidence, not in
conclusory or speculative allegations of harm.” Pom
Wonderful LLC v. Hubbard, 775 F.3d 1118, 1133 (9th
Cir. 2014).
Plaintiffs argue that the Access Regulation
“threatens to put Plaintiffs at a competitive
disadvantage relative to their unionized competitors”
by “inciting protests on their property” and will cause
them to lose goodwill because “the regulation sends
the message that Plaintiffs would treat own workers
poorly if it were not for union interference.” MPI at12.
Cedar Point’s owner states that the Access Regulation
will cause Cedar Point to lose goodwill because it
“sends a message that Cedar Point would treat its
workers poorly without union interference.” Fahner
Decl. ¶ 14. Similarly, Fowler’s CEO states that the
access regulation will cause Cedar Point to lose
goodwill because “it sends a message that Fowler
would treat its workers poorly without union
interference.” Decl. of Dennis Parnagian (“Parnagian
Decl.”), Doc. 4-2, ¶ 10. Plaintiffs submitted additional
evidence with their supplemental briefing attesting to
the fact that Cedar Point’s employees were “visibly
shaken and scared” in response to the 2015 episode.
Pls.’ Br. at 4. Cedar Point’s human resources director
attested that “approximately 75” employees resigned
in response to the event and that since that time,
“every labor contractor who has contacted me has
asked whether Cedar Point has resolved issues with
the union.” Halpenny Decl. ¶¶ 8-9. The Court credits
Plaintiffs’ frustration with the events alleged to have

Appendix C-25
occurred in 2015, as well as their alleged
ramifications. If Plaintiffs were able to tie these
allegations to the lawful implementation or
enforcement of the Access Regulation, then there
might be a basis for finding harm. However, as
discussed above, Plaintiffs have not shown that the
2015 events were the result of lawfully implementing
or enforcing the Access Regulation. Rather, according
to Plaintiffs, these events occurred in violation of the
Access Regulation. Fahner Decl. ¶ 13; Compl. ¶ 34.
Plaintiffs do not present any other objective evidence
that substantiates their theory that the Access
Regulation, when lawfully implemented or enforced,
is likely to cause Plaintiffs to lose goodwill or suffer a
competitive disadvantage. Thus, they have not shown
that the Access Regulation is likely to cause them
irreparable harm.
D. Balance of the Equities/Public Interest
Plaintiffs argue that the balance of the equities
tips in their favor because they would suffer “many
injuries,” such as the “loss of goodwill, a competitive
disadvantage, and deprivation of their constitutional
rights.” MPI at 12-13. As indicated above, Plaintiffs do
not provide sufficient evidentiary support for these
assertions. In contrast, the government has shown
that the state of California has a specific interest in
protecting the rights and safety of the agricultural
workers under the ALRA and that the Access
Regulation is an integral part of this policy. ALRB v.
SC, 16 Cal. 3d at 415.
Plaintiffs invoke the Supreme Court’s decision in
Lechmere, Inc. v. N.L.R.B., 502 U.S. 527 (1992), to
undermine the strength of the State’s stated interests.

Appendix C-26
MPI at 13. In Lechmere, the Supreme Court
considered whether section 7 of the National Labor
Relations Act (“NLRA”) permitted an administrative
law judge to require an employer to allow nonemployee union organizers on to its property. 502 U.S.
at 531. Summarizing its previous holding in Nat’l
Labor Relations Bd. v. Babcock & Wilcox Co., 351 U.S.
105, 109-110 (1956), the Lechmere Court explained
that section 7 “simply does not protect nonemployee
union organizers except in the rare case where ‘the
inaccessibility of employees makes ineffective the
reasonable
attempts
by
nonemployees
to
communicate with them through the usual channels.’”
Id. Plaintiffs argue that Lechmere requires this Court
to find that the Access Regulation is contrary to the
public interest because they claim that their
circumstances differ from those that the Supreme
Court recognized as making the employees
inaccessible (i.e., that their employees speak Spanish
or English, own cell phones and are not housed on
their employer’s property).
First, it must be noted that Lechmere and Babcock
were based on the scope of the NLRA and did not
present constitutional challenges. Therefore, the
holdings in these cases do not control the issue of
whether ALRA regulations are constitutional. But
even if the factors identified in Lechmere and Babcock
might be considered in an evaluation of the public
interest, the outcome of that analysis would favor the
State. As the California Supreme Court recognized in
1976, the ALRB reasonably found that employee
inaccessibility “was the rule rather than the exception
in California agriculture” because

Appendix C-27
. . . many farmworkers are migrants; they
arrive in town in time for the local harvest,
live in motels, labor camps, or with friends or
relatives, then move on when the crop is in.
Obviously home visits, mailings, or telephone
calls are impossible in such circumstances.
According to the record, even those
farmworkers who are relatively sedentary
often live in widely spread settlements, thus
making personal contact at home impractical
because it is both time-consuming and
expensive.
Nor is pamphleting or personal contact on
public property adjacent to the employer’s
premises a reasonable alternative in the
present context, on several grounds. To begin
with, many ranches have no such public areas
at all: the witnesses explained that the
cultivated fields begin at the property line,
and across that line is either an open highway
or the fields of another grower. Secondly, the
typical industrial scene of a steady stream of
workers walking through the factory gates to
and from the company parking lot or nearby
public transportation rarely if ever occurs in
a rural setting. Instead, the evidence showed
that labor contractors frequently transport
farmworkers by private bus from camp to field
or from ranch to ranch, driving directly onto
the premises before unloading; in such
circumstances, pamphleting or personal
contact is again impossible. . .

Appendix C-28
Finally it was also shown that many
farmworkers are illiterate, unable to read
even in one of the foregoing languages; in
such circumstances, of course, printed
messages in handbills, mailings, or local
newspapers are equally incomprehensible.
ALRB v. SC, 16 Cal. 3d at 414-15. The government
presents evidence that these conditions persist today.
ALRB Memo at Ct. R. 10. Thus, the fact that
Plaintiffs’ employees do not meet certain metrics of
isolation does not undermine the State’s position that
these employees are inaccessible to organizers.
Finally, Plaintiffs also submit declarations of
their executives that working conditions at their
properties are excellent and that their employees have
not expressed an interest in organizing. Fahner Decl.
¶ 8, Parnagian Decl. ¶ 6. That is beside the point. The
purpose of the Access Regulation is to provide
employees with the knowledge of their rights. It has
nothing to do with employees’ decisions as to what, if
anything, to do with those rights. This purpose exists
independent of the actual conditions on site. As
discussed above, Plaintiffs provide no evidence that
their workers have reliable access to information
about their organizational rights. For these reasons,
the Court finds that the balance of the equities favors
Defendants and that denial of Plaintiffs’ request is in
the public interest. Drakes Bay Oyster Co., 747 F.3d at
1092.
VII. CONCLUSION AND ORDER
For the reasons discussed above, the Court finds
that each of the Winter factors favors Defendants with

Appendix C-29
respect to Plaintiffs’ Fourth Amendment claims. The
Court previously denied Plaintiffs’ motion as to their
Fifth Amendment claims. It now DENIES Plaintiffs’
motion for preliminary injunction, Doc. 4, in its
entirety.
IT IS SO ORDERED.
Dated: May 26, 2016 /s/ Lawrence J. O’Neill
UNITED STATES CHIEF
DISTRICT JUDGE

Appendix D-1
Filed 4/18/2016
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
CALIFORNIA
CEDAR POINT
NURSERY and
FOWLER PACKING
CO.,

1:16-cv-00185-LJO-BAM

MEMORANDUM
DECISION AND
ORDER DENYING IN
Plaintiffs, PART MOTION FOR
PRELIMINARY
INJUNCTION AND
v.
REQUESTING
WILLIAM B. GOULD SUPPLEMENTAL
BRIEFING [Doc. 4]
IV, et al.,
Defendants.
I. INTRODUCTION
Plaintiffs Cedar Point Nursery and Fowler
Packing Company (“Plaintiffs”) allege that Cal. Code
Regs. tit. 8, § 20900(e) (the “Access Regulation”), a
regulation promulgated by California’s Agricultural
Labor Relations Board (“ALRB”) allowing union
organizers access to worksites, is unconstitutional as
applied to them. Plaintiffs argue that the Access
Regulation allows third parties to take their property
without providing just compensation, in violation of
the Fifth Amendment, and permits unlawful seizure
of their property rights, in violation of the Fourth
Amendment.

Appendix D-2
As set forth below, the Court finds that Plaintiffs
have not shown a substantial likelihood of success on
their Fifth Amendment claim. Plaintiffs present a
stronger legal argument in support of their Fourth
Amendment claim. However, the record needs to be
developed further before the Court can either evaluate
the merits of this argument or balance the equities
involved.
II. THE ACCESS REGULATION
The Access Regulation provides that “the rights of
employees under [California] Labor Code Section
1152” include “the right of access by union organizers
to the premises of an agricultural employer for the
purpose of meeting and talking with employees and
soliciting their support.” Cal. Code Regs. tit. 8,
§ 20900(e). The right is subject to several constraints.
For example, a labor organization must provide notice
to the ALRB and the employer of its intent to appear
onsite. § 20900(e)(1)(B). No organization may appear
for more than four thirty-day periods in any calendar
year. § 20900(e)(1)(A)-(B). Organizers may enter an
employer’s property “for a total period of one hour
before the start of work and one hour after the
completion of work” and for “a single period not to
exceed one hour during the working day for the
purpose of meeting and talking with employees during
their lunch period.” § 20900(e)(3). Access is limited to
a certain number of organizers (depending on the
number of employees) and organizers are not allowed
to engage in “conduct disruptive of the employer’s
property or agricultural operations, including injury
to crops or machinery or interference with the process
of boarding buses.” § 20900(e)(4).

Appendix D-3
III. FACTUAL BACKGROUND
Plaintiff Cedar Point Nursery (“Cedar Point”) is
located in Dorris, California. Compl. for Declaratory
and Injunctive Relief (“Compl.”), Doc. 1, ¶ 8. Cedar
Point employs more than 400 seasonal employees,
who are housed off-site. Id. ¶¶ 26-27. Cedar Point
alleges that United Farm Workers (“UFW”) members
entered their property at 5:00 A.M. on October 29,
2015, “without any prior notice of intent to access the
property” and “disrupted work by moving through the
trim sheds with bullhorns, distracting and
intimidating workers.” Id. ¶ 30. Sometime after this
event, UFW served notice of their intent to take
access. Id. ¶ 32. Cedar Point lodged a complaint
against the UFW with the ALRB regarding UFW’s
failure to provide notice prior to the October 29
incident. Id. ¶ 34. The UFW has also filed a charge
with the ALRB against Cedar Point, alleging that
Cedar Point has committed unfair labor practices. Id.
Plaintiff Fowler Packing Company (“Fowler”) is a
California corporation, headquartered in Fresno,
California. Id. ¶ 9. Fowler describes itself as “one of
the largest shippers in the fresh produce business.” Id.
Fowler’s employees do not live on their property. Id.
¶ 37. The UFW brought charges before the ALRB
against Fowler, based on alleged violations of the
Access Regulation, in July 2015. Id. ¶ 38. It withdrew
these charges in January 2016. Id. ¶ 39. Fowler
alleges that, “[a]bsent the challenged regulation,
Fowler would oppose union access and exercise its
right to exclude trespassers from its property.” Id.
¶ 40.

Appendix D-4
Both companies allege they “have reason to
believe that the access regulation will be applied
against them in the future” and “the only proper and
possible remedy . . . is declaratory and injunctive
relief.” Id. ¶ 57. They state that the Access Regulation
should not apply to them because “such access is
unnecessary given the alternative means of
communication available [to union organizers].” Id.
¶ 64.
IV. PROCEDURAL HISTORY
Plaintiffs filed their complaint against individual
members of the ALRB on February 10, 2016. Compl.
at 11. Plaintiffs argue that the Access Regulation
amounts to both a “taking” in violation of the Fifth
Amendment of the Constitution, and an unlawful
seizure of their private property in violation of the
Fourth Amendment. Id. ¶¶ 58, 64. Plaintiffs seek a
declaratory judgment stating that the Access
Regulation is unconstitutional as applied to them and
an order enjoining the ALRB from enforcing the
regulation against them. Id. at 10:16-19.
On February 16, 2016, Plaintiffs filed a motion for
preliminary injunction seeking to enjoin the ALRB
from enforcing the Access Regulation on their
properties. Proposed Order Granting Prelim. Inj., Doc.
4-4.1 The government filed an opposition on March 9,
While some of the parties’ arguments suggest that Plaintiffs are
raising a facial challenge, it is clear from the remedies sought by
the Complaint and their request for preliminary injunction that
Plaintiffs bring a challenge to the Access Regulation as it is
applied to them. John Doe No. 1 v. Reed, 561 U.S. 186, 194 (2010)
(“[A] claim can have characteristics of as-applied and facial
challenges: it can challenge more than just the plaintiff’s

1

Appendix D-5
2016. Mem. of P. & A. in Opp’n to Pls.’ Mot. for Prelim.
Inj. (“Opposition”), Doc. 7. Plaintiffs filed their reply
on March 16, 2016. Reply in Supp. of Pls.’ Mot. for
Prelim. Inj. (“Reply”), Doc 9. The matter was taken
under submission on the papers pursuant to Local
Rule 230(g). Doc. 10.
V. STANDARD OF DECISION
A “preliminary injunction is an extraordinary and
drastic remedy.” Munaf v. Geren, 552 U.S. 674, 128
(2008). As such, the Court may only grant such relief
“upon a clear showing that the plaintiff is entitled to
such relief.” Winter v. Nat’l Res. Def. Council, Inc., 129
S. Ct. 365, 375 (2008). To prevail, the moving party
must show: (1) a likelihood of success on the merits;
(2) a likelihood that the moving party will suffer
irreparable harm absent a preliminary injunction;
(3) that the balance of equities tips in the moving
party’s favor; and (4) that an injunction is in the public
interest. Id. at 374. In considering the four factors, the
Court “must balance the competing claims of injury
and must consider the effect on each party of the
granting or withholding of the requested relief.” Id. at
376 (quoting Amoco Co. v. Vill. of Gambell, Alaska,
480 U.S. 531, 542 (1987)); Indep. Living Ctr. of S. Cal.,
Inc. v. Maxwell–Jolly, 572 F.3d 644, 651 (9th Cir.
2009).
“[I]f a plaintiff can only show that there are
‘serious questions going to the merits’—a lesser
showing than likelihood of success on the merits—
then a preliminary injunction may still issue if the
particular case without seeking to strike the law in all its
applications.”).

Appendix D-6
‘balance of hardships tips sharply in the plaintiff’s
favor,’ and the other two Winter factors are satisfied.”
Shell Offshore, Inc. v. Greenpeace, Inc., 709 F.3d 1281,
1291 (9th Cir. 2013) (quoting Alliance for the Wild
Rockies v. Cottrell, 632 F.3d 1127, 1135 (9th Cir.
2011)). “Serious questions” in the context of
preliminary injunctive relief are those that are
“substantial, difficult, and doubtful, as to make them
a fair ground for litigation and thus for more
deliberative investigation.” Republic of Philippines v.
Marcos, 862 F.2d 1355, 1362 (9th Cir. 1988) (citation
and internal quotation marks omitted). They do not
need to “promise a certainty of success, nor even
present a probability of success, but must involve a
fair chance of success on the merits.” Id. (citation and
internal quotation marks omitted).
VI. ANALYSIS
A. Takings Claims
1.

Ripeness

Defendants
(“ALRB
Members”
or
“the
government”) argue that Plaintiffs’ takings claims are
unripe under Williamson Cty. Reg’l Planning Comm’n
v. Hamilton Bank of Johnson City, 473 U.S. 172 1985).
Opposition at 10, n. 3. Williamson imposes two
requirements that must be satisfied before a takings
claim may be heard in federal court: (1) “the
government entity charged with implementing the
regulations [must have] reached a final decision
regarding the application of the regulations to the
property at issue,” and (2) the plaintiff must have been
denied compensation by the state. 473 U.S. at 194-95.
As Plaintiffs point out, these requirements are

Appendix D-7
prudential, not jurisdictional, in nature. Guggenheim
v. City of Goleta, 638 F.3d 1111, 1117 (9th Cir. 2010).
“Prudential
considerations
of
ripeness
are
discretionary.” Thomas v. Anchorage Equal Rights
Comm’n, 220 F.3d 1134, 1142 (9th Cir. 2000).
The parties do not seem to dispute that the first
element is met. Therefore, the Court will assume
without deciding that satisfaction of this element is
undisputed.
Plaintiffs argue that the second Williamson
requirement (referred to as the “exhaustion”
requirement) does not apply to their case. Mem. of P.
& A. in Supp. of Pls.’ Mot. for Prelim. Inj. (“MPI”), Doc.
4-1 at 8. They argue that the exhaustion requirement
only applies when a petitioner seeks relief under the
“just compensation clause,” which they do not. Id. This
argument is a red herring. The cases Plaintiffs cite to
support their position that they should be permitted
to bypass the exhaustion requirement all involved
only facial challenges. San Remo Hotel, L.P. v. City &
Cty. of San Francisco, Cal., 545 U.S. 323, 345-46
(2005) (“Petitioners therefore could have raised most
of their facial takings challenges, which by their
nature requested relief distinct from the provision of
‘just compensation,’ directly in federal court.”)
(emphasis added); Cty. Concrete Corp. v. Town of
Roxbury, 442 F.3d 159, 165 (3d Cir. 2006) (holding
that a “facial Fifth Amendment Just Compensation
Takings claim need not comply with the finality rule”);
Levin v. City & Cty. of San Francisco, 71 F. Supp. 3d
1072, 1074 (N.D. Cal. 2014) (holding that plaintiffs in
facial challenge case need not seek compensation in
state court). Therefore, the fact that Plaintiffs do not

Appendix D-8
seek damages does not mean that they are not subject
to the exhaustion requirement. Rather, it is the scope
of the constitutional challenge that is relevant. “[A]s
applied challenges require[ ] Williamson exhaustion,”
while facial challenges “sometimes” do and sometimes
do not. Guggenheim, 638 F.3d at 1117 (citing Sinclair
Oil Corp. v. Cty. of Santa Barbara, 96 F.3d 401, 405
(9th Cir. 1996)). Plaintiffs here bring only as applied
claims. Compl. 10:16-19; MPI at 15. Therefore, they
are subject to both elements of Williamson.
Guggenheim, 638 F.3d at 1117.
A plaintiff may fulfill the second Williamson
prong by showing that “recourse to the state courts
would be futile.” Hacienda Valley Mobile Estates v.
City of Morgan Hill, 353 F.3d 651, 655 (9th Cir. 2003).
Futility exists where a state court has “specifically
heard the cause of action at issue and denied it.” Id.
at 659 (citing Austin v. City & Cty. of Honolulu, 840
F.2d 678, 681 (9th Cir. 1988)). Plaintiffs argue that
they meet this requirement because in Agric. Labor
Relations Bd. v. Superior Court, 16 Cal. 3d 392, 411
(1976) (“ALRB v. SC”), the California Supreme Court
found that the Access Regulation does not constitute
a taking under either the California or U.S.
Constitutions. MPI at 9-10. The ALRB Members did
not address this issue in their Opposition. The Court
agrees with Plaintiffs that ALRB v. SC forecloses their
ability to recover in state court. Id. For this reason,
and in light of the prudential nature of the Williamson
factors, the Plaintiffs takings claims are ripe for
decision.

Appendix D-9
2.

Likelihood of Success on the Merits

Plaintiffs claim that they are likely to succeed on
their takings claims because the Access Regulation
allows a physical invasion of their property rights and
should be recognized as a per se (or “categorical”)
taking under Fifth Amendment jurisprudence. MPI at
6.
a.

Legal Background

There are “two categories of regulatory action that
generally will be deemed per se takings for Fifth
Amendment purposes.” Lingle v. Chevron U.S.A. Inc.,
544 U.S. 528, 538 (2005).. The first is where a
government “requires an owner to suffer a permanent
physical invasion of her property—however minor.”
Id. (citing Loretto v. Teleprompter Manhattan CATV
Corp., 458 U.S. 419, 441 (1982)). The second applies to
regulations that “completely deprive an owner of ‘all
economically beneficial use’ of her property.” Id.
(quoting Lucas v. S. Carolina Coastal Council, 505
U.S. 1003, 1019 (1992)).2 Aside from these two
“relatively narrow categories,” regulatory takings
challenges are governed by the balancing test set forth
in Penn Central Transp. Co. v. New York City, 438
U.S. 104 (1978). Id. Thus, there is an important
distinction
between
“a
permanent
physical
occupation, a physical invasion short of an occupation,
and a regulation that merely restricts the use of
property.” Loretto, 458 U.S. at 441.

2

Plaintiffs do not argue that this category applies to them.

Appendix D-10
b.

The Access Regulation As Applied
to Plaintiffs

Plaintiffs argue that the Access Regulation
constitutes a per se/categorical physical taking
because it infringes on their right to exclude strangers
from their property. MPI at 6-7. Defendants argue
that because it does not authorize a permanent
physical occupation, it is subject to a Penn Central
balancing test. Opposition at 7. Because Plaintiffs do
not explain how they are likely to prevail under Penn
Central, the government claims that they are not
likely to succeed on this issue. Id. at 7-8.
As the government identifies, the plain language
of the Access Regulation does not suggest that
Plaintiffs will be subject to a “permanent physical
occupation” in a manner that has been recognized by
the Supreme Court. Opposition at 9. To the extent
that it requires owners to allow access to those they
want to exclude, such access is limited to certain times
and locations. See § 20900(e)(3)-(4).3 These limitations
ensure that any occupation allowed under the Access
Regulation is far from permanent.
Plaintiffs attempt to escape the reach of Penn
Central by analogizing their case to other takings
cases. First, Plaintiffs cite to the Supreme Court’s
holding in Kaiser Aetna v. United States, 444 U.S. 164
As discussed above, organizations are limited to four thirty-day
periods in any calendar year, § 20900(e)(1)(A)-(B) during which
they may enter an employer’s property “for a total period of one
hour before the start of work and one hour after the completion
of work” and for “a single period not to exceed one hour during
the working day for the purpose of meeting and talking with
employees during their lunch period.” § 20900(e)(3).

3

Appendix D-11
(1979), for the prospect that a taking can occur when
the government creates an easement. MPI at 7.
Plaintiffs are correct that the creation of an easement
may amount to a taking, but they go too far by
equating this action with a categorical taking. Kaiser
Aetna recognized that a public right of access to an
improved pond went “so far beyond ordinary
regulation or improvement for navigation as to
amount to a taking under the logic of Pennsylvania
Coal Co. v. Mahon [ ].” Id. at 178. Pennsylvania Coal
articulated the “general rule” that “while property
may be regulated to a certain extent, if regulation goes
too far it will be recognized as a taking.” 260 U.S. 393,
415 (1922).4 This reference makes it clear that even
though Kaiser Aetna dealt with a type of physical
invasion, the fact that it occurred was not dispositive
as to whether it amounted to a taking. 444 U.S. at 178
(noting that “more than one factor” lead to its
conclusion). For example, it was significant that the
public right of access caused the property owners
serious economic harm. Id. at 180. (“This is not a case
in which the Government is exercising its regulatory
power in a manner that will cause an insubstantial
devaluation of petitioners’ private property; rather,
the imposition of the navigational servitude in this
context will result in an actual physical invasion of the
In that case, the Supreme Court considered a Pennsylvania law
that prohibited mining coal in a manner that would cause
subsidence of residential properties. Id. at 412-413.
Pennsylvania’s highest court had admitted that the law
“destroy[ed] previously existing rights of property and contract.”
Id. at 413. In contrast, the Supreme Court found that the law
provided only a limited benefit to the public. Id. at 414. Thus, its
ultimate conclusion that the law was unconstitutional was the
result of an analysis that weighed the public and private
interests involved. Id. at 416.
4

Appendix D-12
privately owned marina.”). The Supreme Court later
clarified this distinction in Loretto, where it described
that the easement at issue in Kaiser Aetna, “not being
a permanent occupation of land, was not considered a
taking per se.” 458 U.S. at 433. Thus, even if the
Access Regulation could be read as allowing a
continuing intrusion similar to the easement in Kaiser
Aetna, Plaintiffs would still not have demonstrated a
categorical taking.
Plaintiffs next point to the Supreme Court’s
decisions in United States v. Causby, 328 U.S. 256
(1946), and Arkansas Game & Fish Comm’n v. United
States, 133 S. Ct. 511 (2012), for the prospect that
temporary invasions can amount to permanent
occupations. Reply at 2-3. In Causby, the Supreme
Court found that airplane flights over private land
may constitute a taking if they are “so low and so
frequent as to be a direct and immediate interference
with the enjoyment and use of the land.” 328 U.S. at
266. In doing so, the Causby Court emphasized that
the Government had caused “as complete a loss as if
the government had entered upon the surface of the
land and taken exclusive possession of it.” Id. at 261.
In other words, the action at issue in Causby was seen
as akin to an exercise of eminent domain. Here, as
Plaintiffs concede, the government’s infringement on
their property rights is far less severe and far less
frequent.
Further, the Supreme Court has more recently
confirmed that while temporary intrusions may be
compensable, under current jurisprudence they are
treated separately from those that fall on the other
side the “bright line” of permanent physical

Appendix D-13
occupation. Arkansas Game & Fish Comm’n v., 133 S.
Ct. at 518. In Arkansas, the issue before the Court was
whether temporary flooding might be considered a
taking. Id. Notably, the Arkansas Court did not treat
temporary flooding as a permanent physical
occupation. Id. Rather, it found that “[f]looding cases,
like other takings cases, should be assessed with
reference to the ‘particular circumstances of each
case,’ and not by resorting to blanket exclusionary
rules.” Id. at 521. The Arkansas Court also reiterated
the holding in Loretto that “temporary limitations are
subject to a more complex balancing process to
determine whether they are a taking.” Id. at 521
quoting Loretto, 458 U.S. at 436, n. 12). Thus, these
cases do not stand for the proposition that temporary
intrusions may be treated as equivalent to permanent
physical occupations.
Plaintiffs’ reliance on Nollan v. California Coastal
Comm’n, 483 U.S. 825 (1987), and Otay Mesa Prop.,
L.P. v. United States, 670 F.3d 1358, 1360 (Fed. Cir.
2012), is also misplaced. In Nollan, the California
Coastal Commission sought to require owners to grant
the state a public easement across their property, as a
condition of receiving a building permit. Id. at 828. In
coming to the conclusion that a “permanent physical
occupation” had occurred, the Court described the
physical invasion as one where individuals are given
a permanent and continuous right to pass to and fro,
so that the real property may continuously be
traversed, even though no particular individual is
permitted to station himself permanently upon the
premises.” Id. at 832 (emphasis added). In other
words, the Nollan easement was “a classic right-ofway easement.” Id. at 832 n.1. While Plaintiffs liken

Appendix D-14
the Access Regulation to some sort of easement, they
do not show that it would allow the public to access
their property in a permanent and continuous manner
for whatever reason, as in Nollan. In an attempt to tie
their case Nollan, Plaintiffs speculate that the
Supreme Court would have come to the same
conclusion if the Nollan easement “had been limited
to daylight hours or certain months of the year,
because it would continue in perpetuity.” Reply at 3.
Plaintiffs provide no authority for extending this
theory, however, and the Court finds it unpersuasive.
The difference is that it is not necessarily permanent,
depending on what kind of business is conducted at
the location, is limited, and is for a very specific
reason.
Similarly, in Otay Mesa, the Federal Circuit found
that the U.S. Border Patrol had a “blanket easement
to install, maintain, and service sensors” on private
property. 670 F.3d at 1365. As was the case in Nollan,
there is a critical difference between a “blanket
easement” and the limited access allowed to union
organizers by the Access Regulation. Thus, the fact
that the Access Regulation is itself a permanent law
does not mean that its application to the Plaintiffs will
be permanent. Therefore it does not provide a basis for
a categorical taking claim. To find otherwise would
render any law providing any measure of access a
permanent taking. This is plainly not consistent with
the takings jurisprudence.
Finally, Plaintiffs have not shown that the Access
Regulation has been applied to them in such a way
that they have suffered a “permanent physical
occupation.” To the contrary, the testimony of

Appendix D-15
Plaintiffs’ executives demonstrates that union
organizers have entered their property on only one
occasion. Decl. of Mike Fahner (“Fahner Decl.”), Doc.
4-3, ¶ 11. Nor do they claim that the Access Regulation
deprives them of “all economically beneficial use” of
their properties. Thus, Plaintiffs have not shown that
they have suffered, or will suffer, a categorical taking.
Thus, to succeed on their takings claim, Plaintiffs
must show that “justice and fairness” require that the
government compensate them for whatever economic
injuries the Access Regulation causes them. Penn
Central, 438 U.S. at 124. Plaintiffs have not set forth
such arguments in their papers. Thus, they have not
met the heavy burden of showing that there is a
substantial likelihood that they will succeed on this
claim. Therefore, the Court DENIES Plaintiffs’
motion for preliminary injunction as to their Fifth
Amendment claim.
B. Fourth Amendment Claim
Plaintiffs argue that they are likely to succeed on
the merits of their Fourth Amendment claim on the
basis that the Access Regulation unreasonably
interferes with their possessory rights. MPI at 11-12.
1.

Legal Background

The Fourth Amendment provides that the “right
of the people to be secure in their persons, houses,
papers and effects, against unreasonable searches and
seizures, shall not be violated.” U.S. Const. amend. IV.
The Supreme Court recognizes that this protection
extends to possessory as well as privacy interests.
Soldal v. Cook Cty., Ill., 506 U.S. 56, 62 (1992) (“[O]ur
cases unmistakably hold that the Amendment

Appendix D-16
protects property as well as privacy.”). “A ‘seizure’ of
property occurs when there is some meaningful
interference with an individual’s possessory interests
in that property.” United States v. Jacobsen, 466 U.S.
109, 113 (1984). In the determination of whether a
seizure’s interference with possessory interests
violates the Fourth Amendment, “reasonableness is
still the ultimate standard.” Soldal, 506 U.S. at 71. “A
seizure is reasonable if it meets the ‘careful balancing
of governmental and private interests’ that Soldal
requires.” Hroch v. City of Omaha, 4 F.3d 693, 697
(8th Cir. 1993).
When a seizure occurs pursuant to valid law,
making a showing of unreasonableness is a “laborious
task.” Soldal, 506 U.S. at 71. For example, “the
Constitution is not offended by the warrantless
abatement of a vehicle in accordance with a valid state
law from a location where the possessor has no
reasonable expectation of privacy.” Tarantino v.
Syputa, 270 F. App’x 675, 677 (9th Cir. 2008). The fact
that a seizure is conducted in the context of a
legitimate law enforcement or public policy objective
is not dispositive, however. Lavan v. City of Los
Angeles, 693 F.3d 1022, 1030 (9th Cir. 2012) (“A
seizure lawful at its inception can nevertheless violate
the Fourth Amendment because its manner of
execution unreasonably infringes possessory interests
protected by the Fourth Amendment’s prohibition on
“unreasonable seizures.”) (“Lavan I”). In Lavan, nine
homeless individuals alleged that the City of Los
Angeles violated their Fourth and Fourteenth
Amendment rights by “seizing and immediately
destroying their unabandoned [sic] personal
possessions, temporarily left on public sidewalks

Appendix D-17
while [they] attended to necessary tasks such as
eating, showering, and using restrooms.” Id. at 102324. The district court found that Plaintiffs were likely
to be able to show that this seizure was unreasonable
based on “at least three separate declarations and
photographic evidence” showing that the City was “in
fact notified that the property belonged to [plaintiffs],
and that when attempts to retrieve the property were
made, the City took it and destroyed it nevertheless.”
Lavan v. City of Los Angeles, 797 F. Supp. 2d 1005,
1014 (C.D. Cal. 2011) (“Lavan II”). The Ninth Circuit
upheld the preliminary injunction order enjoining the
city from engaging in similar behavior based on the
district court’s “correct” conclusion that “the City’s
destruction of the property rendered the seizure
unreasonable.” Lavan I, 693 F.3d at 1030.
2.

Whether the Access Regulation Violates
Plaintiffs’ Fourth Amendment Rights

Plaintiffs argue that the Access Regulation
violates the seizure clause of the Fourth Amendment
because it “effectively terminates” their “right to
exclude others from their property.” MPI at 11. The
government does not appear to dispute that the Access
Regulation may cause a seizure. Opposition at 11.5
Rather, it argues that Plaintiffs have not shown that
such a seizure is unreasonable, given that the state
The California Supreme Court’ s position on this topic, however,
is that the Access Regulation “is not a deprivation of
‘fundamental personal liberties’ but a limited economic
regulation of the use of real property imposed for the public
welfare.” 16 Cal. 3d at 409. Because the government does not
dispute that the Access Regulation may create a seizure, and the
state court case is not precedential, the Court will assume
without deciding that this is the case.

5

Appendix D-18
has “strong governmental interests at stake . . . to
safeguard the rights of agricultural employees to
freedom of association, self-organization and
collective bargaining.” Id.
In their request for a preliminary injunction,
Plaintiffs do not explain how “a careful balancing of
governmental and private interests” leads to the
conclusion that the Access Regulation’s previous or
future application to them is unreasonable. Rather
they point to the Fourth Circuit’s decision in Presley
v. City of Charlottesville, 464 F.3d 480 (4th Cir. 2006),
as authority for their position that they present a
viable claim. Plaintiffs must go further to show that
they are entitled to a preliminary injunction.
Elsewhere in their papers, Plaintiffs discuss how
conditions around their worksites and related to their
specific workforces make reliance on the access
regulation unnecessary. MPI at 12. They also suggest
that the Access Regulation presents them with
operational challenges. Id. The latter suggestion is not
based on any competent evidence and Plaintiffs do not
elaborate on the extent to which such challenges
would actually harm them. Plaintiffs’ representatives
testify that they fear they will lose “goodwill” because
“it sends a message” that they treat their workers
poorly. Decl. of Dennis Parnagian, Doc. 4-2, ¶ 10;
Fahner Decl. ¶ 14. Plaintiffs, however, do not provide
any authority for the proposition that such a “loss of
goodwill” is a cognizable form of injury that would
support an unlawful seizure claim. Further, Plaintiffs’
representatives do not provide any testimony, other
than conclusory statements, as to any competitive
disadvantages they expect to incur.

Appendix D-19
The government, on the flip side, rested its entire
case on the premise that the Access Regulation is
constitutional on its face. Opposition at 10-11. In
doing so, they failed to explain why it is reasonable to
apply the Access Regulation to the Plaintiffs in
particular. The fact that Access Regulation is legal
itself does not determine if it is constitutional as
applied to Plaintiffs. Miranda v. City of Cornelius, 429
F.3d 858, 865 (9th Cir. 2005) (“The question in this
Court upon review of a state-approved search or
seizure is not whether the search (or seizure) was
authorized by state law. The question is rather
whether the search was reasonable under the Fourth
Amendment.”) (quoting Sibron v. New York, 392 U.S.
40, 61 (1968))). Thus, the government provides this
Court little basis for disputing Plaintiffs’ as-applied
claims.
Plaintiffs’ strongest argument that they will
suffer irreparable harm is based on the possibility
that they will suffer a constitutional injury. The
likelihood and extent to which such an injury will
occur is therefore entwined with the merits of their
legal argument. Thus, the present state of the record
undercuts this court’s ability to evaluate all four
Winter factors. Further briefing is required for the
Court to come to a reasoned decision.
VII. CONCLUSION AND ORDER
For the reasons discussed above, the Court
DENIES
Plaintiffs’
Motion
for
Preliminary
Injunction, Doc. 4, as to their Fifth Amendment claim.
As to Plaintiffs’ Fourth Amendment claim, the
Court ORDERS supplemental briefing as follows:

Appendix D-20
Each side is to submit a brief explaining whether
“careful balancing of governmental and private
interests” leads to the conclusion that the Access
Regulation may reasonably be applied to Plaintiffs.
Briefs are to be no longer than ten (10) pages in
length, not including relevant declarations and
attachments, and are due fourteen days after the date
of this order.
IT IS SO ORDERED.
Dated: April 18, 2016 /s/ Lawrence J. O’Neill
UNITED STATES
DISTRICT JUDGE

Appendix E-1
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
CEDAR POINT NURSERY; FOWLER
PACKING COMPANY, INC.,
Plaintiffs-Appellants,
v.

No. 16-16321
D.C. No.
1:16-cv-00185LJO-BAM

GENEVIEVE SHIROMA; CATHRYN
RIVERA-HERNANDEZ; SANTIAGO
AVILA-GOMEZ, Esquire; ISADORE
HALL III,
Defendants-Appellees.

ORDER

Filed April 29, 2020
Before: Edward Leavy, William A. Fletcher,
and Richard A. Paez, Circuit Judges.
Order;
Concurrence by Judge Paez;
Dissent by Judge Ikuta
SUMMARY*

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the
reader.

*

Appendix E-2
Civil Rights
The panel denied a petition for panel rehearing,
and denied on behalf of the court a petition for
rehearing en banc, from an opinion in which the panel
affirmed the district court’s dismissal of an action
seeking declaratory and injunctive relief against
members of the California Agricultural Labor
Relations Board who promulgated a regulation
allowing union organizers access to agricultural
employees at employer worksites under specific
circumstances.
Concurring in the denial of rehearing en banc,
Judge Paez, joined by Judge W. Fletcher wrote
separately only to respond to arguments raised in
Judge Ikuta’s dissent from the decision, which were
not raised by the parties. Judge Paez stated that the
majority opinion correctly held that the plaintiffs had
not suffered a “permanent and continuous” loss of
their right to exclude the public from their property.
They had thus not suffered a taking in violation of the
Fifth Amendment.
Dissenting from the denial of rehearing en banc,
Judge Ikuta joined by Judges Callahan, R. Nelson,
Bade, Collins, Bress, Bumatay, and VanDyke stated
that the majority fundamentally misunderstood the
nature of the property rights at issue, and how
California had taken them. Judge Ikuta wrote that
the plaintiffs had plausibly alleged that California
had appropriated easements and thus taken valuable
property rights protected by the Takings Clause. By
failing to give fair consideration to the plaintiffs’
actual claims, the majority created a circuit split,
disregarded binding Supreme Court precedent, and

Appendix E-3
deprived property owners of their constitutional
rights.
COUNSEL
Wencong Fa (argued), Jeremy Talcott, Joshua P.
Thompson, Damien M. Schiff, and Christopher M.
Kieser, Pacific Legal Foundation, Sacramento,
California; Ian B. Wieland and Howard A. Sagaser,
Sagaser Watkins & Wieland PC; Fresno, California;
for Plaintiffs-Appellants.
R. Matthew Wise (argued), Deputy Attorney General;
Mark R. Beckington, Supervising Deputy Attorney
General; Douglass J. Woods and Thomas S. Patterson,
Senior Assistant Attorneys General; Xavier Becerra,
Attorney General; Office of the Attorney General,
Sacramento, California; for Defendants-Appellees.
Frank Garrison and Ilya Shapiro, Cato Institute,
Washington, D.C., for Amicus Curiae Cato Institute.
Steven J. Lechner, Mountain States Legal
Foundation, Lakewood, Colorado, for Amicus Curiae
Mountain States Legal Foundation.
Nancy N. McDonough and Carl G. Borden, California
Farm Bureau Federation, Sacramento, California, for
Amicus Curiae California Farm Bureau Federation.
Mario Martínez, Martínez Aguilasocho & Lynch
APLC, Bakersfield, California; Jacob C. Goldberg and
Henry M. Willis, Schwartz Steinsapir Dohrmann &
Sommers LLP, Los Angeles, California; for Amici

Appendix E-4
Curiae United Farm Workers of America and United
Food and Commercial Workers Union, Local 770.
ORDER
The full court was advised of the petition for
rehearing en banc. A judge requested a vote on
whether to rehear the matter en banc. The matter
failed to receive a majority of the votes of the
nonrecused active judges in favor of en banc
consideration. Fed R. App. P. 35.
The petition for rehearing en banc is DENIED.
Attached are a dissent from and a concurrence
respecting the denial of rehearing en banc.
PAEZ, Circuit Judge, concurring in the denial of
rehearing en banc, joined by W. FLETCHER, Circuit
Judge:
A majority of the active judges of the court voted
against rehearing this case en banc. I concur in that
decision and write only to respond to arguments
raised in Judge Ikuta’s dissent from that decision,
which were not raised by the parties. The dissent
argues that the panel opinion failed to address the
Growers’ central argument that the Access Regulation
appropriates an easement by granting union
organizers access to their property without their
approval. According to the dissent, because an
easement is a species of property, the Access
Regulation effects a taking of property in violation of
the Fifth Amendment.

Appendix E-5
The dissent accuses the majority of ignoring the
Growers’ claim and reframing it as a different one.
This seriously mischaracterizes the Growers’
arguments before this court. They argued one and
only one theory of their case: that the Access
Regulation amounted to a “permanent physical
invasion” of their property. They did not argue that
the taking of an easement was the beginning and end
of the analysis. They wisely did not do so because the
argument advanced by Judge Ikuta fundamentally
misapprehends existing Supreme Court authority.
* * *
The dissent’s central doctrinal argument is that
the state engages in a Fifth Amendment taking
whenever it appropriates an easement. As support for
this bright-line rule, the dissent cites a series of
Supreme Court cases purportedly holding that the
imposition of any easement is a per se taking. The
cases say no such thing.
In Portsmouth Harbor Land and Hotel Co. v.
United States, for instance, the dissent points out that
the Court remarked that a “servitude” constitutes “an
appropriation of property for which compensation
should be made.” 260 U.S. 327, 329 (1922) (citation
omitted). But what the dissent neglects to mention is
that in Portsmouth Harbor, the Court limited its
inquiry to whether the servitude imposed in that case
“would constitute an appropriation of property for
which compensation should be made” when the
intrusion “result[ed] in depriving the owner of its
profitable use[.]” Id. (citation omitted) (emphasis
added).

Appendix E-6
The Court applied that same basic principle in
United States v. Causby. There, the Court considered
whether a taking had occurred where military flights
in the airspace over the plaintiffs’ property resulted in
“the destruction of the use of the property as a
commercial chicken farm.” 328 U.S. 256, 259 (1946).
The government conceded—and the Court agreed—
that the military flight activities would effect a taking
if the “flights over respondents’ property rendered it
uninhabitable.” Id. at 261. The government’s actions
resulted in the taking of an “easement of flight” and,
“if permanent and not merely temporary, normally
would be the equivalent of a fee interest.” Id. at 261–
62. The government’s acts “would be a definite
exercise of complete dominion and control over the
surface of the land.” Id. at 262. “If, by reason of the
frequency and altitude of the flights, respondents
could not use this land for any purpose, their loss
would be complete. It would be as complete as if the
United States had entered upon the surface of the
land and taken exclusive possession of it.” Id. at 261
(footnote omitted). Although there was a taking of an
“easement of flight,” a Fifth Amendment taking
occurred not only because of the “easement,” but
because of the severe negative effects of the
government’s actions on the plaintiffs’ property. Id. at
261–62.
Neither of these cases stands for the proposition
that a regulatory easement which allows intermittent
intrusions onto private property will result in a taking
where there is no evidence that the intrusion has
rendered the property “uninhabitable,” id. at 261, or
“depriv[ed] the owner of its profitable use,”
Portsmouth Harbor, 260 U.S. at 329.

Appendix E-7
The dissent faults the majority for failing to
address whether the appropriation of an easement, by
itself, violates the Takings Clause. The dissent
complains that the majority instead erroneously
focuses on whether the Access Regulation amounted
to a “permanent physical invasion.” As support for
this accusation, the dissent notes that in their
complaint, the Growers allege that “the access
regulation now creates an easement for union
organizers to enter Plaintiffs’ private property
without consent or compensation.” The dissent then
asserts that the majority “ignore[d]” and “recharacteriz[ed]” the Growers’ claim.
But the dissent’s theory is not the theory the
Growers advanced in their appellate briefs. Although
the Growers did assert that the Access Regulation
“appropriat[es] an easement[,]” they argued that the
easement was a “permanent physical intrusion” under
Loretto v. Teleprompter Manhattan CATV Corp., 458
U.S. 419 (1982). As a result of this intrusion, the
Growers argued, the Access Regulation effected an
unconstitutional taking.
Guided by the Nollan1 standard—that a
“permanent physical invasion” occurs when the state
grants the public a “permanent and continuous right
to pass to and fro, so that the real property may
continuously be traversed”—the majority correctly
held that the Growers failed to state a cognizable
takings claim. Although the Access Regulation does
not have a contemplated end-date, it does not grant
union organizers a “permanent and continuous right
to pass to and fro” on the Growers’ property. The
1

Nollan v. Cal. Coastal Comm’n, 483 U.S. 825, 832 (1987).

Appendix E-8
regulation makes clear that the union organizers may
not, whenever they desire, enter the employers’
premises to speak with employees about unionization.
Only in specific circumstances may they take
advantage of the limited access provided by the Access
Regulation. Given that the Access Regulation does not
authorize “continuous” access to the Growers’
property, it likewise does not result in a wholesale
deprivation of their right to exclude and thus does not
effect a Fifth Amendment taking. And unlike the
raisin farmers in Horne v. Department of Agriculture,
who were forced to transfer over half of their annual
crops to the federal government, the Growers here
were not stripped of their “rights to possess, use and
dispose of” their property.2 135 S. Ct. 2419, 2428
(2015) (quoting Loretto, 458 U.S. at 435).
The dissent also asserts that the majority opinion
creates a circuit split with the Federal Circuit’s
decision in Hendler v. United States, 952 F.2d 1364
(Fed. Cir. 1991). Not so. In that case, the government
installed wells on the plaintiffs’ property and
subsequently “entered upon [their] land from time to
time, without permission, for purposes of”
maintaining them. Id. at 1377. The court reasoned
2 The government’s raisin-seizure was a per se taking under
Loretto because the growers “lost the entire ‘bundle’ of property
rights in the appropriated raisins—‘the rights to possess, use and
dispose of’ them—with the exception of the speculative hope that
some residual proceeds may be left when the Government is done
with the raisins and has deducted the expenses of implementing
all aspects of the marketing order.” Horne, 135 S. Ct. at 2428
(internal citation omitted). “Actual raisins [were] transferred
from the growers to the Government” and “[t]itle to the raisins
passe[d] to the Raisin Committee.” Id. No such transfer
happened here.

Appendix E-9
that “[t]hese surveillance wells [were] at least as
‘permanent’ in this sense as the CATV equipment in
Loretto, which comprised only a few cables attached
by screws and nails and a box attached by bolts.” Id.
(citation omitted). And even after installing the
physical wells, the government routinely entered the
plaintiffs’ land “at its convenience,” as if it had
“acquired an easement not unlike that claimed in”
Kaiser Aetna v. United States, 444 U.S. 164 (1979).
Hendler, 952 F.2d at 1378. The resulting situation
was a complete “taking of the plaintiffs’ right to
exclude,” so long as the wells remained on the
property. Id. As in Nollan and Kaiser Aetna, the
property owners retained no ability to control when
and where the government trespassed upon their
property. Id.
Here, unlike in Hendler, the Board has not erected
a permanent physical structure on the Growers’
property, and the union organizers are excludable
from the property unless they are authorized to enter
under the terms of the Access Regulation. The court’s
opinion thus does not create a circuit split.
* * *
The court’s majority opinion correctly held that
the Growers have not suffered a “permanent and
continuous” loss of their right to exclude the public
from their property. Nollan, 483 U.S. at 832. They
have thus not suffered a taking in violation of the
Fifth Amendment. Neither the panel majority nor the
district court erred in so holding.

Appendix E-10
For the reasons discussed above and in the
majority opinion, I concur in the court’s decision not
to rehear this case en banc.

IKUTA, Circuit Judge, joined by CALLAHAN, R.
NELSON, BADE, COLLINS, BRESS, BUMATAY,
and VANDYKE, Circuit Judges, dissenting from
denial of rehearing en banc:
Once again, the Ninth Circuit endorses the taking
of property without just compensation. See Horne v.
U.S. Dep’t of Agric., 750 F.3d 1128 (9th Cir. 2014),
rev’d sub nom. Horne v. Dep’t of Agric., 135 S. Ct. 2419
(2015). California property law and Supreme Court
precedent make clear that an easement is private
property protected by the Takings Clause. See, e.g.,
L.A. Terminal Land Co. v. Muir, 136 Cal. 36, 48
(1902); Nollan v. Cal. Coastal Comm’n, 483 U.S. 825,
831 (1987). In opposition to this precedent, the
majority concludes there is no taking because the
state’s appropriation of an easement is not a
“permanent physical occupation.” Cedar Point
Nursery v. Shiroma, 923 F.3d 524, 531–34 (9th Cir.
2019). This decision not only contradicts Supreme
Court precedent but also causes a circuit split. See
Hendler v. United States, 952 F.2d 136, 1377–78 (Fed.
Cir. 1991). We should have taken this case en banc so
that the Supreme Court will not have to correct us
again.
I
The property owners and plaintiffs in this case are
Cedar Point Nursery, a strawberry nursery, and

Appendix E-11
Fowler Packing Company, a shipper of table grapes
and citrus. Both companies employ full-time workers
and seasonal workers, none of whom live on company
property.
The companies abruptly became aware that union
organizers claimed a right to trespass on their
property in the summer of 2015. According to Cedar
Point, early one morning near the end of the
strawberry harvesting season, union organizers
entered Cedar Point’s property and trespassed across
it to the trim sheds, where hundreds of employees
were preparing strawberry plants. The union
organizers disrupted work by moving through the
trim sheds with bullhorns, distracting and
intimidating the workers. Fowler, on the other hand,
was able to avoid such an intrusion; when the union
organizers attempted to invade Fowler’s property,
Fowler blocked them.
After these clashes, union organizers filed
complaints against both Cedar Point and Fowler with
the California Agricultural Labor Relations Board
(the Board), alleging unfair labor practices. The union
organizers claimed that they had a statutory right to
enter Cedar Point’s and Fowler’s property based on
the Agricultural Labor Relations Act (the Act), Cal.
Lab. Code §§ 1140–1166.3. The Act, enacted in 1975,
substantially tracks the language of the National
Labor Relations Act by giving employees the right to
concerted action. Compare Cal. Lab. Code § 1152 with
29 U.S.C. § 157.
The Act does not authorize non-employees to
enter private property. See, e.g., Cal. Lab. Code § 1152.
But shortly after the Act went into effect, the Board

Appendix E-12
promulgated an emergency regulation to give union
organizers access to the private property of
agricultural employers. See Cal. Code Regs. tit. 8,
§ 20900(e). This emergency regulation is sometimes
referred to as the “Access Regulation.” In
promulgating the regulation, the Board relied on a
Supreme Court opinion, N.L.R.B. v. Babcock & Wilcox
Co., 351 U.S. 105 (1956), which upheld an employer’s
right to exclude nonemployee union organizers from
the employer’s private property but also created an
exception: the employer’s property right must “yield to
the extent needed to permit communication of
information on the right to organize” when “the
location of a plant and the living quarters of the
employees place the employees beyond the reach of
reasonable union efforts to communicate with them,”
id. at 113; see Agric. Labor Relations Bd. v. Superior
Court, 16 Cal. 3d 392, 414 (1976) (the Board
“predicated its access regulation” on Babcock &
Wilcox).1

At the time the California regulation was promulgated,
agricultural workers often lived on their employer’s property and
were cut off from the outside world, so “unions seeking to
organize agricultural employees d[id] not have available
alternative channels of effective communication.” Cal. Code
Regs. tit. 8, § 20900(c). The agricultural industry has changed
dramatically in the past 40 years, however. “Today, all but a
relative handful of workers obtain housing off-farm.” Brief of
Amicus Curiae Cal. Farm Bureau Fed’n at 8, Cedar Point v.
Shiroma, 923 F.3d 524 (9th Cir. 2019) (No. 16-16321) (quoting
Don Villarejo, Cal. Inst. for Rural Studies, The Status of Farm
Labor Housing 5 (Mar. 6, 2015), https://bit.ly/36tUs7N).
Moreover, modern technology gives union organizers multiple
means of contacting employees. See id. at 9. Given the Supreme
Court’s more recent narrowing construction of Babcock & Wilcox
as applying only to “rare case[s]” where the “inaccessibility of

1

Appendix E-13
The current version of the Access Regulation is
not limited to situations where union organizers do
not have reasonable access to employees.2 Rather, it
gives union organizers a permanent right to access
“the premises of an agricultural employer for the
purposes of meeting and talking with employees and
soliciting their support.” Cal. Code Regs. tit. 8,
§ 20900(e). Union organizers may enter the private
property for one hour before the start of work, one
hour after the completion of work, and one hour
during the lunch break, for 120 days during the
calendar year. Cal. Code Regs. tit. 8, § 20900(e)(3).
Under the regulation, two organizers may enter the
owner’s property for every 15 employees. Cal. Code
Regs. tit. 8, § 20900(e)(4)(A). The Access Regulation
prevents the employer from interfering with the
organizers’ full access to the property, Cal. Code Regs.
tit. 8, § 20900(e)(5)(C), and prohibits the union
organizers only from injuring crops or machinery,
interfering with the employees when they are
boarding buses, and similar disruptive behaviors, Cal.
Code Regs. tit. 8, § 20900(e)(4)(C).
Cedar Point and Fowler filed this action against
members of the Board after union organizers entered
employees makes ineffective the reasonable attempts by
nonemployees to communicate with them through the usual
channels,” Lechmere, Inc. v. N.L.R.B., 502 U.S. 527, 537 (1992)
(citation omitted), the decades-old justifications for the Access
Regulation are questionable.
As Judge Leavy points out in his dissent, Babcock & Wilcox does
not undermine the plaintiffs’ takings claim because their
employees are accessible to union organizers through reasonable
means of communication. Cedar Point, 923 F.3d at 539 (Leavy,
J., dissenting).

2

Appendix E-14
(or attempted to enter) their properties pursuant to
the Access Regulation, alleging that “the access
regulation . . . creates an easement for union
organizers to enter . . . private property without
consent
or
compensation,”
causing
an
“unconstitutional taking.” Cedar Point and Fowler
also allege they have reason to believe that union
organizers will invoke their right under the Access
Regulation to enter their properties in the near future.
If not for the regulation, Cedar Point and Fowler
allege they would exclude union organizers from their
properties. Therefore, they seek a declaration that the
Access Regulation is unconstitutional as applied to
them and an order enjoining the Board from enforcing
the regulation. The district court dismissed the
complaint on the ground that the plaintiffs failed to
state a plausible Takings Clause claim. See Cedar
Point Nursery v. Gould, 2016 WL 3549408, at *5 (C.D.
Cal. June 29, 2016).
The plaintiffs appealed, and the panel affirmed,
over Judge Leavy’s dissent. See Cedar Point Nursery
v. Shiroma, 923 F.3d 524, 536 (9th Cir. 2019). The
majority first acknowledged that Cedar Point and
Fowler “allege that the access regulation, as applied
to them, effects a Fifth Amendment taking by creating
an easement that allows union organizers to enter
their property ‘without consent or compensation.’” Id.
at 531. But instead of addressing this takings claim,
the majority held (without explanation) that the
Access Regulation does not effect a “classic taking in
which government directly appropriates private
property.” Id. (citation omitted).

Appendix E-15
In light of this conclusion, the majority considered
whether the Access Regulation fell within the
category of regulatory takings where “the government
requires an owner to suffer a permanent physical
invasion.” Id. (citation omitted). The majority held
that the plaintiffs had not suffered such a regulatory
taking, because, unlike in Nollan, union organizers
were not allowed to traverse the plaintiffs’ property
“24 hours a day, 365 days a year.” Id. at 532. Rather,
according to the majority, the Access Regulation
merely affected the plaintiffs’ “right to exclude,” which
is only “‘one strand of the bundle’ of property rights.”
Id. at 533. Accordingly, the majority ruled that the
plaintiffs had “not suffered a permanent physical
invasion that would constitute a per se taking.” Id. at
532.3
In reaching this conclusion, the majority
fundamentally misunderstood the nature of the
property rights at issue, and how California had taken
them.
II
Under
long-established
Takings
Clause
principles, the analysis of the plaintiffs’ complaint
should proceed as follows. First, property rights are
determined by reference to state law—here,
California. Second, California law has long recognized
that easements are a traditional form of private
While suggesting that the Access Regulation might fall within
a category of regulatory takings governed by the standards set
out in Penn Central Transportation Co. v. City of New York, 438
U.S. 104 (1978), the majority did not address this issue because
the plaintiffs had not raised it. Cedar Point, 923 F.3d at 533–34.

3

Appendix E-16
property. Third, the Access Regulation appropriates
easements from property owners and transfers them
to union organizers. Finally, consistent with Supreme
Court precedent, the appropriation of an easement
constitutes a taking of “private property” and
therefore requires “just compensation.” U.S. Const.
amend. V.
A
Some background is in order. “Property rights are
created by the State.” Palazzolo v. Rhode Island, 533
U.S. 606, 626 (2001). As such, “the existence of a
property interest is determined by reference to
‘existing rules or understandings that stem from . . .
source[s] such as state law.’” Phillips v. Wash. Legal
Found., 524 U.S. 156, 164 (1998) (quoting Bd. of
Regents v. Roth, 408 U.S. 564, 577 (1972)); accord
United States v. Causby, 328 U.S. 256, 266 (1946).
Although property rights are defined by state law,
there are limits on a state’s ability to alter traditional
understandings of property through legislation. See
Palazzolo, 533 U.S. at 627–28; Phillips, 524 U.S. at
167. “[A]s to confiscatory regulations (as opposed to
those regulating the use of property), a State may not
sidestep the Takings Clause by disavowing traditional
property interests long recognized under state law.”
Phillips, 524 U.S. at 167. That is, a state may not, “by
ipse dixit, transform private property into public
property without compensation.” Palazzolo, 533 U.S.
at 628 (quoting Webb’s Fabulous Pharmacies, Inc. v.
Beckwith, 449 U.S. 155, 164 (1980)).
Thus, a proper takings analysis begins with a
determination of whether there is a traditional

Appendix E-17
property interest at stake. See Phillips, 524 U.S. at
164; Webb’s Fabulous Pharmacies, 449 U.S. at 162.
Here, a court must look to California law to make such
a determination. See Palazzolo, 533 U.S. at 628;
Phillips, 524 U.S. at 164.
B
For well over a century, California has recognized
that easements are a type of real property. See, e.g.,
L.A. Terminal Land Co. v. Muir, 136 Cal. 36, 48
(1902). “An easement is generally defined as an
‘interest in land created by grant or agreement,
express or implied, which confers a right upon the
owner thereof to some profit, benefit, dominion, or
lawful use out of or over the estate of another.’” Mosier
v. Mead, 45 Cal. 2d 629, 632 (1955) (quoting Muir, 136
Cal. at 48). “An affirmative easement gives its owner
a right to do something on the land of another, such
as a right to pass over the other person’s land.” 6
Miller & Starr, California Real Estate § 15:9 (4th ed.
2019); accord Wolford v. Thomas, 190 Cal. App. 3d
347, 354 (1987); Balestra v. Button, 54 Cal. App. 2d
192, 197 (1942).
One type of affirmative easement recognized
under California law is an easement in gross. See
Balestra, 54 Cal. App. 2d at 197. An easement in gross
is a “personal interest in real estate of another.” Id.
(citation omitted). It may be “granted and held though
not attached to land.” Callahan v. Martin, 3 Cal. 2d
110, 121 (1935) (citation omitted); accord Restatement
(Third) Property § 1.5(2) (2000). The Civil Code of
California provides examples of easements in gross,
including “[t]he right to pasture, and of fishing and
taking game,” “[t]he right of a seat in church,” “[t]he

Appendix E-18
right of burial,” “[t]he right of taking rents and tolls,”
“[t]he right of way,” and “[t]he right of taking water,
wood, minerals, or other things.” Gerhard v. Stephens,
68 Cal. 2d 864, 880 n.11 (1968) (quoting Cal. Civ. Code
§ 802). Thus, as the Civil Code’s examples indicate,
the owner of an easement in gross may enter the land
of another for the purpose of taking some action.
There is a “long line of California cases holding
that an easement in gross is real property.” Balestra,
54 Cal. App. 2d at 197. In California, the owner of such
an easement may sell or transfer it like any other form
of property. See Cal. Civ. Code § 1044; Callahan, 3
Cal. 2d at 121; LeDeit v. Ehlert, 205 Cal. App. 2d 154,
166 (1962) (“In California an easement in gross is both
assignable and inheritable unless restricted by proper
language to certain individuals.”). By the same token,
the state’s appropriation of an easement in gross is a
taking of real property, requiring just compensation.
C
The U.S. Supreme Court has long recognized that
an easement in gross is a traditional form of private
property that cannot be taken without just
compensation. Almost a century ago, the Court held
that plaintiffs had sufficiently alleged “that a
servitude ha[d] been imposed” on their land,4
resulting in an “appropriation of property for which
compensation should be made,” based on allegations
that the federal government “set up heavy coast
A “servitude” refers to “encumbrance[s] consisting in a right to
the limited use of a piece of land or other immovable property
without the possession of it” and “include[s] easements.”
Servitude, Black’s Law Dictionary 1577 (10th ed. 2014).

4

Appendix E-19
defence guns,” intended to fire across the plaintiffs’
land, and had done so on occasion “even if not
frequently.” Portsmouth Harbor Land & Hotel Co. v.
United States, 260 U.S. 327, 329–30 (1922) (citation
omitted).5
Some twenty years later, the Court again held
that an “easement was taken” based on “frequent and
regular flights of army and navy aircraft over
respondents’ land at low altitudes.” Causby, 328 U.S.
at 258, 267. The Court first reasoned that under North
Carolina law, a landowner had a property right “to the
immediate reaches of the superadjacent airspace.” Id.
at 266. Therefore, invasions of that property “are in
the same category as invasions of the surface.” Id. at
265. Because the government’s flights were within the
airspace owned by the landowners, the Court
concluded that an “easement was taken” and the
government owed the landowners just compensation.
Id. at 267. The Court reached this conclusion even
though more fact-finding was necessary given that the
trial court’s “findings of fact contain[ed] no precise
description as to [the] nature” of the easement. Id. The
easement was “not described in terms of frequency of
flight, permissible altitude, or type of airplane.” Id.
“Nor [was] there a finding as to whether the easement
Contrary to the concurrence in the denial of the petition for
rehearing en banc (hereinafter, the “Concurrence”), Portsmouth
Harbor did not focus on whether the servitude “result[ed] in
depriving the owner of all profitable use.” Concurrence at 5.
Rather, the government’s intent to use the plaintiffs’ land and its
overt acts in doing so were enough to create a servitude. 260 U.S.
at 329–30; see also Causby, 328 U.S. at 261–62 (holding that
there is “no material difference” between a case where an owner
is prevented from “us[ing] th[e] land for any purpose” and one
where the “use of the land [is] not completely destroyed”).

5

Appendix E-20
taken was temporary or permanent.” Id. Because “an
accurate description of the property taken is
essential,” the Court remanded for additional findings
of fact to determine the appropriate amount of the
award of compensation. Id. at 267–68. In short, once
an easement is taken, the remaining question is the
amount of just compensation, which is determined
based on the nature of the easement.
Over three decades later, the Court held that
there was a taking of private property when the
government claimed that a marina owner was
required to open its lagoon to the public on the ground
that the lagoon was subject to a “navigational
servitude.” Kaiser Aetna v. United States, 444 U.S.
164, 170 (1979). The Court explained that the
government could not open the lagoon to the public
“without invoking its eminent domain power and
paying just compensation” because there is a taking
even if the government “physically invades only an
easement in property.” Id. at 180 (citing Causby, 328
U.S. at 265; Portsmouth Harbor, 260 U.S. 327).
Although Kaiser Aetna referred to the government’s
imposition of a navigational servitude as a taking
“under the logic” of Pennsylvania Coal Co. v. Mahon,
260 U.S. 393 (1922), as well as “an actual physical
invasion” comparable to the traditional taking of a fee
interest, Kaiser Aetna, 444 U.S. at 178, 180, the Court
has subsequently construed Kaiser Aetna as holding
that there is a taking when the government imposes a
“navigational servitude on [a] marina created and
rendered navigable at private expense,” Lucas v. S.C.
Coastal Council, 505 U.S. 1003, 1029 (1992).

Appendix E-21
To the extent there was any doubt as to whether
the appropriation of an easement constitutes a taking,
it was dispelled by Nollan.6 There, the Court stated
that if California were to require landowners to “make
an easement across their beachfront available to the
public,” there is “no doubt there would . . . be[ ] a
taking.” Nollan, 483 U.S. at 831. According to the
Court, “[t]o say that the appropriation of a public
easement across a landowner’s premises does not
constitute the taking of a property interest but rather
. . . ‘a mere restriction on its use,’ is to use words in a
manner that deprives them of all their ordinary
meaning.” Id. (citation omitted).7
The Federal Circuit’s decision in Hendler v.
United States, 952 F.2d 1364 (Fed. Cir. 1991), is in
accord with these precedents. There, the Federal
Circuit held that the federal government had acquired
an uncompensated easement when “Government
vehicles and equipment entered upon plaintiffs’ land
from time to time, without permission, for purposes of
installing and servicing . . . various [groundwater]

Nollan and Dolan v. City of Tigard upheld the government’s
right to “exact some forms of dedication as a condition for the
grant of a building permit.” Dolan v. City of Tigard, 512 U.S. 374,
385–86 (1994). But the “authority of state and local governments
to engage in land use planning,” id. at 384, is not at issue here.

6

A treatise on which Nollan relied, see 483 U.S. at 831, explains
that both existing easements and “new easements carved out of
the unencumbered fee” are “subject to the power of eminent
domain,” and “[a]ll of these interests must be paid for when the
property is acquired through eminent domain,” 2 Julius L.
Sackman, Nichols on Eminent Domain § 5.01 (3rd ed.) (emphasis
added).

7

Appendix E-22
wells.” Id. at 1377.8 Entry onto private property, “even
though temporally intermittent,” effected a taking
because “the concept of permanent physical
occupation does not require that in every instance the
occupation be exclusive, or continuous and
uninterrupted.” Id. It was sufficient that the vehicles
“entered upon [the] plaintiffs’ land from time to time,”
“remained on the land for whatever duration was
necessary to conduct their activities, and then left,
only to return again when the Government desired.”
Id. The Federal Circuit reasoned that Nollan and
Kaiser Aetna left “little doubt” that “dr[iving] . . . upon
[the] plaintiffs’ land for the purpose of installing and
periodically servicing and obtaining information from
. . . various wells,” though “temporally intermittent,”
constituted a taking. Id. at 1377–78.
In sum, the Supreme Court has repeatedly, and
consistently, recognized that the appropriation of an
easement that allows for entry onto private property
constitutes a taking of property. And the Court has
expressly recognized that taking an easement in
California is, by definition, an “appropriation” of
“property,” not a “mere restriction” on use. Nollan, 483
U.S. at 831 (citation omitted). Indeed, “[t]he clearest
sort of taking occurs when the government encroaches
upon or occupies private land for its own proposed
use.” Palazzolo, 533 U.S. at 617. The Federal Circuit
In a different section of the opinion, the Federal Circuit also
concluded that placing the wells on the plaintiffs’ land gave rise
to an “occupancy . . . within the degree necessary to make out a
taking.” Hendler, 952 F.2d at 1377; compare id. at 1375–77
(analyzing the government’s placement of wells on the plaintiffs’
property) with id. at 1377–78 (analyzing the government’s entry
onto the plaintiffs’ land to install and service the wells).

8

Appendix E-23
has recognized this as well. See Hendler, 952 F.2d at
1378. Only the Ninth Circuit refuses to acknowledge
that taking an easement is a taking.
D
Here, the plaintiffs have plausibly alleged that
California
took
their
property—specifically,
easements in gross—by means of the Access
Regulation.
As the Court has explained, “the classic taking is
one in which the government directly appropriates
private property for its own use.” Horne v. Dep’t of
Agric., 135 S. Ct. 2419, 2425 (2015) (cleaned up). “[I]n
the case of real property, such an appropriation is a
per se taking that requires just compensation.” Id. at
2426. Thus, the sole question is whether the
government has “appropriate[d] private property for
its own use.” Id. at 2425. If so, there “is a per se taking
that requires just compensation.” Id. at 2426.
The right to enter onto the land of another to take
some action is the epitome of an easement in gross.
See, e.g., Cal. Civ. Code § 802; Nollan, 483 U.S. at 832
& n.1; Buehler v. Or.-Wash. Plywood Corp., 17 Cal. 3d
520, 527 (1976); LeDeit, 205 Cal. App. 2d at 159, 165–
67. The Access Regulation gives multiple union
organizers the right to enter onto employers’ private
property to “meet[ ] and talk[ ] with employees and
solicit[ ] their support” for three hours a day, 120 days
a year. Cal. Code Regs. tit. 8, § 20900(e). The Access
Regulation limits a union organizer’s rights to enter
private property to some extent, see Cal. Code Reg. tit.
8, § 20900(e), but that does not detract from the
conclusion that it appropriates easements; indeed,

Appendix E-24
restrictions are a quintessential feature of all
easements.9 Accordingly, we have the “classic taking”
described in Horne. 135 S. Ct. at 2425. It is irrelevant
that the property taken is an easement—as opposed
to some other type of real or personal property—
because the Takings Clause “protects ‘private
property’ without any distinction between different
types.” Id. at 2426. Because California has
“appropriate[d] private property for its own use,”
there has been “a per se taking that requires
compensation.” Id. at 2425–26. No additional showing
is required. See id. Thus, the majority errs in
concluding that the plaintiffs fail to plausibly allege
that their rights under the Takings Clause were
violated. See Cedar Point, 923 F.3d at 531–33.
III
The majority’s failure to recognize that the
plaintiffs have stated a viable takings claim is based
on several fundamental errors.
A
First, the majority ignores the plaintiffs’ claim
that California has directly appropriated their
property and instead suggests that the plaintiffs’
claim must fall into one of “three categories of
See, e.g., Cal. Civ. Code § 806 (extent of an easement is
“determined by the terms of the grant, or the nature of the
enjoyment by which it was acquired”); Youngstown Steel Prods.
Baker v. Pierce, 100 Cal. App. 2d 224, 226 (1950) (“No authority
need be cited for the well-known rule that the owner of a
dominant tenement must use his easement and rights in such a
way as to impose as slight a burden as possible on the servient
tenement.”).

9

Appendix E-25
regulatory action[s]” which are “functionally
equivalent to the classic taking.” Id. at 531 (quoting
Lingle v. Chevron U.S.A. Inc., 544 U.S. 528, 536
(2005)). The three categories identified by the
majority are: (1) “where government requires an
owner to suffer a permanent physical invasion of her
property—however minor,” (2) where regulations
“completely deprive an owner of ‘all economically
beneficial us[e]’ of her property,” and (3) “the
remainder of regulatory actions, which are governed
by the standards set forth in Penn Central
Transportation Co. v. New York City.” Id. (citations
omitted). The majority then focuses on the first of
these three categories of “regulatory actions,”
characterized as a “permanent physical invasion.” See
id. at 531–34.
This re-characterization of the plaintiffs’ claims is
wrong on its face. The plaintiffs’ complaint expressly
alleges that they have suffered what the majority
refers to as a “classic taking,” namely that “the access
regulation . . . creates an easement for union
organizers to enter . . . private property without
consent
or
compensation,”
causing
an
“unconstitutional taking.” As the Supreme Court has
explained, separate and apart from any categories of
regulatory takings, “[t]he paradigmatic taking
requiring just compensation is a direct government
appropriation . . . of private property.” Lingle, 544 U.S.
at 537. Thus, the majority errs by attempting to
rewrite the plaintiffs’ claim that California has
directly appropriated their property into a claim that
regulatory activity has gone too far by causing a
permanent occupation of their land. See Cedar Point,
923 F.3d at 533–34.

Appendix E-26
B
The majority also errs in concluding that the
Access Regulation does not effect a taking because it
“does not grant union organizers a ‘permanent and
continuous right to pass to and fro’ such that the
[plaintiffs’] property ‘may continuously be traversed.’”
Id. at 532. There is no support for the majority’s claim
that the government can appropriate easements free
of charge so long as the easements do not allow for
access “24 hours a day, 365 days a year.” Id.
First, an easement need not allow for a
“continuous physical occupation” for it to be taken. It
is well established that an easement holder’s right to
go onto property of another exists regardless whether
the easement holder permanently occupies the
property. Loretto itself recognizes that Portsmouth
Harbor, Causby, and Kaiser Aetna—cases in which
there was no permanent physical occupation—stand
for the proposition that the government must pay
compensation even if it “physically invades only an
easement in property.” Loretto, 458 U.S. at 433
(citation omitted). And Loretto recognizes that “[t]he
one incontestable case for compensation (short of
formal expropriation) seems to occur when the
government deliberately brings it about that its
agents, or the public at large, regularly use . . . a thing
[such as an easement]10 which . . . was understood to
The law review article from which Loretto quotes makes clear
that the word “‘thing’ signifies any discrete, identifiable (even if
incorporeal) vehicle of economic value which one can conceive of
as being owned,” including “easements,” and that these “things”
“can be affirmatively expropriated by public authority in a
manner analogous to its ‘taking’ of a corporeal thing.”
Michelman, supra at 1184 n.37. That is, even though easements

10

Appendix E-27
be under private ownership.” Id. at 427 n.5 (cleaned
up) (quoting Frank I. Michelman, Property, Utility &
Fairness: Comments on the Ethical Foundations of
‘Just Compensation’ Law, 80 Harv. L. Rev. 1165, 1184
(1967)).
Similarly, Nollan held that imposing an easement
across a property owner’s beachfront property
effectively gave rise to a “permanent physical
occupation,” as in Loretto, “even though no particular
individual [was] permitted to station himself
permanently upon the premises.” 483 U.S. at 832.
And, as the dissent in Nollan pointed out, “public
passage for a portion of the year would either be
impossible or would not occur on appellant’s property”
due to “high-tide line shifts throughout the year.” Id.
at 854 (Brennan, J., dissenting). Put simply, the
Supreme Court has never held that a government has
free rein to take easements, without paying for them,
so long as the easements do not allow for access “24
hours a day, 365 days a year.” Cedar Point, 923 F.3d
at 532. Thus, the majority errs by engrafting a
“continuous use” requirement onto the Takings
Clause.
Second, an easement need not be “permanent” for
it to be taken, contrary to the majority’s repeated
invocation of that word. See Cedar Point, 923 F.3d at
531–34. In Causby, the Court made clear that there
was a taking even though the trial court had not yet
determined whether the “easement taken [was] a
“[h]ave a conceptual existence but no physical existence,”
Incorporeal, Black’s Law Dictionary 884 (10th ed. 2014), they can
be affirmatively expropriated (i.e., taken) just like a piece of land
or an object.

Appendix E-28
permanent or a temporary one.” 328 U.S. at 268; see
also Ark. Game & Fish Comm’n v. United States, 568
U.S. 23, 33 (2012) (“[W]e have rejected the argument
that government action must be permanent to qualify
as a taking.”); First English Evangelical Church of
Glendale v. L.A. Cty., Cal., 482 U.S. 304, 329 (1987)
(“A temporary interference with an owner’s use of his
property may constitute a taking for which the
Constitution requires that compensation be paid.”).
Thus, there is no basis for the majority’s conclusion
that the government can take easements without
paying compensation so long as the easements do not
meet the majority’s definition of “permanent.”
In holding that the plaintiffs’ claim fails because
there is no “permanent physical occupation,” the
majority creates a circuit split by contradicting the
Federal Circuit’s decision in Hendler. The Federal
Circuit’s holding that activity involving “temporally
intermittent” intrusions onto private property effects
a taking, Hendler, 952 F.2d at 1377, is inconsistent
with the majority’s view that there is no taking of an
easement unless “random members of the public [can]
unpredictably traverse the[ ] property 24 hours a day,
365 days a year,” Cedar Point, 923 F.3d at 532.11

As previously explained, see supra at 20 n.8, Hendler analyzed
the entry of the federal officials onto the land separately from the
government’s installation of the wells. Compare 952 F.2d at
1375–77 (analyzing the government’s placement of wells on the
plaintiffs’ property), with id. at 1377–78 (analyzing the
government’s entry onto the plaintiffs’ land to install and service
the wells). Accordingly, the Concurrence errs in attempting to
distinguish Hendler on the ground that the Federal Circuit was
considering only the permanent trespass caused by the
installation of the wells. Cf. Concurrence at 8–9.

11

Appendix E-29
C
Finally, the majority blunders in relying on
PruneYard Shopping Center v. Robins, 447 U.S. 74
(1980), to support its conclusion that the Access
Regulation does not effect a taking, see Cedar Point,
923 F.3d at 531–32. In PruneYard, the appellants
were owners of “a large commercial complex that
cover[ed] several city blocks, contain[ed] numerous
separate business establishments, and [was] open to
the public at large.” 447 U.S. at 83. The owners
ordered a group of high school students who were
distributing literature and soliciting signatures for a
petition to leave the premises. Id. at 77. The
California Supreme Court held that the state
constitution protected speech and petitioning, even at
privately owned shopping centers, and therefore
concluded that the students were entitled to conduct
their activity on the private property. Id. at 78 (citing
Robins v. Pruneyard Shopping Ctr., 23 Cal. 3d 899,
910 (1979)). The U.S. Supreme Court affirmed,
characterizing the state constitutional requirement as
a regulatory restriction that did not go so far as to
constitute a taking. Id. at 82–85.
According
to
the
majority,
PruneYard
“contradict[s]” the plaintiffs’ claim that the Access
Regulation appropriates their property, because
PruneYard involved restrictions on a property owner’s
“right to exclude” individuals from property and the
Court held that there was no taking. Cedar Point, 923
F.3d at 531–32. This reliance on PruneYard is
mistaken.
PruneYard did not involve a state law that gave
third parties access to otherwise private property;

Appendix E-30
rather, the owner in PruneYard “had already opened
his property to the general public.” Nollan, 483 U.S.
at 832 n.1. Indeed, PruneYard framed the issue as
“whether state constitutional provisions, which
permit individuals to exercise free speech and petition
rights on the property of a privately owned shopping
center to which the public is invited, violate the
shopping center owner’s property rights under the
Fifth . . . Amendment.” 447 U.S. at 76–77 (emphasis
added). Given that the shopping center was open to
the public, it is not surprising that the parties did not
argue, and the Supreme Court did not consider,
whether the state had appropriated an easement by
giving members of the public the right to exercise
their “state-protected rights of free expression and
petition” on the shopping center property. Id. at 83.
The Supreme Court subsequently made clear that
PruneYard does not provide guidance for analyzing a
governmental appropriation of an easement. Dolan v.
City of Tigard distinguished the imposition of a
permanent recreational easement from the situation
in PruneYard, where the property was already open to
the public and “attracted more than 25,000 daily
patrons.” 512 U.S. 374, 394 (1994); see also Nollan,
483 U.S. at 832 n.1 (distinguishing the appropriation
of a beachfront easement from the situation in
PruneYard where the owner “had already opened his
property to the general public,” individuals were not
given permanent access to the property, and there was
no “classic right-of-way easement”).12 And, as Horne
12 The word “permanent” has carried a variety of different
meanings in takings jurisprudence, and its meaning has changed
over time. See Causby, 328 U.S. at 267 (referring to “temporary”
and “permanent” easements); Loretto, 458 U.S. at 421 (referring

Appendix E-31
made clear, “limiting a property owner’s right to
exclude certain speakers from an already publicly
accessible shopping center did not take the owner’s
property.” 135 S. Ct. at 2429 (citing PruneYard, 447
U.S. at 83).
Here, unlike in PruneYard, the plaintiffs’
property is not “open to the public at large,” 447 U.S.
at 83, and the plaintiffs expressly alleged that the
Access Regulation appropriates easements. California
has not merely regulated the “right to exclude” certain
persons from property that is open to the public based
on their speech, as in PruneYard; rather, California
has appropriated a state-defined property right.
Therefore, PruneYard is simply inapplicable: The
majority’s fails to recognize that PruneYard did not
involve the taking of easements but rather a
restriction on a landowner’s ability to prevent speech
on land that was already open to the public.
IV
“That rights in property are basic civil rights has
long been recognized,” Lynch v. Household Fin. Corp.,
405 U.S. 538, 552 (1972), and like other civil rights
must be zealously protected from infringement by
government. Here, the plaintiffs allege that California
to a “permanent physical occupation”); Hendler, 952 F.2d at 1376
(“‘[P]ermanent’ does not mean forever, or anything like it”); Ark.
Game & Fish Comm’n, 568 U.S. at 33 (rejecting the “argument
that government action must be permanent to qualify as a
taking”); Cedar Point, 923 F.3d at 533 (referring to a “permanent
per se taking”). But there has been no change in the Supreme
Court’s view that the taking of an easement, whether
“temporary” or “permanent,” constitutes a taking. Causby, 328
U.S. at 267.

Appendix E-32
has appropriated easements and thus taken valuable
property rights protected by the Takings Clause. To
say, as the majority does, that there has not been a
taking, “is to use words in a manner that deprives
them of all their ordinary meaning.” Nollan, 483 U.S.
at 831. By failing to give fair consideration to the
plaintiffs’ actual claims, the majority creates a circuit
split, disregards binding Supreme Court precedent,
and deprives property owners of their constitutional
rights. We should have taken this case en banc to
rectify this error.

Appendix F-1
8 CCR § 20900
§ 20900. Solicitation by Non-Employee Organizers.
Labor Code Section 1140.2 declares it to be the
policy of the State of California to encourage and
protect the right of agricultural employees to full
freedom of association, self-organization, and
designation of representatives of their own choosing.
(a) Agricultural employees have the right under
Labor Code Section 1152 to self-organization, to form,
join, or assist labor organizations, to bargain
collectively through representatives of their own
choosing, and to engage in other concerted activities
for the purpose of collective bargaining or other
mutual aid or protection, as well as the right to refrain
from any or all of such activities except to the extent
that such right may be affected by a lawful agreement
requiring membership in a labor organization as a
condition of continued employment. Labor Code
Section 1153(a) makes it an unfair labor practice for
an agricultural employer to interfere with, restrain, or
coerce agricultural employees in the exercise of these
rights.
(b) The United States Supreme Court has found
that organizational rights are not viable in a vacuum.
Their effectiveness depends in some measure on the
ability of employees to learn the advantages and
disadvantages of organization from others. When
alternative channels of effective communication are
not available to a union, organizational rights must
include a limited right to approach employees on the
property of the employer. Under such circumstances,
both statutory and constitutional principles require

Appendix F-2
that a reasonable and just accommodation be made
between the right of unions to access and the
legitimate property and business interests of the
employer.
(c) Generally, unions seeking to organize
agricultural employees do not have available
alternative channels of effective communication.
Alternative channels of effective communication
which have been found adequate in industrial settings
do not exist or are insufficient in the context of
agricultural labor.
(d) The legislatively declared purpose of bringing
certainty and a sense of fair play to a presently
unstable and potentially volatile condition in the
agricultural fields of California can best be served by
the adoption of rules on access which provide clarity
and predictability to all parties. Relegation of the
issues to case-by-case adjudication or the adoption of
an overly general rule would cause further
uncertainty and instability and create delay in the
final determination of elections.
(e) Accordingly the Board will consider the rights
of employees under Labor Code Section 1152 to
include the right of access by union organizers to the
premises of an agricultural employer for the purpose
of meeting and talking with employees and soliciting
their support, subject to the following regulations:
(1) When Available.
(A) Access under this section onto an
agricultural employer’s property shall be available to

Appendix F-3
any one labor organization for no more than four (4)
thirty-day periods in any calendar year.
(B) Each
thirty-day
period
shall
commence when the labor organization files in the
appropriate regional office two (2) copies of a written
notice of intention to take access onto the described
property of an agricultural employer, together with
proof of service of a copy of the written notice upon the
employer in the manner set forth in Section 20300(f).
If a petition for election is filed, the right of access
shall continue until after the election as provided by
Section 20900(e)(1)(C). If a run-off or rerun election is
directed, the right of access shall continue until after
said election as provided in Section 20900(e)(1)(C).
(C) The right to take access under this
section terminates as to any labor organization after
the fifth day following completion of the ballot count
pursuant to Section 20360(a) in an election conducted
under Chapter 5 of the Act, except that where
objections to the election are filed pursuant to Labor
Code Section 1156.3(c), the right of access shall
continue for ten days following service of and the filing
of such objections. The right to take access under this
Section recommences 30 days prior to the expiration
of the bars to the direction of an election set forth in
Labor Code Sections 1156.5 and 1156.6, and 13
months prior to the expiration of a valid collective
bargaining agreement that would otherwise bar the
holding of an election but for the provisions of Labor
Code Section 1156.7(d). Where the right to take access
is recommenced during the pendency of a valid
collective-bargaining agreement pursuant to this
paragraph, no more than four thirty-day periods of

Appendix F-4
access shall be permitted to any one labor
organization in the 13 months preceding the
expiration of said collective bargaining agreement.
Nothing herein shall be interpreted or applied to
restrict or diminish whatever rights of access may
accrue to a labor organization certified as a bargaining
representative.
(2) Voluntary Agreements on Access. This
regulation establishes the terms upon which a labor
organization may take access. However, it does not
preclude agreements by the parties to permit access
on terms other than as set forth in this part, provided
that any such agreement shall permit access on equal
terms to any labor organization which agrees to abide
by its terms. For the purpose of facilitating voluntary
resolution by the parties of problems which may arise
with access, the notice of intent to take access shall
specify a person or persons who may reach
agreements on behalf of the union with the employer
concerning access to his/her property. The parties are
encouraged to reach such agreements and may
request the aid of the regional director and board
agents in negotiating such agreements; however, no
such attempts to reach an agreement, be they among
the parties themselves or with the aid of this agency,
shall be deemed grounds for delay in the taking of
immediate access once a labor organization has filed
its notice of intent to take access.
(3) Time and Place of Access.
(A) Organizers may enter the property
of an employer for a total period of one hour before the
start of work and one hour after the completion of

Appendix F-5
work to meet and talk with employees in areas in
which employees congregate before and after working.
Such areas shall include buses provided by an
employer or by a labor contractor in which employees
ride to and from work, while such buses are parked at
sites at which employees are picked up or delivered to
work. Where employees board such buses more than
one hour before the start of work, organizers may have
access to such buses from the time when employees
begin to board until such time as the bus departs.
(B) In addition, organizers may enter
the employer’s property for a single period not to
exceed one hour during the working day for the
purpose of meeting and talking with employees during
their lunch period, at such location or locations as the
employees eat their lunch. If there is an established
lunch break, the one-hour period shall encompass
such lunch break. If there is no established lunch
break, the one-hour period shall encompass the time
when employees are actually taking their lunch break,
whenever that occurs during the day.
(4) Numbers of Organizers; Identification;
Prohibited Conduct.
(A) Access shall be limited to two
organizers for each work crew on the property,
provided that if there are more than 30 workers in a
crew, there may be one additional organizer for every
15 additional workers.
(B) Upon request, organizers shall
identify themselves by name and labor organization to
the employer or his agent. Organizers shall also wear
a badge which clearly states his or her name, and the

Appendix F-6
name of the organization which the organizer
represents.
(C) The right of access shall not include
conduct disruptive of the employer’s property or
agricultural operations, including injury to crops or
machinery or interference with the process of
boarding buses. Speech by itself shall not be
considered disruptive conduct. Disruptive conduct by
particular organizers shall not be grounds for
expelling organizers not engaged in such conduct, nor
for preventing future access.
(5) Violations of Section 20900.
(A) Any organizer who violates the
provisions of this part may be barred from exercising
the right of access under this part in any one or more
of the four geographical areas currently designated by
the Board as regions, for an appropriate period of time
to be determined by the Board after due notice and
hearing.
Any labor organization or division thereof whose
organizers repeatedly violate the provisions of this
part may be barred from exercising the right of access
under this part in any one or more of the four
geographical areas currently designated by the Board
as regions, for an appropriate period of time to be
determined by the Board after due notice and hearing.
(B) Violation by a labor organizer or
organization of the access regulation may constitute
an unfair labor practice in violation of Labor Code
Section 1154(a)(1) if it independently constitutes

Appendix F-7
restraint and coercion of employees in the exercise of
their rights under Labor Code Section 1152.
Violations by a labor organizer or organization of
this part may constitute grounds for setting aside an
election where the Board determines in objections
proceedings under Section 1156.3(c) of the Act that
such conduct affected the results of the election.
(C) Interference by an employer with a
labor organization’s right of access under this part
may constitute grounds for setting aside an election
where the Board determines in proceedings under
Section 1156.3(c) of the Act that such conduct affected
the results of the election. Furthermore, such
interference may constitute an unfair labor practice in
violation of Labor Code Section 1153(a) if it
independently
constitutes
interference
with,
restraint, or coercion of employees in the exercise of
their rights under Labor Code Section 1152.
(6) Citrus Industry.
(A) For purposes of this subsection the
term “employer” refers to any “agricultural employer”
involved in the growing, harvesting or packing of
citrus.
(B) The service of a Notice of Intent to
Take Access or Notice of Intent to Organize upon such
an employer and the proper filing of such Notice upon
the appropriate regional office by a labor organization
shall be deemed sufficient under Section 20900(e)(1)
to permit the labor organization to take access, as
provided in this section, to the employees employed at

Appendix F-8
groves and orchards of citrus fruit which the employer
grows, harvests or packs.
(C) Any labor organization which has
duly filed a Notice of Intent to Take Access or Notice
of Intent to Organize concerning the employer may
request, in writing, from the regional director a copy
of the following information required to be made
available pursuant to Section 20915(b): the written
list of the name(s) of the owner(s)/lessee(s) and the
location of each citrus grove or orchard of citrus fruit
which the employer grows, harvests, or packs. If, after
investigation, the regional director determines that
some or all of the owner(s)/lessee(s) of the citrus
groves or orchards of citrus fruit which the employer
grows, harvests, or packs, are part of the bargaining
unit, then, pursuant to the labor organization’s
request, the regional director shall provide to the
labor organization(s) a list containing the names of
the owner(s)/lessee(s) and the location of each grove or
orchard that is included within the bargaining unit.
The regional director will immediately notify the
owner(s)/lessee(s) of said citrus groves or orchards in
writing of the fact that a Notice of Intent to Take
Access or Notice of Intent to Organize has been filed
and that union organizers may take access to the
grove or orchard.
(D) Upon the proper filing and service of
a Notice of Intent to Take Access or Notice of Intent to
Organize, the employer and the union, with the
assistance of the regional director, shall establish the
means whereby the employer will keep the union
informed of the places and times at which the
employer’s crews may be found during the relevant

Appendix F-9
access taking or organizing period. For purposes of
this provision, crews consisting of three (3) or fewer
workers may be excluded, if the employer has no
knowledge of the specific locations in which such
crews will be working during the day. As to such
crews, the employer will provide the union with as
specific a description as possible of the area in which
such employees will be working. Should the employer
and the union fail to establish a mutually agreeable
plan for providing the union with the aforesaid
information, the following procedures shall be
observed:
(1) The employer shall on a day-byday basis during the access period prepare a schedule
showing the place and time where each crew will be
working, including the time each crew will begin
work, take its lunch break, and end work each day and
directions to the location(s) where each crew will be
working. Said schedule shall be posted at least two
hours in advance of the start of work on each day
during the access period. Posting shall occur at the
location from which the employer dispatches its crews,
and the employer will advise the union of that
location. The union’s representatives shall be afforded
reasonable access to the place where the employer
posts the schedules.
(2) Should the union desire to take
access on any given day during the access period, it
shall so notify the employer in advance of the taking
of access and provide a phone number at which it may
be contacted pursuant to subsection (3) below.
(3) Once posting has occurred, the
employer may find it necessary to change the time or

Appendix F-10
place at which a crew will be working. In that event,
the employer shall make reasonable efforts to notify
the union of the new time or location.
Note: Authority cited: Section 1144, Labor Code.
Reference: Section 1152, Labor Code; and ALRB v.
Superior Court (1976) 16 Cal. 3d 392.

Appendix G-1
Filed 2/10/2016
DAMIEN M. SCHIFF, No. 235101
E-mail: dms@pacificlegal.org
JOSHUA P. THOMPSON, No. 250955
E-mail: jpt@pacificlegal.org
CHRISTOPHER M. KIESER, No. 298486
E-mail: cmk@pacificlegal.org
WENCONG FA, No. 301679
E-mail: wf@pacificlegal.org
Pacific Legal Foundation
930 G Street
Sacramento, California 95814
Telephone: (916) 419-7111
Facsimile: (916) 419-7747
HOWARD A. SAGASER, No. 72492
E-mail: has@sw2law.com
IAN B. WIELAND, No. 285721
E-mail: ian@sw2law.com
Sagaser, Watkins & Wieland, PC
7550 North Palm Avenue, Suite 100
Fresno, California 93711
Telephone: (559) 421-7000
Facsimile: (559) 473-1483
Attorneys for Plaintiffs
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF CALIFORNIA

Appendix G-2

CEDAR POINT
NURSERY and FOWLER
PACKING CO.,
Plaintiffs,
v.

No. 1:16-cv-00185-LJOBAM
COMPLAINT FOR
DECLARATORY
AND INJUNCTIVE
RELIEF

WILLIAM B. GOULD IV,
GENEVIEVE SHIROMA,
CATHRYN RIVERAHERNANDEZ, AND J.
ANTONIO BARBOSA,
members of the
Agricultural Labor
Relations Board in their
official capacities,
Defendants.

JURISDICTION
1. The claims in this action arise under the
Fourth and Fifth Amendments to the United States
Constitution, made applicable to the States by the
Fourteenth Amendment. This Court has jurisdiction
under 42 U.S.C. § 1983 and 28 U.S.C. § 1331. A
remedy is sought under 28 U.S.C. § 2201.
2. Under the doctrine of Ex parte Young, 209
U.S. 123 (1908), State officials may be sued for
declaratory and injunctive relief when they act in
violation of the Constitution. This Court has
jurisdiction to grant the requested injunction against

Appendix G-3
an unconstitutional regulation enforced by the
Agricultural Labor Relations Board.
3. Venue is proper in this district because the
conduct at issue took place within this district and the
Plaintiffs’ properties are all located within this
district. 28 U.S.C. § 1391(b)(2). Venue is proper in the
Fresno Division of this District Court under Local
Court Rule 120(d) because Plaintiff Fowler Packing
Co. is located in Fresno County.
INTRODUCTION
4. Cedar Point Nursery (Cedar Point) and
Fowler Packing Co. (Fowler) bring this action for
declaratory and injunctive relief against the Members
of the California Agricultural Labor Relations Board
(the Board) in their official capacities. The action
challenges a Board regulation that unlawfully permits
union organizers to access private property in
violation of the Fourth and Fifth Amendments (the
access regulation).
5. The Fourth Amendment guarantees the right
to be free from unreasonable searches and seizures,
while the Fifth Amendment prevents the government
from depriving property owners of the right to exclude
trespassers from their property without just
compensation. The Board regulation gives union
organizers the right to access private property for the
purposes of soliciting support, and thus authorizes a
seizure and taking of possessory interests in private
property, including the right to exclude others.
6. Cedar Point experienced recent disruptions
caused by United Farm Workers (the Union)

Appendix G-4
organizers protesting on their property under the
guise of the access regulation. The Union filed a
charge against Fowler with the Board for violating the
regulation by denying access to union organizers.
7. The access regulation imposes an easement
across the private property of Cedar Point and Fowler
for the benefit of union organizers. It deprives
Plaintiffs of the right to exclude trespassers from
private property and seizes a possessory interest in
that property. Consequently, it violates the Fourth
and Fifth Amendments to the United States
Constitution, as applied to the States through the
Fourteenth Amendment. Plaintiffs are entitled to
equitable relief under 42 U.S.C. § 1983 and the
Declaratory Judgment Act, 28 U.S.C. § 2201,
including a preliminary injunction.
THE PARTIES
8. Plaintiff Cedar Point Nursery is an Oregon
corporation. Its nursery is located at 624 Dorris
Brownell Road in Dorris, California, a few miles from
the Oregon border. Cedar Point raises strawberry
plants for producers both statewide and nationally. It
has recently been subject to a Union protest on its
property under the guise of the access regulation.
9. Plaintiff Fowler Packing Co. is a California
corporation with its headquarters in Fresno. It is one
of the largest shippers in the fresh produce business,
handling over 5 million boxes of table grapes, and
15 million boxes of citrus each year, including the
popular mandarin brand “Halos.” In July 2015, the
Union filed a charge against Fowler with the Board,
alleging that Fowler had unlawfully denied access to

Appendix G-5
its property at 8570 South Cedar Avenue in Fresno on
three separate days.
10. Defendant William B. Gould IV is Chairman
of the California Agricultural Labor Relations Board.
The Board is an agency of the State of California
which has responsibility for administering the
Agricultural Labor Relations Act (the Act), Cal. Lab.
Code § 1140, et seq. The Board has the responsibility
to investigate unfair labor practice charges and
pursue remedies. Defendant William B. Gould is being
sued in his official capacity as Chairman of the Board.
11. Defendant Genevieve Shiroma is a Board
Member. She is being sued in her official capacity.
12. Defendant Cathyrn Rivera-Hernandez is a
Board Member. She is being sued in her official
capacity.
13. Defendant J. Antonio Barbosa is Executive
Secretary of the Board. He is being sued in his official
capacity.
FACTUAL BACKGROUND RELATING
TO THE ACCESS REGULATION
14. The Agricultural Labor Relations Act, Cal.
Lab. Code § 1140, et seq., went into effect on
August 28, 1975. The Act does not include a provision
permitting access for union organizers on private
property.
15. After the Act took effect, the Board
immediately promulgated an emergency access
regulation. It took effect on August 29, 1975, and was

Appendix G-6
duly certified on December 2, allowing it to remain in
effect until amended or repealed.
16. Two groups of growers challenged the
regulation as a violation of the Takings and Due
Process Clauses of the United States Constitution in
state court immediately after it was adopted. Two
separate California trial courts issued temporary
injunctions. Agricultural Labor Relations Board v.
Superior Court (Pandol & Sons), 16 Cal. 3d 392, 401
(1976). In a 4-3 decision, the California Supreme
Court reversed. Id. at 409-11. The court held that the
Board was not required to decide whether union
access was necessary on a case-by-case basis, but
could instead maintain a blanket rule granting access.
Id. at 409. The dissent, on the other hand, concluded
that “the regulation constitutes an unwarranted
infringement on constitutionally protected property
rights.” Id. at 421 (Clark, J., dissenting).
17. The current version of the access regulation
declares that the Board “will consider the rights of
employees under Labor Code Section 1152 to include
the right of access by union organizers to the premises
of an agricultural employer for the purpose of meeting
and talking with employees and soliciting their
support . . . .” Cal. Code Regs. tit. 8, § 20900(e).
18. The regulation contains time, place, and
manner restrictions: (1) access is available for no more
than four 30-day periods in a calendar year; (2) each
such period commences when the Union files a written
Notice of Intent to Take Access as well as proof of
service on the agricultural employer; (3) organizers
can enter the property for one hour before the start of
work, one hour after the completion of work, and one

Appendix G-7
hour during the lunch break; (4) two organizers are
permitted per work crew of up to 30 employees, with
an additional organizer allowed for each additional 15
employees. Id. § 20900(e)(1)-(4).
19. Interference with the union organizers’
regulatory right of access “may constitute an unfair
labor practice in violation of Labor Code Section
1153(a) if it independently constitutes interference
with, restraint, or coercion of employees in the
exercise of their rights under Labor Code Section
1152.” Id. § 20900(e)(5)(c).
20. In 2015, the Union filed 62 notices of intent to
take access with the Board. See Exhibit A.
FACTUAL BACKGROUND RELATING
TO THE BOARD AND ITS PROCEEDINGS
21. Board regulations allow any person to file a
charge against any other person for engaging in an
unfair labor practice. Cal. Code Regs. tit. 8, § 20201.
The charge must contain “[a] short statement of the
facts allegedly constituting an unfair labor practice.”
Id. § 20202(c).
22. Once the charge has been filed, the regional
director of the proper Board office has a duty to
investigate whether an unfair labor practice has been
committed. Id. § 20216. If the regional director
concludes that no reasonable cause exists or there is
insufficient evidence to support the charge, it is
dismissed. Id. § 20218. The regional director must
then issue a written notice explaining the reasons for
the dismissal. Id.

Appendix G-8
23. Upon a dismissal, the charging party may
seek review by the Board’s general counsel. Id.
§ 20219. The general counsel may affirm the regional
director’s decision, remand for further factfinding, or
issue a formal complaint in the name of the Board. Id.
§§ 20219-20220. “The complaint shall contain a
statement of the specific facts upon which jurisdiction
of the Board is based, including the identity of the
respondent, and shall state with particularity the
conduct which is alleged to constitute an unfair labor
practice.” Id. at 20220.
24. Once the complaint is issued, proceedings are
similar to litigation. See id. §§ 20220-20278. At the
conclusion of factfinding and argument, an
administrative law judge (ALJ) makes the decision as
to whether an unfair labor practice has been
committed. Id. § 20279. If the ALJ finds that an unfair
labor practice has been committed, “the decision shall
contain an order for such affirmative action by the
respondent as will effectuate the policies of the Act.”
Id.
25. Within 20 days of the ALJ’s decision, any
party may file an exception to the Board, seeking to
reverse particular parts of the decision. Id. § 20282(a).
If no exceptions are filed, the ALJ’s decision becomes
final 20 days after it is served on the parties. Id.
§ 20286(a). If there are exceptions, “the Board shall
review the applicable law and the evidence and
determine whether the factual findings are supported
by a preponderance of the evidence taken.” Id.
§ 20286(b).

Appendix G-9
FACTS RELATING TO THE PLAINTIFFS
Cedar Point
26. Cedar Point employs more than 400 seasonal
and about 100 full-time workers at its Dorris,
California nursery.
27. Seasonal workers at Cedar Point are housed
in hotels in nearby Klamath Falls, Oregon. None of
Cedar Point’s full-time or seasonal employees live on
the Nursery’s property.
28. Cedar Point employees earn at or above
market rates. Workers typically work 9-hour days
beginning around 6:00 a.m., and complementary
meals are served at designated times on the premises.
Cedar Point’s management has never received
complaints about the working conditions or housing
provided to employees.
29. The Union staged a protest on Cedar Point’s
property during the tail-end of the six-week
strawberry harvesting season in 2015. It was Cedar
Point’s first interaction with the Union.
30. On October 29, 2015, Union protesters
entered Cedar Point’s property at approximately
5:00 a.m., without any prior notice of intent to access
the property. By approximately 6:00 a.m. Union
protesters trespassed across Cedar Point’s property to
the trim sheds, where hundreds of employees were
preparing Cedar Point’s strawberry plants. The
protesters disrupted work by moving through the trim
sheds with bullhorns, distracting and intimidating
workers.

Appendix G-10
31. Some workers who were present when the
Union entered Cedar Point’s property left to protest
with Union representatives. Other workers left the
work site and did not join the protest. Many of the
employees who left the work site or joined the protest
were back at work at Cedar Point by Saturday,
October 31. The majority of workers did not leave
their work stations during the protest.
32. After the Union entered Cedar Point’s
property, the Union informed Cedar Point employees,
including Human Resources Director Rachel
Halpenny, that it had filed paperwork with the Board.
It was at this point—after the Union had already
trespassed throughout the property—that it finally
served the notice of intent to take access.
33. The Union claims that the access regulation
grants it access rights to Cedar Point’s property.
34. Cedar Point has filed a charge against the
Union with the Board, alleging that the Union has
violated the access regulation by taking access to
Cedar Point’s property without providing proper
notice. The Union has also filed a charge against
Cedar Point, alleging that Cedar Point committed an
unfair labor practice.
35. Because
the
Union
was
ultimately
unsuccessful in recruiting most of Cedar Point’s
workers, it is likely the Union will attempt to take
access again in the near future. If not for the
challenged regulation, Cedar Point would exercise its
right to exclude the Union trespassers from its
property.

Appendix G-11
Fowler
36. Fowler employs 1,800 - 2,500 people in its
field operations and approximately 500 people at its
packing facility in Fresno, California. The company
takes its social responsibility seriously; it provides
free, wholesome meals for its packing house
employees on premises, and maintains a medical
clinic that serves all Fowler employees and their
families free of charge. Each employee also carries a
card with a “hotline” number, which they may
anonymously call to report any signs of abuse,
misconduct, harassment, or unsafe working
conditions.
37. Fowler’s employees do not live on the
premises and are fully accessible to the Union when
they are not at work.
38. The Union alleged in a charge that Fowler
interfered with its access rights under the regulation
for three days in July 2015. According to the charge
filed with the Board, the Union duly provided notice
before taking access, but Fowler blocked its organizers
from taking the access permitted by the regulation.
39. Subsequently, the Union moved to withdraw
its charge against Fowler. On January 13, 2016, the
Board granted the Union’s request. The Board did not
indicate the Union’s reason for seeking withdrawal.
40. Absent the challenged regulation, Fowler
would oppose union access and exercise its right to
exclude union trespassers from its property.

Appendix G-12
DECLARATORY RELIEF ALLEGATIONS
41. Under the Fourth, Fifth, and Fourteenth
Amendment to the United States Constitution,
Plaintiffs have a right to be free from laws that take
or seize property for a public purpose, but on an
unreasonable ground and without any mechanism for
compensation.
42. Defendants are charged with enforcing the
access regulation, which takes an interest in private
property without providing a mechanism for
compensation.
43. There is a justiciable controversy in this case
as to whether the regulation violates the Fourth,
Fifth, and Fourteenth Amendments as applied to
Cedar Point and Fowler.
44. A declaratory judgment as to whether the
regulation unconstitutionally takes or seizes property
will clarify the legal relations between Plaintiffs and
Defendants with respect to enforcement of the
regulation.
45. A declaratory judgment as to the
constitutionality and legality of the regulation will
give the parties relief from the uncertainty and
insecurity giving rise to this controversy.
INJUNCTIVE RELIEF ALLEGATIONS
46. Plaintiffs have no adequate remedy at law to
address the unlawful and unconstitutional taking and
deprivation of their property effected by the
regulation and under color of state law.

Appendix G-13
47. There is a substantial likelihood that
Plaintiffs will succeed on the merits of their claims
that the regulation unconstitutionally takes and
seizes private property.
48. Plaintiffs Cedar Point and Fowler are
required to permit union trespassers to enter their
property under the authority of the regulation. They
cannot avoid those events without judicial relief, and
will suffer irreparable injury absent a preliminary
injunction restraining Defendants from enforcing the
regulation.
49. Plaintiffs will suffer irreparable injury absent
a permanent injunction restraining Defendants from
enforcing the regulation.
50. Plaintiffs’ injury—the immediate, unconstitutional, and illegal taking of a property interest for
the benefit of union organizers—outweighs any harm
the injunction might cause Defendants or the State of
California.
FIRST CLAIM FOR RELIEF
(Taking of an Easement Without
Just Compensation, in Violation of
the Fifth and Fourteenth Amendments,
through 42 U.S.C. § 1983)
51. Plaintiffs hereby re-allege each and every
allegation contained in paragraphs 1 through 50 as
though fully set forth herein.
52. The Fifth Amendment to the United States
Constitution, applied to the States through the

Appendix G-14
Fourteenth Amendment, provides “nor shall private
property be taken for public use, without just
compensation.” U.S. Const. amend. V.
53. The Supreme Court of the United States has
recognized that the Declaratory Judgment Act, 28
U.S.C. § 2201, “allows individuals threatened with a
taking to seek a declaration of the constitutionality of
the disputed governmental action before potentially
uncompensable damages are sustained.” Duke Power
Co. v. Carolina Envtl. Study Grp., Inc., 438 U.S. 59,
71 n.15 (1978).
54. As a result of the California Supreme Court’s
Pandol & Sons decision, there is no adequate statelaw remedy for property owners affected by the
Board’s access regulation, and Plaintiffs need not seek
such a remedy before bringing this action in federal
court.
55. In addition, monetary relief is not available as
a matter of law in this action, because “the Eleventh
Amendment bars reverse condemnation actions
brought in federal court against state officials in their
official capacities.” Seven Up Pete Venture v.
Schweitzer, 523 F.3d 948, 956 (9th Cir. 2008).
56. Both Plaintiffs have reason to believe that the
access regulation will be applied against them in the
future. Fowler had a recent charge filed against it for
violating the access regulation. The Union alleges
Fowler prevented union organizers from trespassing
after Fowler had been served with a notice of intent to
take access. Cedar Point has a charge pending against
the Union relating to the Union protest on October 29,
2015.

Appendix G-15
57. Given the foregoing, the only proper and
possible remedy for the constitutional taking injury
alleged in this case is declaratory and injunctive relief,
and this Court is a proper forum for such relief.
58. Since the access regulation now creates an
easement for union organizers to enter Plaintiffs’
private property without consent or compensation, it
causes an unconstitutional taking. Plaintiffs are
entitled to declaratory and injunctive relief
preventing the application of Cal. Code Regs. tit. 8,
§ 20900(e) against them.
SECOND CLAIM FOR RELIEF
(Unconstitutional Seizure in Violation of the
Fourth Amendment, through 42 U.S.C. § 1983)
59. Plaintiffs hereby re-allege each and every
allegation contained in paragraphs 1 through 58 as
though fully set forth herein.
60. The Fourth Amendment to the United States
Constitution, applied to the States through the
Fourteenth Amendment, provides in relevant part:
“The right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable
searches and seizures, shall not be violated . . . .” U.S.
Const. amend. IV.
61. A seizure of property occurs whenever “there
is some meaningful interference with an individual’s
possessory interests in that property.” United States
v. Jacobsen, 466 U.S. 109, 113 (1984).

Appendix G-16
62. The right to exclude unwanted strangers from
private land is a protected possessory interest in real
property.
63. When a private person acts “‘as an agent of
the Government or with the participation or
knowledge of any governmental official,’” then the
private person’s acts are attributed to the
Government. Id. (quoting Walter v. United States, 447
U.S. 649, 662 (1980) (Blackmun, J., dissenting)).
64. By granting an access easement to union
organizers, the Board’s access regulation now permits
those organizers to significantly interfere with
Plaintiffs’ possessory interest in their private
property. And because such access is unnecessary
given the alternative means of communication
available, see Lechmere v. NLRB, 502 U.S. 527, 54041 (1992), it is unreasonable to allow union organizers
to seize this possessory interest in Plaintiffs’ property.
65. Plaintiffs are entitled to injunctive relief and
a declaration that Cal. Code Regs. tit. 8, § 20900(e)
effects an unreasonable seizure of their property.
PRAYER FOR RELIEF
WHEREFORE, Plaintiffs pray for judgment from this
Court as follows:
1. A declaratory judgment that Cal. Code Regs.
tit. 8, § 20900(e) is unconstitutional as applied to
Plaintiffs;
2. An order enjoining Defendants from enforcing
Cal. Code Regs. tit. 8, § 20900(e) against Plaintiffs;

Appendix G-17
3. An award to Plaintiffs of reasonable
attorneys’ fees in bringing and maintaining this action
pursuant to 42 U.S.C. § 1988;
4. An award to Plaintiffs of costs of suit
pursuant to Federal Rule of Civil Procedure 54(d); and
5. An award to Plaintiffs of any other relief that
the Court deems just and proper under the
circumstances of this case.
DATED: February 10, 2016.
Respectfully submitted,
DAMIEN M. SCHIFF
JOSHUA P. THOMPSON
CHRISTOPHER M. KIESER
WENCONG FA
HOWARD A. SAGASER
IAN B. WIELAND
By /s/ Joshua P. Thompson
JOSHUA P. THOMPSON
Attorneys for Plaintiffs

Date
Filed
06/24/15
06/24/15
06/26/15
06/26/15
06/26/15

#
1.
2.
3.
4.
5.

2015-NA-005-SAL

2015-NA-004-SAL

2015-NA-003-SAL

2015-NA-002-SAL

2015-NA-001-SAL

Case
Number

UFW

UFW

UFW

UFW

UFW

Labor
Organization

Notices to Take Acccess (NA) - Salinas
Employer

Corralitos Farms

Garroutte Farms

Ortega Berry Farms

Rocha Brothers Farms

Larse Farms, Inc.

Notice of Intent to Take Access Filings
in 2015

Exhibit 1

Appendix G-18

06/26/15
07/08/15
07/08/15
07/08/15
07/08/15
07/13/15
07/16/15
07/17/15
07/21/15
07/23/15

6.
7.
8.
9.
10.
11.
12.
13.
14.
15.

2015-NA-015-SAL

2015-NA-014-SAL

2015-NA-013-SAL

2015-NA-012-SAL

2015-NA-011-SAL

2015-NA-010-SAL

2015-NA-009-SAL

2015-NA-008-SAL

2015-NA-007-SAL

2015-NA-006-SAL

UFW

UFW

UFW

UFW

UFW

UFW

UFW

UFW

UFW

UFW

Marz Farms, Inc.

Mandalay Berry Farms

Ito Bros, Inc.

Saticoy Berry Farms

Tanimura & Antle Inc.

Scurich Berry Farm

Fernandez Bros. Inc.

Reiter Berry Farms

Aptos Berry Farms

Dutra Farms dba Premiere
Raspberries

Appendix G-19

07/23/15
07/24/15
07/27/15
07/30/15
08/06/15
08/07/15
08/10/15
08/17/15
08/17/15
08/17/15

16.
17.
18.
19.
20.
21.
22.
23.
24.
25.

2015-NA-025-SAL

2015-NA-024-SAL

2015-NA-023-SAL

2015-NA-022-SAL

2015-NA-021-SAL

2015-NA-020-SAL

2015-NA-019-SAL

2015-NA-018-SAL

2015-NA-017-SAL

2015-NA-016-SAL

UFW

UFW

UFW

UFW

UFW

UFW

UFW

UFW

UFW

UFW

Merrill Farms, LLC

Providence Farms, LLC

Aptos Berry Farms

Desert Best Farms

T.T. Miyasaka, Inc.

Harvest Moon Agricultural
Services

Springfield Farms

Ortega Berry Farms (2nd)

Camarillo Berry Farms

Colorado Farms, LLC

Appendix G-20

08/20/15
08/25/15
08/20/15
08/20/15
09/08/15
09/10/15
09/10/15
09/10/15
09/17/15
09/17/15

26.
27.
28.
29.
30.
31.
32.
33
24.
35.

2015-NA-035-SAL

2015-NA-034-SAL

2015-NA-033-SAL

2015-NA-032-SAL

2015-NA-031-SAL

2015-NA-030-SAL

2015-NA-029-SAL

2015-NA-028-SAL

2015-NA-027-SAL

2015-NA-026-SAL

UFW

UFW

UFW

UFW

UFW

UFW

UFW

UFW

UFW

UFW

Elkhorn Berry Organic Farms
LLC

Elkhorn Berry Farms LLC

Sakakihara Farms

Royal Oaks Farms LLC

Rio Mesa Organics Farms

Camarillo Berry Farms

Paraiso Organics, Inc.

Sunset Farming, Inc.

Fernandez Brothers, Inc.

PV Farming Operations LLC

Appendix G-21

10/29/15
11/09/15
11/09/15
11/09/15
11/09/15
11/09/15
11/09/15

36.
37.
38.
39.
40.
41.
42.

2015-NA-042-SAL

2015-NA-041-SAL

2015-NA-040-SAL

2015-NA-039-SAL

2015-NA-038-SAL

2015-NA-037-SAL

2015-NA-036-SAL

UFW

UFW

UFW

UFW

UFW

UFW

UFW

Providence Farms, LLC

T.T. Miyasaka, Inc.

Larse Farms, Inc.

Harvest Moon Agricultural
Services

Dutra Farms dba Premiere
Raspberries, LLC

Tanimura & Antle, Inc.

Cedar Point Nursery

Appendix G-22

Date
Filed
06/25/15
06/25/15
06/29/15
06/30/15
06/30/15
06/30/15
07/07/15

#
1.
2.
3.
4.
5.
6.
7.

2015-NA-007-VIS

2015-NA-006-VIS

2015-NA-005-VIS

2015-NA-004-VIS

2015-NA-003-VIS

2015-NA-002-VIS

2015-NA-001-VIS

Case
Number

Notices to Take Access (NA) - Visalia

UFW

UFW

UFW

UFW

UFW

UFW

UFW

Labor
Organization

Valley Garlic Inc. dba Sequoia
Packing

Family Ranch

Dimare Fresh

Mike Jensen Farms

Sweetwoods Farm . . . Inc. dba
“Red Rooster”

Live Oak Farms

Rogina Inc.

Employer

Appendix G-23

07/09/15
07/09/15
07/09/15
07/09/15
07/10/15
07/10/15
07/13/15
07/30/15
07/31/15
07/31/15

8.
9.
10.
11.
12.
13
14.
15.
16.
17.

2015-NA-017-VIS

2015-NA-016-VIS

2015-NA-015-VIS

2015-NA-014-VIS

2015-NA-013-VIS

2015-NA-012-VIS

2015-NA-011-VIS

2015-NA-010-VIS

2015-NA-009-VIS

2015-NA-008

UFW

UFW

UFW

UFW

UFW

UFW

UFW

UFW

UFW

UFW

Stellar Distributing, Inc.

Live Oak Farms

Dimare Fresh (2nd)

Sonoma Cutrer Vineyards

Vino Farm Inc.

John H. Kautz dba John Kautz
Farms aka Diversified Farms

Martinelli Vineyards

Stamoules Produce Company

Pappas & Co.

Fowler Packing Co.

Appendix G-24

08/03/15
08/04/15
08/24/15

18.
19.
20.

2015-NA-020-VIS

2015-NA-019-VIS

2015-NA-018-VIS

UFW

UFW

UFW

J. Marchini Farms

Specialty Crop Co.

Logoluso Farms Inc.

Appendix G-25

